No. ______

In the Supreme Court of the United States
____________
IBG LLC and Interactive Brokers LLC,
Petitioners,
v.
Trading Technologies International, Inc.,
Respondent.
____________
On Petition for a Writ of Certiorari to
United States Court of Appeals for the
Federal Circuit
____________
PETITION FOR A WRIT OF CERTIORARI
____________

ROBERT E. SOKOHL
Counsel of Record
BYRON L. PICKARD
RICHARD M. BEMBEN
WILLIAM H. MILLIKEN
Sterne, Kessler, Goldstein & Fox, PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
rsokohl@sternekessler.com
Counsel for Petitioners

i
QUESTION PRESENTED
The America Invents Act, Pub. L. No. 112-29, 125
Stat. 284 (2011), and its attendant regulations
establish a program for review of the eligibility and
validity of “covered business method” patents,
known as CBM review. Patents for “technological
inventions” are excepted from the class of “covered
business method” patents that are eligible for CBM
review. AIA § 18(d). Pursuant to express statutory
authority, the Patent Office defined a “technological
invention” as a patent that “recites a technological
feature that is novel and unobvious over the prior
art; and solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b).
This petition presents the following question that
has sharply divided panels of the Federal Circuit:
Whether a patent that does not satisfy the first
prong of § 42.301(b)—that is, that does not recite a
novel and non-obvious technological feature—claims
a “technological invention” under AIA § 18(d).

ii
RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
IBG LLC states that its parent corporations are
Interactive Brokers Group, Inc. and IBG Holdings,
LLC. Petitioner Interactive Brokers LLC states that
its parent corporation is IBG LLC.

iii
STATEMENT OF RELATED CASES
Pursuant to Supreme Court Rule 14.1(b)(iii),
Petitioners state that there are no cases directly
related to the case in this Court. However, the
patents involved in this case are also at issue in the
following pending district-court cases involving the
parties to this appeal:
Trading Technologies
International, Inc. v. BGC Partners Inc., No. 1:10-cv00715 (N.D. Ill.), and Trading Technologies
International, Inc. v. IBG LLC et al., No. 1:10-cv00721 (N.D. Ill.).

iv
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
RULE 29.6 STATEMENT.......................................... ii
STATEMENT OF RELATED CASES ...................... iii
TABLE OF CONTENTS ........................................... iv
TABLE OF AUTHORITIES .................................... vii
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISIONS INVOLVED ................ 1
INTRODUCTION ...................................................... 2
STATEMENT ............................................................. 5
A. Statutory Framework...................................... 5
B. The Patents At Issue ....................................... 9
C. The Underlying CBM Reviews ..................... 12
D. The Federal Circuit’s Decision Below ........... 14
REASONS FOR GRANTING THE PETITION ...... 16
I. THE FEDERAL CIRCUIT HAS DIVIDED
OVER WHETHER TO APPLY THE FULL
DEFINITION OF A “TECHNOLOGICAL
INVENTION” SET FORTH IN 37 C.F.R.
§ 42.301(b). ......................................................... 16
II. THE DECISION BELOW IS INCORRECT. ..... 19
III.THE QUESTION PRESENTED IS
IMPORTANT AND RECURRING. .................... 22

v
IV.THIS CASE PRESENTS A SUPERIOR
VEHICLE FOR RESOLVING THE
QUESTION PRESENTED. ................................ 24
CONCLUSION ......................................................... 24
APPENDICES
APPENDIX A: Court of Appeals
Decision in Appeal Nos. 17-1732, 17-1766,
17-1769; 17-2052, 17-2053; 17-2054; and
17-2565 (Feb. 13, 2019) ...................................... 1a
APPENDIX B: Patent Trial and Appeal Board
Final Written Decision, CBM2015-00161 ........ 11a
APPENDIX C: Patent Trial and Appeal Board
Final Written Decision, CBM2015-00182 ........ 43a
APPENDIX D: Patent Trial and Appeal Board
Final Written Decision, CBM2015-00181 ...... 134a
APPENDIX E: Patent Trial and Appeal Board
Final Written Decision, CBM2016-00031 ...... 231a
APPENDIX F: Court of Appeals
Order Denying Panel Rehearing
and Rehearing En Banc, Appeal Nos.
17-1732, 17-1766, 17-1769 (Apr. 30, 2019) .... 278a
APPENDIX G: Court of Appeals
Order Denying Panel Rehearing
and Rehearing En Banc, Appeal Nos.
17-2052, 17-2053 (Apr. 30, 2019) ................... 280a
APPENDIX H: Court of Appeals
Order Denying Panel Rehearing
and Rehearing En Banc, Appeal No.
17-2054 (Apr. 30, 2019) .................................. 282a

vi
APPENDIX I: Court of Appeals
Order Denying Panel Rehearing
and Rehearing En Banc, Appeal No.
17-2565 (Apr. 30, 2019) .................................. 284a
APPENDIX J: Patent Trial and Appeal Board
Decision Denying Patent Owner’s
Request for Rehearing in
CBM2015-00181 and CBM2015-00182 .......... 286a
APPENDIX K:
Relevant Statutory Provisions ....................... 292a

vii
TABLE OF AUTHORITIES
Cases
In re Alappat,
33 F.3d 1526 (Fed. Cir. 1994) ................................2
Alice Corp. v. CLS Bank Int’l,
573 U.S. 208 (2014) ..........................................8, 12
Apple, Inc. v. Ameranth, Inc.,
842 F.3d 1229 (Fed. Cir. 2016) ......................17, 18
In re Bilski,
545 F.3d 943 (Fed. Cir. 2008),
aff’d, 561 U.S. 593 (2010) ......................................8
Bilski v. Kappos,
561 U.S. 593 (2010) ................................................2
Chevron, U.S.A., Inc. v. Natural
Res. Def. Council,
467 U.S. 837 (1984) ..............................................19
Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131 (2016)............................................5
DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) ............................22
Intellectual Ventures II LLC v.
JPMorgan Chase & Co.,
781 F.3d 1372 (Fed. Cir. 2015) ..............................6

viii
Kisor v. Wilkie,
139 S. Ct. 2400 (2019)..........................................20
Perez v. Mortg. Bankers Ass’n,
135 S. Ct. 1199 (2015)..........................................20
Regents of the Univ. of Minn.
v. LSI Corp.,
926 F.3d 1327 (Fed. Cir. 2019) ..............................6
Return Mail, Inc. v. U.S. Postal Serv.,
139 S. Ct. 1853 (2019)............................................6
SightSound Techs., LLC v. Apple Inc.,
809 F.3d 1307 (Fed. Cir. 2015) ......................17, 18
State Street Bank & Trust Co. v.
Signature Fin. Grp.,
149 F.3d 1368 (Fed. Cir. 1998) ..............................2
Trading Techs. Int’l, Inc. v. CQG, Inc.,
2015 WL 774655 (N.D. Ill. 2015).........................11
Trading Techs. Int’l, Inc. v. CQG, Inc.,
675 F. App’x 1001 (Fed. Cir. 2017) ..................4, 12
Trading Techs. Int’l, Inc. v. IBG LLC,
767 F. App’x 1006 (Fed. Cir. 2019) ......................18
Trading Techs. Int’l, Inc. v. IBG LLC,
921 F.3d 1084 (Fed. Cir. 2019) ............................18
Trading Techs. Int’l, Inc. v. IBG LLC,
921 F.3d 1378 (Fed. Cir. 2019) ............................18

ix
Trading Techs. Int’l, Inc. v. Open
E Cry, LLC,
728 F.3d 1309 (Fed. Cir. 2013) ............................11
United States v. American
Trucking Ass’ns,
310 U.S. 534 (1940) ..............................................22
Versata Dev. Grp., Inc. v. SAP Am., Inc.,
793 F.3d 1306 (Fed. Cir. 2015) .......... 16, 17, 18, 20
Statutes
Leahy-Smith America Invents Act, Pub.
L. No. 112-29, 125 Stat. 284 ..................................6
§ 6 .....................................................................6
§ 18(a)(1) ...........................................................8
§ 18(a)(3) ...........................................................7
§ 18(d) ...............................................................3
§ 18(d)(1) ..........................................................7
§ 18(d)(2) ...................................................17, 19
§ 18(e) ..............................................................21
5 U.S.C. § 706(2)(A) ...................................................19
35 U.S.C. § 101 .................................................. passim
35 U.S.C. § 102 ..................................................5, 8, 22

x
35 U.S.C. § 103 .................................................. passim
35 U.S.C. § 112 ........................................................5, 8
35 U.S.C. § 321(b)........................................................8
37 C.F.R. § 42.301(b) ......................................... passim
Other Authorities
Christopher W. Adams, The Federal
Circuit Continues to Narrow the
Eligibility Standards for CBM
Review of Patents Under the AIA ........................21
Assessing the Effectiveness of the
Transitional Program for Covered
Business Method Patents: Hearing
Before the Subcomm. on Courts,
Intellectual Property, and the
Internet of the H. Comm. on the
Judiciary, 115th Cong. (2018),
https://www.govinfo.gov/content/pkg/
CHRG-115hhrg32789/pdf/CHRG115hhrg32789.pdf, p. 5 ..........................................7
Dennis Crouch, AIA Trials and the
Sunsetting of Covered-BusinessMethod Review,
https://patentlyo.com/patent/2018/03
/sunsetting-covered-business.html
(Mar. 21, 2018) .....................................................23
H.R. Rep. No. 112-98 (2011) .......................................6

xi
Malathi Nayak, House Panel Probes
Covered Business Method Patent
Challenges, Bloomberg Law
(Mar. 20, 2018),
https://www.bna.com/house-panelprobes-n57982090116/ ...........................................7
Patent Owner Preliminary Response,
Wells Fargo Bank, N.A. v. United
Servs. Auto. Ass’n, 2019 WL 1028854
(P.T.A.B. Mar. 4, 2019) ........................................21
Patent Owner’s Response, Apple Inc. v.
Universal Secure Registry, 2019 WL
982836 (P.T.A.B. Feb. 28, 2019) ..........................21
Trading Techs. Int’l, Inc.’s Suppl. Br.,
Trading Techs. Int’l , Inc. v. IBG
LLC, No. 18-1489, Dkt. 84
(Fed. Cir. May 30, 2019) ......................................18

PETITION FOR A WRIT OF CERTIORARI
Petitioners IBG LLC and Interactive Brokers
LLC (collectively, “IBG”) respectfully petition for a
writ of certiorari to review the judgment of the
United States Court of Appeals for the Federal
Circuit in this case.
OPINIONS BELOW
The Federal Circuit’s opinion below is reported at
757 F. App’x 1004. Pet. App. 1a–10a. The Federal
Circuit’s order denying panel rehearing and
rehearing en banc is unreported but is reproduced at
Pet. App. 278a–285a. The underlying opinions of the
Patent Trial & Appeal Board are unreported but are
reproduced at Pet. App. 11a–277a.
JURISDICTION
The Federal Circuit had jurisdiction to review the
decisions of the Patent Trial & Appeal Board under
28 U.S.C. § 1295(a)(4)(A). The Federal Circuit
entered judgment on February 13, 2019, and denied
Petitioners’ timely request for rehearing on April 30,
2019. This Petition is thus timely filed under Sup.
Ct. R. 13.1. This Court’s jurisdiction is invoked
under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory and regulatory provisions
are reproduced in the appendix at 292a–293a.

2
INTRODUCTION
Congress established the covered business
method review program in 2011 to accomplish an
important objective: provide a means for the Patent
Office to review the validity of low-quality “business
method” patents, which had proliferated in the
1990s and 2000s following the Federal Circuit’s
decisions in In re Alappat, 33 F.3d 1526 (Fed. Cir.
1994), and State Street Bank & Trust Co. v.
Signature Financial Group, 149 F.3d 1368 (Fed. Cir.
1998). As this Court observed in Bilski v. Kappos,
many business-method patents of this era were of
“suspect validity” because they merely instructed
“how business should be conducted” and thus
represented improper “attempt[s] to patent abstract
ideas.” 561 U.S. 593, 608–09 (2010).
By any measure, the CBM review program has
been a resounding success. It has resulted in the
cancelling of thousands of patent claims directed to
abstract business tasks implemented on generic and
conventional equipment. These are claims that, if
allowed to stand, “would put a chill on creative
endeavor and dynamic change” by providing the
patentee a monopoly on the abstract business task
itself. Id. at 608.
This case involves just those sorts of claims. The
four patents at issue, owned by Respondent Trading
Technologies International, Inc. (“TT”), relate to the
field of electronic trading and broadly cover methods
of executing trades using a graphical user interface
(GUI) that shows market information in a particular

3
configuration (namely, along a price axis) that
purportedly allows the user to process and respond
to the information more efficiently. The claims do
not recite any particular software or hardware that
is used to accomplish this objective. They merely
claim the abstract idea of placing a trade order based
on displayed and dynamically updated market
information, implemented on a generic computer.
After TT accused IBG of infringing these patents,
IBG petitioned for CBM review, arguing, among
other things, that the patents were directed to
patent-ineligible abstract ideas and were thus
invalid under 35 U.S.C. § 101. The Patent Trial and
Appeal Board cancelled several of the challenged
claims on that ground. The Federal Circuit, however,
ultimately vacated all four decisions, concluding that
the patents were not eligible for CBM review in the
first place because they claimed a “technological
invention” under AIA § 18(d).
This case presents a simple but critically
important question concerning the scope of the
“technological invention” exception to CBM
eligibility. Title 37 C.F.R. § 42.301(b) defines a
patent for a “technological invention” as one that
“recites a technological feature that is novel and
unobvious over the prior art[] and solves a technical
problem using a technical solution.” Some panels of
the Federal Circuit have correctly held that both
prongs of this definition must be satisfied for a
patent to qualify as a “technological invention.”
Others, however—including the panel below—have
ignored the first prong of the definition entirely and

4
focused only on whether the patent purportedly
“solves a technical problem using a technical
solution.”
The latter approach is profoundly improper. It is
a basic principle of administrative law that an
agency regulation enacted pursuant to express
statutory authority carries the force of law. That
means that courts must follow such regulations,
absent a finding that they are arbitrary, capricious,
or manifestly contrary to the statute. The Federal
Circuit has no more power to ignore the first prong
of § 42.301(b) than it has to ignore a duly enacted
provision of the United States Code.
What is more, the panel’s approach conflates the
distinct questions of CBM eligibility and patent
eligibility. The panel reached its conclusion on CBM
eligibility by relying on a prior Federal Circuit
decision (“CQG”) that, on a different record, found
two of the four patents at issue here eligible for
patenting under Section 101 because they claimed “a
specific improvement to the way computers operate.”
Pet. App. 8a (quoting Trading Techs. Int’l, Inc. v.
CQG, Inc., 675 F. App’x 1001, 1006 (Fed. Cir.
2017)). Because of that prior decision, the panel
here concluded that the four patents necessarily are
“technological
inventions”
for
CBM-eligibility
purposes. But treating the CBM- and patenteligibility questions as effectively coextensive makes
no sense. That approach, taken to the extreme, could
mean that the Board cannot find a claim patenteligible in a CBM review—if the Board were to reach
that conclusion, it would have to dismiss the

5
proceeding for lack of jurisdiction instead of deciding
the case on the merits. That is an absurd result that
Congress could not have intended.
Patentees, patent challengers, and the public
alike are ill-served by this confused and confusing
legal regime. The uncertainty engendered by the
Federal Circuit’s conflicting decisions needs to be
laid to rest.
This Court should grant certiorari and reverse
the judgment below.
STATEMENT
A.

Statutory Framework

An inventor who wants a patent on his or her
invention must apply to the Patent Office and
demonstrate to a patent examiner’s satisfaction that
the claimed invention “meets the applicable patent
law requirements” found in 35 U.S.C. §§ 101, 102,
103, and 112. Cuozzo Speed Techs., LLC v. Lee, 136
S. Ct. 2131, 2136–37 (2016). If the examiner
concludes that the requirements are met, the PTO
grants the inventor a patent. See id.
Since 1980, the Patent & Trademark Office “has
also possessed the authority to reexamine—and
perhaps cancel—a patent claim that it had
previously allowed” if the PTO determines that the
claim did not, after all, satisfy the statutory
requirements for patentability. Id. at 2137. Such
“post-grant review” can play a critical role in

6
identifying patents that should never have issued;
“in light of the USPTO’s constrained resources and
the absence of material outside input during the
initial examination, it is inevitable that there are
patents granted in error.” Regents of the Univ. of
Minn. v. LSI Corp., 926 F.3d 1327, 1332 (Fed. Cir.
2019).
In 2011, Congress passed the Leahy-Smith
America Invents Act, Pub. L. No. 112-29, 125 Stat.
284, which created three new types of post-grant
adjudicatory proceedings: inter partes review, postgrant review, and covered business method patent
(“CBM”) review. See AIA §§ 6, 18; Return Mail, Inc.
v. U.S. Postal Serv., 139 S. Ct. 1853, 1860 (2019). A
patent challenger can initiate one of these
proceedings by filing a petition that explains why, in
the petitioner’s view, the challenged patent should
not have been allowed by the PTO. This case arises
from four CBM reviews on four related patents that
were initiated by IBG.
AIA § 18, which governs CBM reviews, was
considered “one of the AIA’s most important reforms”
because it would “crack[ ]down on low-quality
business method patents” that had proliferated in
the years leading up to the law’s passage.
Intellectual Ventures II LLC v. JPMorgan Chase &
Co., 781 F.3d 1372, 1380 (Fed. Cir. 2015) (Hughes,
J., dissenting); see also H.R. Rep. No. 112-98, 54
(2011) (“A number of patent observers believe the
issuance of poor business-method patents during the
late 1990’s through the early 2000’s led to the patent
‘troll’ lawsuits that compelled the Committee to

7
launch the patent reform project 6 years ago.”). The
CBM program is currently scheduled to sunset in
2020 (meaning no petitions will be accepted after
that date). See AIA § 18(a)(3). Congress, however,
has considered making the program permanent in
light of its success in “carr[ying] out its mandate of
offering a cheaper and more efficient process . . . to
filter out the poor quality patents.” Assessing the
Effectiveness of the Transitional Program for Covered
Business Method Patents: Hearing Before the
Subcomm. on Courts, Intellectual Property, and the
Internet of the H. Comm. on the Judiciary, 115th
Cong. 5 (2018), https://www.govinfo.gov/content/pkg/
CHRG-115hhrg32789/pdf/CHRG-115hhrg32789.pdf;
see also Malathi Nayak, House Panel Probes Covered
Business Method Patent Challenges, Bloomberg Law
(Mar. 20, 2018), https://www.bna.com/house-panelprobes-n57982090116/.
Section 18 defines a “covered business method
patent” as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial
product or service, except that the term does not
include patents for technological inventions.” Id.
§ 18(d)(1) (emphasis added). The statute further
directs the PTO to “issue regulations for determining
whether a patent is for a technological invention.”
Id. § 18(d)(2). Pursuant to that authority, the PTO
has enacted 37 C.F.R. § 42.301(b), which provides as
follows:

8
(b)
Technological
invention.
In
determining whether a patent is for a
technological invention solely for
purposes of the Transitional Program
for Covered Business Methods . . . ,
the following will be considered on a
case-by-case basis: whether the
claimed subject matter as a whole
recites a technological feature that is
novel and unobvious over the prior art;
and solves a technical problem using a
technical solution.
Parties who initiate CBM reviews may challenge
the patent claims on any statutory basis of
invalidity, including 35 U.S.C. § 101 (eligibility and
utility), § 102 (novelty), § 103 (non-obviousness), or
§ 112 (enablement, written description, and
definiteness). See AIA § 18(a)(1); 35 U.S.C. § 321(b).
Eligibility challenges under § 101 figure
prominently in many CBM reviews, because many
such patents are directed to “abstract ideas” that are
ineligible for patenting under this Court’s § 101
jurisprudence. See, e.g., Alice Corp. v. CLS Bank
Int’l, 573 U.S. 208 (2014); cf. In re Bilski, 545 F.3d
943, 962 (Fed. Cir. 2008) (“[S]ome so-called business
methods . . . involve the manipulation of . . . abstract
constructs such as legal obligations, organizational
relationships, and business risks.”), aff’d, 561 U.S.
593. The Alice Court reiterated that “abstract ideas
are not patentable” under § 101 and set forth a twostep analysis to “distinguish[] patents that claim . . .
abstract ideas from those that claim patent-eligible

9
applications” of such ideas. Id. at 216–17. First, the
court must “determine whether the claims at issue
are directed to” an abstract idea. Id. at 217. If so, the
second step asks whether the claims, either
individually or “as an ordered combination,” contain
an “inventive concept.” Id. at 217–18.
B.

The Patents At Issue

At issue in this case is the validity of four patents
owned by TT: U.S. Patent Nos. 6,766,304, 6,772,132,
7,6767,411, and 7,813,996. The patents share a
specification and, generally speaking, claim methods
of electronic trading using a GUI that displays “bid
quantities” and “offer quantities” along a price axis.
This display allows the trader easily to observe the
“inside market”—i.e., the highest bid and the lowest
offer—which is where most trades take place. The
GUI is depicted in Figure 3 of the ’304 patent:

10

E.g., Pet. App. 24a (annotated). In this figure, 1020
represents the inside market, because it shows the
highest bids (18 bids at a price of 89) and the lowest
asks (20 asks at a price of 90). The trader can place
orders by, for example, clicking on an “order entry
region” that corresponds to a desired trade.
The claims of the four patents at issue are largely
similar, with one important exception: the ’304, ’132,

11
and ’996 patent claims require the price axis to
remain “static,” whereas the ’411 patent claims do
not. See Trading Techs. Int’l, Inc. v. Open E Cry,
LLC, 728 F.3d 1309, 1315–18 (Fed. Cir. 2013)
(emphasizing this distinction).
The panel here, in characterizing the patents,
identified the static price axis as the critical feature
of the invention. The court reasoned that, in priorart GUIs that displayed the inside market in a
stationary location on the screen, “[t]here was a risk
. . . that a trader would miss her intended price as a
result of prices changing from under her pointer at
the time she clicked on the price cell on the GUI.”
Pet. App. 7a (quoting Trading Techs. Int’l, Inc. v.
CQG, Inc., 2015 WL 774655, at * 4 (N.D. Ill. 2015));
see also Pet. App. 8a–9a (“A trader might intend to
click on a particular price but, between the time he
decides to do so and the time he actually clicks
(which may be only hundredths of a second), the
price may change. He may not be able to stop the
downward motion of his finger and the order would
be sent to market at an incorrect or undesired
price.”) (citation omitted). TT’s invention, however
(the panel said), “keeps the prices static in position”
and thus “solves this problem.” Pet. App. 7a–9a
(citation omitted).1

1 This analysis, even assuming it is correct on its own
terms, does not apply to the ’411 patent because that patent
does not claim a static price axis. The panel apparently
overlooked this fact.

12
The panel’s analysis in this respect relied heavily
on the Federal Circuit’s non-precedential 2017
opinion in Trading Technologies International, Inc.
v. CQG, Inc., 675 F. App’x 1001 (Fed. Cir. 2017),
which had rejected a § 101 challenge to the ’304 and
’132 patents. The CQG decision had concluded that
the patents passed muster under Alice Step One
because they “require[d] a specific, structured [GUI]
paired with a prescribed functionality directly
related to the [GUI]’s structure that is addressed to
and resolves a specifically identified problem.” Id. at
1004. Alternatively, the CQG court concluded that
the claims survived Alice Step Two because “the
static price index [w]as an inventive concept that
allows traders to more efficiently and accurately
place trades using this electronic trading system.”
Id.
C.

The Underlying CBM Reviews

IBG petitioned for CBM review of the four
patents, arguing that various claims were directed to
a patent-ineligible abstract idea under 35 U.S.C.
§ 101 and/or were obvious under 35 U.S.C. § 103. TT
defended the patents’ validity on the merits and also
argued that the patents were for “technological
inventions” and thus ineligible for CBM review in
the first place. Briefly summarized, the Board’s
conclusions were as follows:
First, the Board held that all the challenged
patents were eligible for CBM review. The Board
found that the ’132, ’411, and ’996 patent claims did
not recite a novel and non-obvious technological

13
feature and thus did not meet the first requirement
for a “technological invention” set forth in 37 C.F.R.
§ 42.301(b). Pet. App. 61a; id. 153a; id. 251a. The
Board also found that the ’304, ’411, and ’996 patent
claims did not solve a technical problem using a
technical solution and thus did not meet the second
requirement for a “technological invention” set forth
in the regulation. No. 17-1732, C.A.J.A. 512; Pet.
App. 156a; id. 254a. The problem of a trader not
being able to execute trades quickly enough, the
Board reasoned, was “a financial issue or a business
problem, not a technical problem.” No. 17-1732,
C.A.J.A. 512; Pet. App. 156a; id. 253a.
Second, the Board held that the claims of the ’411
patent and all but three dependent claims of the ’132
patent were invalid as obvious under § 103. See Pet.
App. 214a; id. 104a–105a.
Third, the Board held that the claims of the ’996
and ’411 patents were ineligible for patenting under
§ 101. The Board concluded that the challenged
claims were “directed to the abstract, fundamental
economic practice of trading based on displayed
market information and user input.” Pet. App. 258a;
see also id. 164a. Moreover, the patents did not
“disclose an unconventional or improved method of
mapping the bid quantities, ask quantities, and price
axis to the display”; instead, they simply described
implementing the claimed arrangement of market
information on a generic GUI. Pet. App. 259a–263a;
see also id. 165a–167a. The claims thus lacked the
“inventive concept” required to render them eligible
under § 101. See Pet. App. 269a (“[T]he claim simply

14
recites the use of a generic GUI with routine and
conventional functions.”); id. 174a (same).
Finally, the Board held that the claims of the ’304
and ’132 patents were not ineligible for patenting
under § 101 (even though those claims are
substantively identical to the ’996 patent claims that
the Board held were ineligible). As to those patents,
the Board viewed itself as bound by the Federal
Circuit’s non-precedential CQG decision, which, as
noted above, held that the ’304 and ’132 claims were
not directed to patent-ineligible subject matter. See
Pet. App 15a; id. 65a.
IBG and TT filed appeals and cross-appeals of the
four decisions, and the various appeals were briefed
and then separately argued on the same day to a
single panel of the Federal Circuit.
D.

The Federal Circuit’s Decision
Below

The Federal Circuit vacated all four Board
decisions on the ground that the patents at issue
were not eligible for CBM review. The court first
described its earlier decision in CQG, noting CQG’s
holding that the claims of the ’304 and ’132 patents
were “directed to solving a problem that existed with
prior art GUIs . . . . that a trader would miss her
intended price as a result of prices changing from
under her pointer” and effected “a specific
improvement to the way computers operate.” Pet.
App. 8a.

15
The court then concluded that, “if the claimed
subject matter is directed to a specific improvement
in the way computers operate, as [it] held in CQG,
. . . the patents are also for a ‘technological invention’
under any reasonable meaning of that term.” Id. 9a
(quotation marks and citations omitted). The panel
did not address whether the patents “recite[] a
technological feature that is novel and unobvious
over the prior art,” 37 C.F.R. § 42.301(b), nor did the
panel mention the Board’s uncontroverted findings
that the ’132, ’411, and ’996 patents do not in fact
recite a novel and non-obvious technological feature.
Finally, the court stated that it saw “no
meaningful difference between the claimed subject
matter of the ’132 and ’304 patents and that of the
’411 and ’996 patents for purposes of the
technological invention question,” and accordingly
held that “the same conclusion applies in those cases
as well.” Id. 9a.
IBG petitioned for panel rehearing and rehearing
en banc, arguing that the panel had erred by
(i) ignoring the Board’s uncontroverted findings that
the ’132, ’411, and ’996 patent claims did not satisfy
the first prong of 37 C.F.R. § 42.301(b) because they
did not recite a novel and non-obvious technological
feature; (ii) failing to recognize that the ’411 patent
did not solve the purported “technological problem”
identified by the panel because the ’411 patent does
not require a static price axis; and (iii) effectively
equating patent eligibility under § 101 with CBM
ineligibility under AIA § 18(d).

16
The Federal Circuit denied IBG’s petition for
rehearing, and this petition for certiorari followed.
REASONS FOR GRANTING THE PETITION
I.

THE FEDERAL CIRCUIT HAS DIVIDED
OVER WHETHER TO APPLY THE FULL
DEFINITION OF A “TECHNOLOGICAL
INVENTION” SET FORTH IN 37 C.F.R.
§ 42.301(b).

In deciding the CBM-eligibility question, the
panel in this case effectively discarded the first
prong of the PTO’s definition of a “technological
invention.” In three of the four CBMs under review,
the Board expressly found that the patent claims do
not recite a novel and non-obvious technological
feature. See Pet. App. 61a; id. 153a; id. 251a. With
respect to the ’132 and ’411 patents, the Board
premised this finding in part on its extensive
invalidity analysis under § 103. See Pet. App. 61a;
id. 153a–154a. The panel, however, ignored those
findings.
The panel’s disregard of the first prong of
§ 42.301(b) (and of the Board’s uncontroverted
factual findings that the patents did not satisfy that
prong) is illustrative of a deep tension in the Federal
Circuit’s caselaw. In Versata Development Group,
Inc. v. SAP America, Inc., 793 F.3d 1306 (Fed. Cir.
2015), the first Federal Circuit case to address
§ 42.301(b), the court criticized the regulation at
length. The court opined that the first prong of the
“technological invention” definition “could be said to

17
be rather obvious, and not novel,” because it went to
“ultimate questions” of patentability, while the
second prong unhelpfully “[d]efin[ed] a term in terms
of itself.” Id. at 1326. The court then “[p]ut[] [the
first] part of the regulation’s definition aside” and
focused only on whether the patent at issue solved a
technical problem using a technical solution. See id.
at 1326–27.
The next case to address the regulation was
SightSound Technologies, LLC v. Apple Inc., 809
F.3d 1307 (Fed. Cir. 2015). SightSound concluded
that the patents in question did not claim a
“technological invention” because they did not satisfy
the first prong of § 42.301(b). See 809 F.3d at 1316
(affirming Board’s finding that “the combination of
steps recited in the . . . patents did not amount to a
technological feature that is novel and non-obvious
over the prior art”). While the SightSound court
relied on Versata extensively elsewhere in its
opinion, the court did not mention Versata’s “setting
aside” of the first prong of the regulation.
Finally, in Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229 (Fed. Cir. 2016), the Federal Circuit considered
both prongs of § 42.301(b) and ultimately affirmed
the Board’s finding of CBM eligibility based on the
second prong. See id. at 1240. Ameranth noted
Versata’s criticism of the PTO’s definition of a
technological invention, see id. at 1239, but did not
suggest that the first prong was no longer legally
operative.

18
In short, two panels of the Federal Circuit—the
Versata panel and the panel below—have
disregarded the first prong of the “technological
invention” definition entirely, while two other
panels—the SightSound panel and the Ameranth
panel—have applied the regulation as the PTO
wrote it. Two other panels have noted the confusion
regarding whether the first prong still applies but
declined to reach the issue. See Trading Techs. Int’l,
Inc. v. IBG LLC, 921 F.3d 1378, 1382–83 (Fed. Cir.
2019) [“IBG III”]; Trading Techs. Int’l, Inc. v. IBG
LLC, 921 F.3d 1084, 1089 (Fed. Cir. 2019) [“IBG II”].
And, to make matters worse, just two months ago,
the Federal Circuit heard an appeal from CBM
reviews of another group of TT’s patents—including
the ’768 patent, whose claims are, by TT’s own
admission, “indistinguishable” from the claims at
issue here—and correctly found that the patents
were CBM eligible. Trading Techs. Int’l, Inc. v. IBG,
LLC, 767 F. App’x 1006 (Fed. Cir. 2019) [“IBG IV”];
see TT Suppl. Br., Trading Techs. Int’l, Inc. v. IBG
LLC, No. 18-1489, Dkt. 84 at 9 (Fed. Cir. May 30,
2019) (“The ’768 claims and those in CQG/IBG I are
indistinguishable for purposes of CBM and § 101.”).
It is impossible to justify the conflicting results
reached in these cases. The Federal Circuit has
failed to provide a coherent framework for analyzing
the PTO’s “technological invention” definition, which
has made it impossible for patentees, patent
challengers, and the public to know with any level
certainty which patents are eligible for CBM review
and which are not. The confusion will only continue

19
unless this Court intervenes and clarifies the proper
contours of the analysis.
II.

THE DECISION BELOW IS INCORRECT.

The panel’s apparent belief that it could
simply ignore the first prong of 37 C.F.R. § 42.301(b)
was fundamentally misguided.
Where Congress has expressly delegated to an
agency “authority . . . to elucidate a specific provision
of [a] statute by regulation,” regulations
promulgated pursuant to that delegated authority
“are given controlling weight unless they are
arbitrary, capricious, or manifestly contrary to the
statute.” Chevron, U.S.A., Inc. v. Natural Res. Def.
Council, 467 U.S. 837, 844 (1984); see also 5 U.S.C.
§ 706(2)(A) (court must set aside agency action that
is “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law”). Here,
Congress expressly delegated to the PTO the power
to define a “technological invention” for purposes of
CBM review. See AIA § 18(d)(2). Pursuant to that
authority, the PTO enacted 37 C.F.R. § 42.301(b).
The Federal Circuit is required to follow that
regulation absent a finding that the regulation is
arbitrary, capricious, or inconsistent with AIA § 18.
No panel of the Federal Circuit has ever made
such a finding, nor is there any basis for one. To be
sure, the Federal Circuit has criticized the
regulation, and it is fair to say that at least some
members of the court find the PTO’s definition of
“technological invention” unhelpful. See, e.g.,

20
Versata, 793 F.3d at 1326. But federal courts do not
have freewheeling authority to strike down (or
ignore) agency regulations simply because they deem
them unhelpful. Agency regulations, just like
congressional statutes, bear the force of law. See
Kisor v. Wilkie, 139 S. Ct. 2400, 2415 (2019) (a “court
must give [a valid agency regulation] effect, just as
the court would any law”); accord Perez v. Mortg.
Bankers Ass’n, 135 S. Ct. 1199, 1203 (2015). Any
suggestion otherwise runs contrary to bedrock
principles of administrative law and the
constitutional separation of powers.
The panel in this case disregarded those
principles. In the CBM proceedings below, the Board
expressly found that three of the four patents did not
satisfy the first prong of § 42.301(b) because they did
not recite a novel and non-obvious technological
feature.2 The panel improperly ignored these
findings; indeed, it ignored the first prong of the
definition altogether.
The panel’s analysis is particularly concerning
because it conflated the standard for CBM
ineligibility under AIA § 18 with the standard for
patent eligibility under 35 U.S.C. § 101. The panel
premised its decision on CQG’s holding that the ’132
and ’304 patents improve the functioning of a

2 With respect to the ’304 patent, the Board did not reach
this issue because it found that the ’304 patent did not “solve a
technical problem using a technical solution.” No. 17-1732,
C.A.J.A 510.

21
computer. If that was true, the panel reasoned, “the
patents are also for a ‘technological invention’ under
any reasonable meaning of that term.” Pet. App. 9a.
But CQG, of course, did not consider CBM eligibility;
it addressed only patent eligibility. CQG was an
appeal from a district-court decision in which CBM
eligibility was not (and could not have been) an
issue. The panel’s decision is already being cited for
the proposition that a patent eligible for patenting
under § 101 is categorically ineligible for CBM
review under AIA § 18.3
That is fundamentally wrong. The threshold
question whether a patent is eligible for CBM review
is not the same as the merits question whether a
patent passes muster under § 101. Indeed, the AIA
explicitly recognizes that the standards are different.
See AIA § 18(e) (“Nothing in this section shall be
construed as amending or interpreting categories of
patent-eligible subject matter set forth under section
101 . . . .”).
Moreover, equating the standards—and thus
making the jurisdictional question congruent with

See Christopher W. Adams, The Federal Circuit Continues
to Narrow the Eligibility Standards for CBM Review of Patents
Under the AIA, Lexology (Feb. 19, 2019) (“This decision
suggests that patents deemed eligible under 35 USC §101 are
not eligible for a CBM review.”); Wells Fargo Bank, N.A. v.
United Servs. Auto. Ass’n, Patent Owner Preliminary Response,
2019 WL 1028854 (P.T.A.B. Mar. 4, 2019); Apple Inc. v.
Universal Secure Registry, Patent Owner’s Response, 2019 WL
982836 (P.T.A.B. Feb. 28, 2019).
3

22
the merits—makes no sense. Cf. United States v.
American Trucking Ass’ns, 310 U.S. 534, 543 (1940)
(courts should avoid statutory constructions that
produce an absurdity). The logical result of this rule
would be that the Board cannot validly find a patent
eligible under § 101: if the Board reached such a
conclusion, it would have to immediately dismiss the
proceeding for lack of jurisdiction. That disposition,
in turn, would effectively wipe out any other
challenges (for example, based on § 103) asserted by
the petitioner—regardless of their merit—thus
making § 101 the be-all-end-all of CBM review.4
That runs contrary to the basic rule that “patenteligible does not mean patentable under, e.g., 35
U.S.C. §§ 102 and 103.” DDR Holdings, LLC v.
Hotels.com, L.P., 773 F.3d 1245, 1259 n.6 (Fed. Cir.
2014). And it cannot have been what Congress
intended in enacting the AIA.
III.

THE QUESTION PRESENTED IS
IMPORTANT AND RECURRING.

As demonstrated by the numerous Federal
Circuit cases discussed above that have addressed
the scope of the “technological invention” exception
to CBM eligibility, the questions presented here
arise frequently. And these questions will continue
to arise—and continue to be answered in

4 Indeed, that is exactly what happened here with respect
to the ’411 patent: IBG’s successful showing that the challenged
claims were obvious under § 103 was overturned because of
CQG’s finding that related patents were eligible under § 101.

23
dramatically divergent ways by different panels,
thereby introducing confusion and uncertainty into
the law—unless and until this Court intervenes.
It is true that the CBM program is scheduled to
expire in 2020, but the Court’s review is nonetheless
warranted, for at least three reasons. First, as
discussed above, in light of the program’s significant
success in eliminating low-quality patents, Congress
has considered extending it indefinitely. See Dennis
Crouch, AIA Trials and the Sunsetting of CoveredBusiness-Method Review,
https://patentlyo.com/
patent/2018/03/sunsetting-covered-business.html
(Mar. 21, 2018). Accordingly, the sunset may well
never take place—in which case this Court’s decision
would govern CBM reviews for years to come.
Second, even if the program sunsets on schedule,
the Court’s ruling on the CBM-eligibility issues
presented in this petition would still affect a large
number of cases—all those pending now, as well as
all that are filed over the next two years.
Third, the question whether federal courts are
entitled to disregard agency regulations promulgated
pursuant to express statutory authority has
implications that reach well beyond the factual
context here. The Federal Circuit’s apparent view
that it can ignore regulations merely because it finds
them unhelpful represents an affront to bedrock
separation-of-powers principles that underlie our
system of government. This case presents an
excellent opportunity for this Court to clarify the

24
proper allocation of power among
administrative agencies, and courts.
IV.

Congress,

THIS CASE PRESENTS A SUPERIOR
VEHICLE FOR RESOLVING THE
QUESTION PRESENTED.

This case presents the CBM-eligibility issue in
particularly stark relief. Different panels of the
Federal Circuit have now, in a matter of months,
reached different conclusions on this question in
cases involving materially indistinguishable patents.
This Court, moreover, has the benefit of several
opinions’ worth of analysis of the PTO’s
“technological invention” definition. Finally, the
questions presented are dispositive of the dispute
between the parties, and they have been raised and
extensively briefed at every level of the proceedings.
This case thus presents a superior candidate for
certiorari.
CONCLUSION
For these reasons, IBG respectfully requests that
the Court grant the petition for certiorari.

25
Respectfully submitted,
ROBERT E. SOKOHL
Counsel of Record
BYRON L. PICKARD
RICHARD M. BEMBEN
WILLIAM H. MILLIKEN
Sterne, Kessler, Goldstein & Fox,
PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
rsokohl@sternekessler.com
Counsel for Petitioners

APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_____________________
IBG LLC, INTERACTIVE BROKERS, LLC,
Appellants
v.
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Cross-Appellant
UNITED STATES,
Intervenor
_____________________
2017-1732, 2017-1766, 2017-1769
_____________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. CBM2015-00161, CBM2016-00035.
--------------------------------------------IBG LLC, INTERACTIVE BROKERS, LLC,
Appellants
v.

2a
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Cross-Appellant
UNITED STATES,
Intervenor
_____________________
2017-2052, 2017-2053
_____________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. CBM2015-00182.
--------------------------------------------TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
_____________________
2017-2054
_____________________

3a
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. CBM2015-00181.
--------------------------------------------TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
_____________________
2017-2565
_____________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. CBM2016-00031.
_____________________
Decided: February 13, 2019
_____________________
BYRON LEROY PICKARD, Sterne Kessler Goldstein
& Fox, PLLC, Washington, DC, argued for
appellants in 2017-1732, 2017-2052 and for
appellees in 2017-2054, 2017-2565. Also represented

4a
by RICHARD M. BEMBEN, ROBERT EVAN SOKOHL, JON
WRIGHT; MICHAEL T. ROSATO, Wilson, Sonsini,
Goodrich & Rosati, PC, Seattle, WA.
MICHAEL DAVID GANNON, Baker & Hostetler LLP,
Chicago, IL, argued for cross-appellant in 2017-1732,
2017-2052 and appellant in 2017-2054, 2017-2565.
Also represented by LEIF R. SIGMOND, JR., JENNIFER
KURCZ; ALAINA J. LAKAWICZ, Philadelphia, PA; COLE
BRADLEY RICHTER, McDonnell, Boehnen, Hulbert &
Berghoff, LLP, Chicago, IL; STEVEN BORSAND, JAY
QUENTIN
KNOBLOCH,
Trading
Technologies
International, Inc., Chicago, IL.
KATHERINE TWOMEY ALLEN, Appellate Staff, Civil
Division, United States Department of Justice,
Washington, DC, argued for intervenor. Also
represented by MARK R. FREEMAN, SCOTT R.
MCINTOSH, JOSEPH H. HUNT; THOMAS W. KRAUSE,
JOSEPH MATAL, FARHEENA YASMEEN RASHEED, Office
of the Solicitor, United States Patent and
Trademark Office, Alexandria, VA.
_____________________
Before LOURIE, MOORE, and REYNA, Circuit
Judges.
PER CURIAM.
Trading Technologies International, Inc., (“TT”)
is the owner of U.S. Patent Nos. 6,766,304,
6,772,132, 7,676,411, and 7,813,996. All four patents
share a specification and describe a graphical user

5a
interface (“GUI”) for a trading system that
“display[s] the market depth of a commodity traded
in a market, including a dynamic display for a
plurality of bids and for a plurality of asks in the
market for the commodity and a static display of
prices corresponding to the plurality of bids and
asks.” ’132 patent at 3:11–16.1 IBG LLC and
Interactive Brokers LLC (collectively, “Petitioners”)
petitioned for covered business method (“CBM”)
review of each patent.2
The Board instituted CBM review of each patent
and issued separate final written decisions. In the
proceedings involving the ’304 and ’132 patents, the
Board upheld the patent eligibility of the claims
based on our reasoning in Trading Technologies
International, Inc. v. CQG, Inc., 675 F. App’x 1001
(Fed. Cir. 2017). In the proceedings involving the
’411 and ’996 patents, the Board held that the claims
were ineligible. In the proceedings involving the ’132
and ’411 patents, the Board also held that all claims
except claims 29, 39, and 49 of the ’132 patent would
have been obvious.
TT appeals, among other issues, the Board’s
determinations regarding whether the patents are
directed to a technological invention. Petitioners

Because all four patents share a specification, we cite only
to the ’132 patent throughout.
1

2 CBM2015-00161 involved the ’304 patent; CBM201500182 involved the ’132 patent; CBM2015-00181 involved the
’411 patent; and CBM2016-00031 involved the ’996 patent.

6a
appeal the Board’s determinations that the claims of
the ’304 and ’132 patents are patent eligible and that
claims 29, 39, and 49 of the ’132 patent would not
have been obvious. We have jurisdiction under 28
U.S.C. § 1295(a)(4)(A). We vacate the decision of the
Board in each case because the patents at issue are
for technological inventions and thus were not
properly subject to CBM review.
DISCUSSION
The proceedings on appeal stem from the
Transitional Program for Covered Business Method
Patents (“CBM review”), which expires next year.
Leahy-Smith Am. Invents Act, Pub. L. 112-29,
§ 18(a) (“AIA”). Pursuant to the statute, the Board
may only institute CBM review for a patent that is a
CBM patent. Id. § 18(a)(1)(E). A CBM patent is “a
patent that claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service, except
that the term does not include patents for
technological inventions.” Id. § 18(d)(1) (emphasis
added). Neither party disputes here that the patents
at issue meet the first part of the test. The only issue
is whether the patents are for technological
inventions. Pursuant to its authority under
§ 18(d)(2), the Patent and Trademark Office (“PTO”)
promulgated 37 C.F.R. § 42.301(b), which requires
the Board to consider the following on a case-by-case
basis in determining whether a patent is for a
technological invention: “whether the claimed
subject matter as a whole recites a technological

7a
feature that is novel and unobvious over the prior
art” and whether it “solves a technical problem using
a technical solution.” We review the Board’s
reasoning “under the arbitrary and capricious
standard and its factual determinations under the
substantial evidence standard.” SightSound Techs.,
LLC v. Apple Inc., 809 F.3d 1307, 1315 (Fed. Cir.
2015).
We previously upheld the eligibility under § 101
of the ’132 and ’304 patents in CQG, 675 F. App’x at
1006. In the CBM review proceedings with regard to
those patents, the Board adopted as persuasive that
reasoning and conclusion. The discussion of those
patents in the context of eligibility is instructive to
the technological invention question. In CQG, the
district court held that the claims were not directed
to an abstract idea, stating:
the claims are directed to solving a problem
that existed with prior art GUIs, namely, that
the best bid and best ask prices would change
based on updates received from the market.
There was a risk with the prior art GUIs that
a trader would miss her intended price as a
result of prices changing from under her
pointer at the time she clicked on the price
cell on the GUI. The patents-in-suit provide a
system and method whereby traders may
place orders at a particular, identified price
level, not necessarily the highest bid or the
lowest ask price because the invention keeps
the prices static in position, and allows the
quantities at each price to change.

8a
Trading Techs. Int’l, Inc. v. CQG, 2015 WL 774655,
at *4 (N.D. Ill. 2015). The district court determined
that “[t]his issue did not arise in the open outcry
systems, i.e. the pre-electronic trading analog of the
’304 and ’132 patents’ claims.” Id. We agreed “for all
of the reasons articulated by the district court.”
CQG, 675 F. App’x at 1004. We concluded that “the
claimed subject matter is directed to a specific
improvement to the way computers operate, for the
claimed [GUI] method imparts a specific
functionality to a trading system directed to a
specific implementation of a solution to a problem in
the software arts.” Id. at 1006 (internal citations and
quotation marks omitted).
This characterization is consistent with the
description of the invention in the specification. The
specification states that markets with a high volume
of trading result in “rapid changes in the price and
quantity fields within the market grid” on a trading
screen, which can cause a trader to miss his
intended price. ’132 patent at 2:51–60. The technical
problem with prior GUIs in which the inside market
remains stationary, like the one in Figure 2 of the
’132 patent, is most clearly laid out in U.S. Patent
App. Ser. No. 09/589,751, which is incorporated by
reference in the ’132 patent and issued as U.S.
Patent No. 6,938,011:
[A] trader might intend to click on a
particular price but, between the time he
decides to do so and the time he actually
clicks (which may be only hundredths of a
second), the price may change. He may not be

9a
able to stop the downward motion of his
finger and the order would be sent to market
at an incorrect or undesired price.
’011 patent at 9:35–41. The claimed invention in the
patents at issue solves this problem “by displaying
market depth on a vertical or horizontal plane,
which fluctuates logically up or down, left or right
across the plane as the market fluctuates.” ’132
patent at 6:65–7:2.
In the CBM proceedings involving the ’132 and
’304 patents, the Board agreed with CQG and found
the claims of both patents eligible. At the same time,
the Board held that the patents are not for
technological inventions. If “the claimed *1008
subject matter is directed to a specific improvement
to the way computers operate,” as we held in CQG,
675 F. App’x at 1006, the patents are also for a
“technological invention” under any reasonable
meaning of that term. We conclude that the Board’s
reasoning with regard to the ’132 and ’304 patents is
internally inconsistent and therefore arbitrary and
capricious. And because we see no meaningful
difference between the claimed subject matter of the
’132 and ’304 patents and that of the ’411 and ’996
patents for the purposes of the technological
invention question, the same conclusion applies in
those cases as well.
CONCLUSION
Based on our decision in CQG and the Board’s
adoption thereof, the Board’s reasoning in

10a
determining that the ’132, ’304, ’411, and ’996
patents are eligible for CBM review was arbitrary
and capricious. We hold that these patents are “for
technological inventions” under AIA, § 18(d)(1) and
are therefore not subject to CBM review. Because
the Board may only institute CBM review for CBM
patents, we vacate.
VACATED
COSTS
No costs.

11a
APPENDIX B
Trials@uspto.gov
571.272.7822

Paper No. 129
Entered: February 17, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
TRADESTATION GROUP, INC. and
TRADESTATION SECURITIES, INC., IBG LLC,
and INTERACTIVE BROKERS, LLC,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-001611
Patent No. 6,766,304 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
1

CBM2016-00035 has been joined with this proceeding.

12a
Opinion for the Board filed by Administrative Patent
Judge PLENZLER.
Opinion dissenting filed by Administrative Patent
Judge PETRAVICK.
PLENZLER, Administrative Patent Judge.

FINAL WRITTEN DECISION
Covered Business Method Patent Review
37 U.S.C. § 328(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
TradeStation Group, Inc. and TradeStation
Securities, Inc. (collectively, “Petitioner”) filed a
Petition (Paper 2, “Pet.”) on July 20, 2015,
requesting review under the transitional program for
covered business method patents of the AIA2 of U.S.
Patent No. 6,766,304 B2 (Ex. 1001, “the ’304
patent”). Pursuant to 35 U.S.C. § 324, we instituted
a covered business method patent review as to
claims 1–40 on the ground of claims 1–40 being
unpatentable under 35 U.S.C. § 101. Trading
Technologies, Inc. (“Patent Owner”) filed a Corrected
Patent Owner Response on July 5, 2016. Paper 69
(“PO Resp.”). Petitioner filed a Reply. Paper 98 (“Pet.

2 Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284, 329 (2011) (“AIA”).

13a
Reply”). An oral hearing in this proceeding was held
on October 19, 2016. A transcript of the hearing is
included in the record. Paper 123 (“Tr.”).
After oral hearing, the Federal Circuit issued a
decision in Trading Technologies International, Inc.
v. CQG, Inc., No. 2016-1616, 2017 WL 192716 (Fed.
Cir. Jan. 18, 2017), determining that the claimed
subject matter of the ’304 patent is patent eligible
under § 101. Petitioner and Patent Owner, with
authorization (Paper 125), each filed supplemental
briefing addressing the impact of that decision on
this proceeding. Paper 128 (“Pet. Br.”); Paper 126
(“PO Br.”).
Petitioner filed a Motion to Exclude Evidence
(Paper 103), and Patent Owner also filed a Motion to
Exclude Evidence (Paper 104).
This Final Written Decision is issued pursuant to
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73. For the
reasons that follow, we determine that claims 1–40
of the ’304 patent have not been shown to be
unpatentable under 35 U.S.C. § 101.
II. DISCUSSION
Petitioner challenges claims 1–40 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 23–52; Pet. Reply 8–24. Patent Owner
disagrees. PO Resp. 14–65. Our reviewing court also
disagrees. Trading Techs., 2017 WL 192716 at *4.

14a
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014). There is
no dispute that the claims fit within one of the four
statutorily provided categories of patent-eligibility.
For example, there is no dispute that claim 1 fits
within the process category.
Section 101 “contains an important implicit
exception: Laws of nature, natural phenomena, and
abstract ideas are not patentable.” Alice Corp. Pty.
Ltd. v. CLS Bank. Int’l, 134 S. Ct. 2347, 2354 (2014)
(citing Assoc. for Molecular Pathology v. Myriad
Genetics, Inc., 133 S. Ct. 2107, 2116 (2013) (internal
quotation marks and brackets omitted)). In Alice, the
Supreme Court reiterated the framework set forth
previously in Mayo Collaborative Services v.
Prometheus Labs., Inc., 132 S. Ct. 1289, 1293 (2012)
“for distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id.
There is no definitive rule to determine what
constitutes an “abstract idea.” Rather, the Federal
Circuit has explained that “both [it] and the
Supreme Court have found it sufficient to compare
claims at issue to those claims already found to be

15a
directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that, in determining whether
claims are patent-eligible under § 101, “the
decisional mechanism courts now apply is to
examine earlier cases in which a similar or parallel
descriptive nature can be seen—what prior cases
were about, and which way they were decided”).
The Federal Circuit has already decided that the
claims at issue before us are not directed to an
abstract idea. Trading Techs., 2017 WL 192716 at
*4. Petitioner provides no persuasive reason for us to
ignore that guidance, particularly with respect to
whether the claims are directed to an abstract idea.
See, e.g., Pet. Br. 3–5. For example, Petitioner offers
no persuasive explanation as to why its
characterization of the alleged abstract idea would
affect the Federal Circuit’s determination that the
claims are not directed to an abstract idea. See id. at
5. We are also not apprised of a persuasive reason to
arrive at a different outcome with respect to whether
the claims are directed to an abstract idea based on
the differences between the record before us and that
before the Federal Circuit alleged by Petitioner. See
id. at 3–5.
Accordingly, we follow the Federal Circuit’s
guidance and, in accordance with that guidance,
determine the claims before us to be patent eligible.
The sole issue before us is the eligibility of the
challenged claims. Based on the facts of this

16a
proceeding, we determine that it is not necessary to
revisit whether the challenged patent is a covered
business method patent as Patent Owner urges.
III. MOTIONS TO EXCLUDE EVIDENCE
Petitioner moves to exclude Exhibits 2029, 2211,
2220, 2222, 2224, 2225, 2228, 2232, 2247, 2251,
2274–2276, 2286–2288, and 2292–2296 (collectively,
“the eSpeed/CQG Transcripts”); Exhibit 2223 (“the
Electronic Trader Declarants Exhibits”); Exhibits
2240–2246, 2250, 2252–2273, and 2277 (“the Third
Party Emails”); Exhibits 2212, 2213, and 2214
(“Brumfield Sketch and Animations”); Exhibits 2030,
2032, 2278 (“eSpeed/CQG Jury Verdict Forms &
Docket Entry; Exhibit 2169B, ¶¶ 75, 83–86, 89–92,
94–97, 102–104, 106–111, 126–128, 131, 133–34,
136– 138, 140, 141, 151–153, 172 (“Confidential
Declaration of Christopher Thomas”). Paper 103.
Patent Owner moves to exclude Exhibit 1016 (TSE),
Exhibit 1017 (TSE Translation, and Exhibit 1025,
57:18–58:19 (Testimony of Dan Olsen). Paper 104.
The Petitioner’s Motion to Exclude Evidence and
Patent Owner’s Motion to Exclude Evidence are
dismissed because we do not rely on the Exhibits or
portions of the Exhibits in reaching our Decision.
IV. CONCLUSION
We conclude Petitioner has failed to show that
claims 1–40 are unpatentable under 35 U.S.C. § 101.
Patent Owner’s Motion to Exclude Evidence is

17a
dismissed. Petitioner’s Motion to Exclude Evidence
is dismissed.
V. ORDER
Accordingly, it is hereby:
ORDERED that claims 1–40 of U.S. Patent No.
6,384,850 B1 have not been shown to be
unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude Evidence is dismissed;
FURTHER ORDERED that Petitioner’s Motion
to Exclude Evidence is dismissed; and
FURTHER ORDERED that because this is a
final written decision of the Board under 35 U.S.C.
§ 328(a), parties to the proceeding seeking judicial
review of this decision must comply with the notice
and service requirements of 37 C.F.R. § 90.2.

18a
Trials@uspto.gov
571.272.7822

Paper No. 129
Entered: February 17, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
TRADESTATION GROUP, INC. and
TRADESTATION SECURITIES, INC., IBG LLC,
and INTERACTIVE BROKERS, LLC,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-001613
Patent No. 6,766,304 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.

3

CBM2016-00035 has been joined with this proceeding.

19a
PETRAVICK,
dissenting.

Administrative

Patent

Judge,

FINAL WRITTEN DECISION
Covered Business Method Patent Review
37 U.S.C. § 328(a) and 37 C.F.R. § 42.73
Petitioner was not a party in the suit involved in
Trading Technologies International, Inc. v. CQG,
Inc., No. 2016-1616, 2017 WL 192716 (Fed. Cir. Jan.
18, 2017) (“CQG”). Accordingly, the Federal Circuit
was not placed in a position to determine the merits
of the Petitioner’s challenge to the patent eligibility
of claims 1–40 under 35 U.S.C. § 101. Petitioner’s
challenge to the patent eligibility of claims 1–40
under 35 U.S.C. § 101 is based on a construction of
the claims and evidence submitted in this
proceeding, such as different evidence of what was
routine and conventional. See Pet. Br. 1–5
(discussing the differences between the records in
CQG and here). The determination of whether
claims 1–40 are patent eligible under 35 U.S.C.
§ 101 should focus on the record here. The patenteligibility determination reached in CQG was based
on the different record before the District Court.
Treating CQG as controlling of the patenteligibility of claims 1–40, notwithstanding a different
outcome based on the record developed in this
proceeding involving a different party and relying on
different evidence, in effect, treats CQG as
precedential to the patent-eligibility question in this

20a
proceeding. Because the Federal Circuit did not in
fact designate CQG as precedential, the possibility
remains that the Federal Circuit would consider the
merits of a different outcome based on a different
record.
The presumption that CQG controls patenteligibility of claims 1–40, notwithstanding a possible
different outcome based on a different set of facts
and evidence, necessarily follows from the view that
the question of patent-eligibility is a pure question of
law. However, if the question of patent-eligibility is
question of law based on underlying facts, then
underlying facts have the potential of controlling the
ultimate determination. Likewise, a determination
of obviousness under 35 U.S.C § 103 may depend on
which prior art is applied against the claims. The
Federal Circuit has not yet decided whether the
question of patent-eligibility is a pure question of
law or a question of law based on underlying facts.
I respectfully dissent and based on the record
before us determine that the claims of the ’304
patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.
Background
The ’304 patent “is directed to the electronic
trading of commodities.” Ex. 1001, 1:17–18.
According to the ’304 patent, 80% of the total time to
place an order is attributable to the time it takes for
a trader to read the prices displayed and to enter a
trade order, by manually entering parameters, such

21a
as commodity symbol, the desired price, the quantity
and whether a buy or sell order is desired. Id. at
2:28–51. “The more time a trader takes entering an
order, the more likely the price on which he wanted
to bid or offer will change or not be available in the
market.” Id. at 2:51–54. The ’304 patent discloses a
method of trading that reduces the time it takes for
a trader to place an order and, thus, increases the
likelihood that the order will be filled at desirable
prices and quantities. Id. at Abstract and 3:2–7. The
method uses a graphical user interface (“GUI”),
named the Mercury display. Id. at Abstract, 3:9–10.
Before turning to a discussion of how the Mercury
display is used to enter an order on an electronic
exchange, a discussion of conventional methods of
trading is helpful. Figure 2 of the ’304 patent depicts
a GUI. Ex. 1001, Fig. 2 (“the Fig. 2 GUI”). According
to Patent Owner, the Fig. 2 GUI illustrates the
“widely accepted conventional wisdom regarding”
electronic trading. PO Resp. 1; see also Paper 22, 7
(describing the Fig. 2 GUI as “conventional”) and PO
Resp. 2 (describing Fig. 2 GUI as “ubiquitous by the
time of the invention” of the ’304 patent).
Figure 2 of the ’304 patent is reproduced below.

22a

The Fig. 2 GUI displays market information in
columns. See id. at 5:23–28, 6:1–2. BidQty column
202 displays bid quantity, and BidPrc column 203
displays corresponding bid price levels. AskQty
column 205 displays ask quantities, and AskPrc
column 204 displays corresponding ask price levels.
Id. at 5:23–28 and 6:4–12. The inside market (i.e.,
the best (highest) bid price and quantity and the best
(lowest) ask price and quantity)) is displayed in row
one. Id. at 5:19–21. Rows 2–5 display the market
depth, a list of next-best bids and asks. Id. at 5:22–
26.
Prices and quantities change dynamically based
on real time information from the market. Id. at
5:29–31. The inside market, however, is always
displayed in row 1, a fixed location. PO Resp. 2–3.
According to Patent Owner, “[t]his made perfect
sense and was perceived by those skilled in the art
at the time as a significant advantage because it
emphasized focus on the primary target for the
trader: the inside market” and “since the location of
the inside market is always known, the trader may
easily spot the target, regardless of changes in the

23a
market.” PO Resp. 5. Christopher H. Thomas
testifies that other prior art GUIs, which are similar
to the Fig. 2 GUI, “displayed the locations for the
best bid and ask prices such that the prices were
displayed vertically (e.g., with the location for the
best ask price being displayed above the location for
the best bid price).” Ex. 2169 ¶ 57; see also Ex. 1016,
107 (depicting a trading screen having a central
order price column and corresponding ask and bid
quantities in adjacent columns).
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the
price or quantity columns.” Ex. 2169 ¶ 53; see PO
Resp. 6–7. According to Patent Owner, “these types
of tools permitted ‘single action’ order entry that
consisted of a trader presetting a default quantity
and then clicking on a cell in the screen . . . to cause
a trade order message to be sent to the exchange at
the preset quantity and at the price value associated
with that cell.” Ex. 1006, 7.
Other types of conventional trading GUIs used
order entry tickets to send trade orders to an
electronic exchange. PO Resp. 1. An order entry
ticket is “usually in the form of a window, with areas
for a trader to fill out order parameters (e.g., price,
quantity, an identification of the item being traded,
buy or sell).” Id. at 1–2; see also Ex. 1001, 2:42–54
(describing a trader manually entering trade order
parameters); Ex. 2169 ¶ 45.
Turning now to a discussion of how the Mercury
display is used to enter an order on an electronic

24a
exchange, the Mercury display is depicted in Figure
3 of the ’304 patent. Id. at 3:45–46. Figure 3 is
reproduced below.

As can be seen in Fig. 3 above, like the Fig. 2
GUI, the Mercury display displays market
information in columns. Id. BidQ column 1003
displays bid quantities, and AskQ column 1004
displays bid ask quantities. See id. at 7:54–55. The

25a
bid and ask quantities are displayed along
corresponding price levels in Prc column 1005, which
is a common price axis. The inside market is
displayed at 1020. Id.
Unlike the Fig. 2 GUI, the Mercury display
values in the price column “are static; that is, they
do not normally change positions unless a recentering command is received.” Ex. 1001, 7:65–67.
The bid quantities and ask quantities move up and
down as the market changes, and, thus, the location
of the inside market moves up and down. See id. at
7:67–8:18. According to Patent Owner, some traders
focused on trading at particular prices, not the inside
market prices. PO Resp. 6–7. Like the Fig. 2 GUI, a
trader executes trades using the Mercury display by
first setting the desired commodity and default
parameters, such as default quantity. Id. at 9:35–49
and Fig. 6, step 1302. Then, a trader can send a buy
order or sell order to the market with a single action,
such as clicking on the appropriate cell in column
1003 or 1004. See id. at 9:39–11:34; Fig. 6, steps
1306–1315. In the example shown in Figure 3, a left
click on “20” in column 1004 will send an order to the
market to buy 17 lots (i.e., the default quantity set in
cell 1016 of column 1002) at a price of 90. See id. at
10:39–41.
Claim Language
“The § 101 inquiry must focus on the language of
the Asserted Claims themselves.” Synopsys, Inc. v.
Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed.
Cir. 2016); see also Accenture Global Servs., GmbH v.

26a
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed.
Cir. 2013) (admonishing that “the important inquiry
for a § 101 analysis is to look to the claim”); Content
Extraction & Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir.
2014) (“We focus here on whether the claims of the
asserted patents fall within the excluded category of
abstract ideas.”).
Claim 1 of the ’304 patent is representative and is
reproduced below.
1. A method for displaying market
information relating to and facilitating
trading of a commodity being traded in an
electronic exchange having an inside market
with a highest bid price and a lowest ask
price on a graphical user interface, the
method comprising:
dynamically displaying a first indicator in one
of a plurality of locations in a bid display
region, each location in the bid display region
corresponding to a price level along a common
static price axis, the first indictor
representing quantity associated with at least
one order to buy the commodity at the highest
bid price currently available in the market;
dynamically displaying a second indicator in
one of a plurality of locations in an ask
display region, each location in the ask
display region corresponding to a price level
along the common static price axis, the second

27a
indicator representing quantity associated
with at least one order to sell the commodity
at the lowest ask price currently available in
the market;
displaying the bid and ask display regions in
relation to fixed price levels positioned along
the common static price axis such that when
the inside market changes, the price levels
along the common static price axis do not
move and at least one of the first and second
indicators moves in the bid or ask display
regions relative to the common static price
axis;
displaying an order entry region comprising a
plurality of locations for receiving commands
to send trade orders, each location
corresponding to a price level along the
common static price axis; and
in response to a selection of a particular
location of the order entry region by a single
action of a user input device, setting a
plurality of parameters for a trade order
relating to the commodity and sending the
trade order to the electronic exchange.
In a covered business method patent review,
claim terms in an unexpired patent are given the
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144–46 (2016) (upholding the use

28a
of the broadest reasonable interpretation standard).
In the Institution Decision, we determined that the
broadest reasonable interpretation of common static
price axis is “a reference line or column of price
levels that is common to the bid and ask display
regions where the price levels do not change
positions unless a re-centering command is
received.” Paper 29, 19–20. In its Response, Patent
Owner provided an alternate interpretation. See PO
Resp. 13. This interpretation requires that the
common static price axis have plural price levels.
The plain language of other limitations of claim 1
also requires the common static price axis to have
plural price levels. See Ex. 1004, 12:56 (“fixed price
levels”). The price levels must correspond to the
location in the bid display region where a first
indicator representing an order at the highest bid
price is displayed and correspond to the location in
the ask display region where a second indicator
representing an order to the lowest ask price is
displayed. See id. at 12:51–54. Claim 1, thus,
encompasses a common static price axis that only
displays two price levels, one corresponding to the
highest bid price and one corresponding to the lowest
ask price (i.e., the inside market). For example, a
price column that only includes the “90” and “89”
price levels of inside market 1020 of the Mercury
display depicted in Fig. 3 of the ’304 patent, without
any of the other depicted price levels in column 1005,
would be a common static price axis as required by
claim 1. See Ex. 1001, Fig. 3.

29a
Patent Owner implies that the claim requires
displaying a greater range of price levels or price
levels that have no corresponding orders. See PO
Resp. 4 (arguing that columns 203 and 204 of the
Fig. 2 GUI are not a price axis because it does not
display price levels that have no orders). Neither the
broadest reasonable interpretation of common static
price axis nor the plain language of any other claim
limitation require such or preclude an axis that does
not display price levels that have no corresponding
order information. The ’304 patent discloses that in
some situations only the inside market is displayed:
“How far into the market depth the present
invention can display depends on how much of the
market depth the exchanged provide. Some
exchanges . . . provide no market depth.” Ex. 1001,
5:7–11.
Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and
requirements of this title.
There are, however, three judicially created
exceptions to the broad categories of patent-eligible
subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice, 134 S. Ct. at

30a
2354; Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 132 S. Ct. 1289, 1293 (2012). Although
an abstract idea, itself, is patent-ineligible, an
application of the abstract idea may be patenteligible. Alice, 134 S. Ct. at 2355. Thus, we must
consider “the elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Id. (citing Mayo, 132 S. Ct. at
1297–98). The claim must contain elements or a
combination of elements that are “sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over
the prior art’ to determine if the claim’s ‘character as
a whole’ is directed to excluded subject matter.’”
Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016) (quoting Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016); see also Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016). According to
Petitioner, the claims are directed to the abstract
idea of “placing an order based on displayed market
information, as well as updating market
information,” which is a “‘fundamental economic
practice long prevalent in our system of commerce.’”
Pet. 35 (quoting Alice, 134 S. Ct. at 235); Pet. Reply
16. This is consistent with claim 1 of the ’304 patent.

31a
Claim 1 of the ’304 patent recites “a method for
displaying market information relating to and
facilitating trading of a commodity being traded in
an electronic exchange having an inside market with
a highest bid price and a lowest ask price on a
graphical user interface.” Ex. 1001, 12:35–38. Claim
1 recites two steps of displaying market information,
bid and ask quantities, in regions along a common
static price axis. Id. at 12:41–54. The market
information is an indicator of an order to buy at the
highest bid price and an indicator of an order to sell
at the lowest ask price. Id. In other words, the
displayed market information is the inside market.
Claim 1 then recites a step of moving the market
information along the price axis as the market
changes. Id. at 12:55–61. Claim 1 finally recites a
step of displaying an order entry region and a step of
setting parameters for a trade order and a step of
sending a trade order to an exchange. Id. at 12:41–
13:3. As can be seen from its steps, the focus of claim
1 is placing trade orders based on displayed market
information (i.e., the inside market), as well as
updating the market information. This focus is
consistent with the ’304 patent’s statement that
“[t]he present invention is directed to the electronic
trading of commodities. . . . It facilitates the display
of and the rapid placement of trade orders.” Id. at
1:7–23. The focus of claim 1 is also consistent with
the problem disclosed by the ’304 patent, which is a
trader missing an intended price because the market
changed during the time required for a trader to
read the prices displayed and to manually enter an
order. Id. at 2:41–67.

32a
Claim 1 does not recite any limitations that
specifies how the computer implements the steps or
functions for using a GUI. For example, claim 1
recites displaying an arrangement of the market
information on the GUI. The bid quantities are
displayed in the bid region at locations that
correspond to prices along a common static price axis
and ask quantities are displayed in an ask region at
locations that correspond to prices along the common
static price axis. Id. at 12:41–55. Claim 1 does not
specify how the computer maps the bid quantities,
ask quantities, and price axis to the display. The
’304 patent also does not disclose an unconventional
or improved method of mapping the bid quantities,
ask quantities, and price axis to the display. It states
that “[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art” and that “[t]he present
invention is not limited by the method used to map
the data to the screen.” Id. at 5:3–7.
The ’304 patent discloses that at least 60
exchanges throughout the world utilize electronic
trading and discloses that it is known that electronic
trading includes analyzing displayed market
information and updated market information to send
trade orders to an exchange. See id. at 1:27–2:67.
Similarly, Patent Owner’s declarant Christopher H.
Thomas indicates that traders in prior trading
systems, including pre-electronic open outcry
systems, which have been used for over one hundred
years, send trade orders to an exchange based on the
inside market price. Ex. 2169 ¶¶ 31, 57, and 58; Ex.

33a
1015. Mr. Thomas testifies that “[i]n the trading pit,
traders utilize shouting and hand signals to transfer
information about buy and sell orders to other
traders. To avoid confusion, the inside market prices
were the focus, and traders could only shout and
signal regarding their interest at the best bid/offer or
at prices that improves the best bid/offer.” Ex. 2169
¶ 31. Given this, placing an order based on displayed
market information, such as the inside market, as
well as updating the market information is a
fundamental economic and conventional business
practice.
The claims at issue here are like the claims at
issue in Affinity Labs. In Affinity Labs, the claim at
issue recited an application that enabled a cellular
telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the
cellular telephone was enabled to transmit a request
for the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the
claims at issue in Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229 (Fed. Cir. 2016). In Ameranth, the claim
at issue recited a GUI that displayed menu items in
a specific arrangement, a hierarchical tree format.
Menu items were selected to generate a second menu
from a first menu. Ameranth 842 F.3d at 1234. In
both Affinity Labs and Ameranth, the court
determined that the claims were not directed to a
particular way of programming or designing the
software, but instead merely claim the resulting

34a
systems. The court thus determined that the claims
were not directed to a specific improvement in the
way computers operate. Affinity Labs, 838 F.3d at
1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not
directed to specific improvements in the way the
computers operate. “Though lengthy and numerous,
the claims [that] do not go beyond requiring the
collection, analysis, and display of available
information in a particular field, stating those
functions in general terms, without limiting them to
technical means for performing the functions that
are arguably an advance over conventional computer
and network technology” are patent ineligible. Elec.
Power Grp., 830 F.3d at 1351. “Generally, a claim
that merely describes an ‘effect or result dissociated
from any method by which [it] is accomplished’ is not
directed
to
patent-eligible
subject
matter.”
Ameranth, 842 F.3d at 1244 (quoting Internet
Patents Corp. v. Active Network, Inc., 790 F.3d 1343,
1348 (Fed. Cir. 2015)).
Claim 1 of the ’304 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR
Holdings, the court determined that the claims did
not embody a fundamental economic principle or a
longstanding commercial practice. The claims at
issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a
problem “particular to the Internet.” DDR Holdings,
773 F.3d at 1257. The court also determined that the
invention was “necessarily rooted in computer

35a
technology in order to overcome a problem
specifically arising in the realm of computer
networks” and that the claimed invention did not
simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue
was directed to a data storage and retrieval system
for a computer memory. Enfish, 822 F.3d at 1336–
37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business
practices. Id. at 1338. Here, in contrast, claim 1 is
directed to a fundamental economic principle or a
longstanding commercial practice and not directed to
an improvement in the computer but simply to the
use of the GUI in a method of placing an order based
on displayed market information, as well as
updating market information.
Patent Owner argues that the GUI disclosed in
the ’304 patent solves an alleged problem of the Fig.
2 GUI, displaying the inside market at a fixed
location, while the displayed prices change as the
market changes. See PO Resp. 5–8. If a trader was
focused on trading at a particular price, the trader
could miss its intended price using the Fig. 2 GUI
because the price could change as the trader clicked
it. Id. at 6–8. Patent Owner contends that the ’304
patent solves this problem by having a common
static price axis, where the prices do not normally
move. Id. at 8–12. The problem of a price changing
just as a trader clicks on the price is not disclosed in
the ’304 patent. Patent Owner relies upon the

36a
testimony of Mr. Thomas to show that such a
problem existed with the Fig. 2 GUI. See PO Resp.
6–8 (citing Ex. 2169 ¶¶ 79–80). The testimony of Mr.
Thomas, however, indicates that displaying the
inside market at a fixed location, while the displayed
prices change as the market changes, is only a
problem if the trader is focused on trading at a
particular price, not on the inside market price. Cf.
Ex. 2169 ¶ 58 (“focus on the primary target for the
traders: the inside market”) and ¶ 80 (“focused on
particular prices than market prices as many other
traders were”). For traders focused on trading at the
inside market price, the Fig. 2 GUI is advantageous
over the Mercury Display—“[s]ince the location of
the inside market is always known, the trader may
easily spot the target, regardless of changes in the
market.” Ex. 2169 ¶ 58. For traders focused on
trading at the inside market price, the Mercury
Display may be problematic because the inside
market is not fixed, the location of the inside market
may move up and down the price axis as the market
changes, and the inside market could move as the
trader clicked on the inside market. See Tr. 64:18–
66:2; PO Resp. 35 (stating that the Mercury Display
“required the trader to ‘chase’ the inside market due
to its movement relative to the axis”). Thus, the
trader could miss their intended price (i.e., the inside
market price). In both Fig. 2 GUI and the Mercury
Display, the inside market and prices move relative
to each other. The difference between the Fig. 2 GUI
and the Mercury Display is whether the inside
market or price remains static. That difference is
based upon the focus of the trader, and is not a

37a
problem with the technology. The fact that some
traders focus on price and some traders focus on the
inside market is not a problem necessarily rooted in
computer technology that overcomes a problem
specifically arising in the realm of computer
networks; it is a difference in the preferences of a
trader. See Pet. Reply 3–7.
Further, claim 1 of the ’304 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d. 1299 (Fed. Cir. 2016).
In McRO, the court held that claims that recited “a
specific asserted improvement in computer
animation” were not directed to an unpatentable
abstract idea because they go “beyond merely
organizing existing information into a new form or
carrying out a fundamental economic practice.”
McRO, 837 F.3d at 135. Here, the claims merely
organize existing market information. As discussed
above, the claims merely reorganize market
information so that the focus of a trader does not
normally move.
Inventive Concept
To be patent eligible, a claim directed to an
abstract idea must recite additional elements that
constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Mayo, 132 S. Ct. at 1297–98.
The additional elements must be more than “well-

38a
understood, routine, conventional, activity.” Mayo,
132 S. Ct. at 1298.
First, claim 1 of the ’304 patent recites “a method
for displaying market information relating to and
facilitating trading of a commodity being traded in
an electronic exchange having an inside market with
a highest bid price and a lowest ask price on a
graphical user interface.” Ex. 1001, 12:35– 39. The
’304 patent discloses that its system can be
implemented “on any existing or future terminal or
device” (id. at 4:9–15), which are known to include
displays, and discloses that the input device can be a
mouse (id. at 4:13–19), which is a known input
device. A mere recitation of a GUI does not make the
claim patent eligible. See Affinity Labs, 838 F.3d at
1257–58; Ameranth, 842 F.3d at 1236–1242; Internet
Patent Corp., 790 F.3d at 1348–1349; Pet. Reply 16–
17. A recitation of a generic GUI merely limits the
use of the abstract idea to a particular technological
environment.4 “Limiting the field of use of the
abstract idea to a particular existing technological
environment does not render any claims less
abstract.” Affinity Labs, 838 F.3d at 1258 (citing
Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at 1294).

4 The ’304 patent was also the subject of CBM2014-00136.
In CBM2014- 00136, Patent Owner stated, “[t]he claimed tool
is implemented graphically merely because of the state of
technology today—it would be possible to implement a
comparable tool mechanically.” Ex. 1006, 25.

39a
Second, claim 1 recites steps of displaying
indicators representing a quantity associated with
an order to buy the commodity or an order to sell the
commodity in a bid display region or ask display
region, respectively. Ex. 1001, 12:41–56. Locations in
the bid or ask display region correspond to a price
level along a common static price axis. Id.
Essentially, these limitations require plotting the
inside market along a price axis. Plotting
information along an axis is a well-understood,
routine, conventional, activity. The Fig. 2 GUI
includes regions for displaying indicators of bid and
ask quantities and regions for displaying
corresponding prices. For example, the Fig. 2 GUI
displays the bid quantity in BidQty column 202 at
locations that correspond to the bid prices in BidPrc
column 203. Ex. 1001, 5:24–29. This is akin to
plotting information BidQty and AskQty along a
price axis. Further, Mr. Thomas testifies that prior
GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being
displayed above the location for the best bid price).”
Ex. 2016 ¶ 57; see also Ex. 1016, 107, Ex. 1019, Fig.
2a (depicting a trading screen having a central order
price column and ask and bid orders in adjacent
corresponding columns). Displaying the best ask
price above a best bid price would be displaying a
common column of price levels. The ’304 patent
states:

40a
the physical mapping of such information to a
screen grid can be done by any technique
known to those skilled in the art. The present
invention is not limited by the method used to
map the data to the screen display.
Id. at 4:66–5:7.
Claim 1 requires that the price levels are static
(i.e., they do not change positions unless a recentering command is received). The ’304 patent
discloses that re-centering is desirable when the
inside market goes above or below the displayed
price column because the trader will want to be able
to see the inside market. Id. at 9:14–17. Fixing the
location of the target or focus of the trader was
known in the prior method of trading using a GUI.
See Ex. 2169 ¶ 58, PO Resp. 6–7. These steps of
claim 1 require merely a rearrangement of market
information that was known to be displayed in
corresponding columns on a GUI. CyberSource Corp.
v. Retail Decisions, Inc., 654 F.3d 1366, 1370 (Fed.
Cir. 2011) (holding “[t]he mere collection and
organization of data” patent-ineligible).
Third, claim 1 also recites steps of displaying an
order entry region for receiving commands to send
trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with
a single action. Id. at 12:62–13:3. Methods that
permit single action entry of an order, which has
preset default parameters, by clicking on a cell in a
display of a GUI are known technology. See PO Resp.
6–7 and Ex. 1006, 12. The additional elements must

41a
be
more
that
“well-understood,
routine,
conventional, activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not
transform the nature of the claim into a patenteligible application. They do not add significantly
more to the abstract idea or fundamental economic
practice. Contrary to Patent Owner’s argument, the
claim simply recites the use of a generic GUI with
routine
and
conventional
functions.
Even
considering all of the elements as an ordered
combination, I would have determined that the
combined elements also do not transform the nature
of the claim into a patent-eligible application.
Indeed, as discussed above, the Fig. 2 GUI disclosed
in the ’304 patent includes a similar combination of
elements.
For the reasons discussed above, I respectfully
dissent and determine that the claims of the ’304
patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.
PETITIONER:
John C. Phillips
Kevin Su
Robert Sokohl
Michael Rosato
Matthew Argenti
phillips@fr.com
CBM14919-0005CP1@fr.com
Rsokhol-ptab@skgf.com
mrosato@wsgr.com
margenti@wsgr.com

42a
PATENT OWNER:
Erika H. Arner
Rachel Emsley
Joshua Goldberg
Kevin Rodkey
Michael Gannon
Leif Sigmond
Steven Borsand
Cory Bell
Jennifer Kurcz
Jay Knobloch
Erika.arner@finnegan.com
Rachel.emsley@finnegan.com
Joshua.goldberg@finnegan.com
Kevin.rodkey@finnegan.com
gannon@mhbh.com
sigmond@mbhb.com
steve.borsand@tradingtechnologies.com
cory.bell@finnegan.com
kurcz@mbhb.com
jay.knobloch@tradingtechnologies.com

43a
APPENDIX C
Trials@uspto.gov
Tel: 571-272-7822

Paper No. 129
Entered: February 28, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-00182
Patent No. 6,772,132 B1
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.

44a
Opinion for the Board filed by PLENZLER,
Administrative Patent Judge.
Opinion dissenting-in-part filed by PETRAVICK,
Administrative Patent Judge.
PLENZLER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Covered Business Method Patent Review
37 U.S.C. § 328(a) and 37 C.F.R. § 42.73
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation
Group,
Inc.,
TradeStation
Securities,
Inc.,
TradeStation Technologies, Inc., and IBFX, Inc.
(collectively, “Petitioner”) filed a Petition requesting
covered business method patent review of claims 1–
56 (the “challenged claims”) of U.S. Patent No.
6,772,132 B1 (Ex. 1001, “the ’132 patent”). Paper 7
(“Pet.”). Trading Technologies International, Inc.
(“Patent Owner”) filed a Preliminary Response.
Paper 15 (“Prelim. Resp.”). On March 3, 2016, we
instituted a covered business method patent review
(Paper 19, “Institution Decision” or “Inst. Dec.”)
based upon Petitioner’s assertion that claims 1–56
are directed to patent ineligible subject matter under
35 U.S.C. § 101 and that those claims are
unpatentable under 35 U.S.C. § 103. Inst. Dec. 39.

45a
Subsequent to institution, Patent Owner filed a
Patent Owner Response (Paper 67, “PO Resp.”) and
Petitioner filed a Reply (Paper 96, “Pet. Reply”) to
Patent Owner’s Response.
We held a joint hearing of this case and several
other related cases on October 19, 2016. Paper 122
(“Tr.”).
After oral hearing, the Federal Circuit issued a
decision in Trading Technologies International, Inc.,
v. CQG, Inc., No. 2016-1616, 2017 WL 192716 (Fed.
Cir. Jan. 18, 2017), determining that the claimed
subject matter of the ’132 patent is patent eligible
under § 101. Petitioner and Patent Owner, with
authorization (Paper 125), each filed supplemental
briefing addressing the impact of that decision on
this proceeding. Paper 128 (“Pet. Br.”); Paper 126
(“PO Br.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 328(a) and 37 C.F.R. § 42.73. For the
reasons that follow, we determine that Petitioner
has shown by a preponderance of the evidence that
claims 1–28, 30–38, 40–48, and 50–56 of the ’132
patent are unpatentable under 35 U.S.C. § 103.
Petitioner has failed to show claims 29, 39, and 49
are unpatentable under § 103 and that claims 1–56
are directed to patent ineligible subject matter under
35 U.S.C. § 101.

46a
B. Related Proceedings
The parties indicate that the ’132 patent is the
subject of numerous related U.S. district court
proceedings, as well as the Federal Circuit Decision
noted above. Pet. 2; Paper 10, 2–6; Paper 124, 1.
The ’132 patent was the subject of petitions for
covered business method patent review in TD
Ameritrade Holding Corp. v. Trading Technologies
International, Inc., CBM2014-00135 (PTAB) and
CQG, Inc. v. Trading Technologies International,
Inc., CBM2015-00058 (PTAB). Trial was instituted,
but
later
terminated,
for
CBM2014-00135.
Institution was denied for CBM2015-00058.
Numerous patents are related to the ’132 patent
and the related patents are or were the subject of
numerous petitions for covered business method
patent review and reexamination proceedings.
C. Asserted Grounds
Trial was instituted based on the following
grounds.

47a
References

Basis

N/A
TSE1 and Belden2

§101
§103

TSE, Belden, and May3
TSE, Belden, and
Gutterman4

§103
§103

Claims
Challenged
1-56
1–3, 7–10, 14–16,
20–28, 30–38, 40–
48, and 50–56
4, 11, and 17
5, 6, 12, 13, 18,
19, 29, 39, and 49

Petitioner provides testimony from David Rho
(Ex. 1006; “the Rho Declaration) and Kendyl A.
Román (Ex. 1007; “the Román Declaration”) to
support its challenges. Patent Owner provides
testimony from Christopher H. Thomas. Ex. 2169
(“the Thomas Declaration”).
D. The ’132 Patent
The ’132 patent is titled “Click Based Trading
with Intuitive Grid Display of Market Depth.” Ex.
1001, [54]. The ’132 patent describes a display,

Tokyo Stock Exchange Operation System Division,
Futures/Option Purchasing System Trading Terminal
Operation Guide (1998) (Ex. 1016). Citations to this reference
refer to its English translation (Ex. 1017).
1

2 PCT Pub. No. WO 90/11571, pub. Oct. 4, 1990 (Ex. 1012,
“Belden”).
3

CA 2 305 736 A1, pub. Apr. 22, 1999 (Ex. 1013, “May”).

4 U.S. Pat. No. 5,297,031, iss. Mar. 22, 1994 (Ex. 1011,
“Gutterman”).

48a
named the “Mercury” display, and method of using
the display to trade a commodity. Id. at Abstract,
3:5–10. The ’132 patent explains that the Mercury
display is a graphic user interface (“GUI”) that
dynamically displays the market depth of a
commodity traded in a market and allows a trader to
place an order efficiently. Id. at 3:11–24. The
Mercury display is depicted in Figure 3, which is
reproduced below.

49a
Figure 3 of the ’132 patent illustrates an example of
the Mercury display with example values for trading
a commodity including prices, bid and ask quantities
relative to price, and trade quantities.
The Mercury display includes a plurality of
columns. Column 1005 is a static price axis, which
includes a plurality of price values for the
commodity. See id. at 7:36–48. The ’132 patent
explains that “[t]he column does not list the whole
prices (e.g. 95.89), but rather, just the last two digits
(e.g. 89).” Id. at 7:38–40. Columns 1003 and 1004 are
aligned with the static price axis and dynamically
display bid and ask quantities, respectively, for the
corresponding price values of the static price axis.
See id. at 7:35–51. The ’132 patent explains that
“[t]he exchange sends the price, order and fill
information to each trader on the exchange” and that
“[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art.” Id. at 4:61–5:1.
Column 1002 contains various parameters and
information used to execute trades, such as the
default quantity displayed in cell 1016. See id. at
8:3–37. A trader executes trades using the Mercury
display by first setting the desired commodity and
default parameters, such as default quantity. See id.
at 9:3–17; Fig. 6, step 1302. Then, a trader can send
a buy order or sell order to the market with a single
action, such as clicking on the appropriate cell in
column 1003 or 1004. See id. at 9:7–10:3; Fig. 6,
steps 1306–1315.

50a
E. Illustrative Claim
As noted above, Petitioner challenges claims 1–
56. Claims 1, 8, and 14 are independent. Claim 1 is
illustrative of the claimed subject matter and is
reproduced below:
1. A method of placing a trade order for a
commodity on an electronic exchange having
an inside market with a highest bid price
and a lowest ask price, using a graphical
user interface and a user input device, said
method comprising:
setting a preset parameter for the trade
order
displaying market depth of the commodity,
through a dynamic display of a plurality
of bids and a plurality of asks in the
market for the commodity, including at
least a portion of the bid and ask
quantities of the commodity, the dynamic
display being aligned with a static display
of prices corresponding thereto, wherein
the static display of prices does not move
in response to a change in the inside
market;
displaying an order entry region aligned with
the static display prices comprising a
plurality of areas for receiving commands
from the user input devices to send trade

51a
orders, each area corresponding to a price
of the static display of prices; and
selecting a particular area in the order entry
region through single action of the user
input device with a pointer of the user
input device positioned over the
particular area to set a plurality of
additional parameters for the trade order
and send the trade order to the electronic
exchange.
Ex. 1001, 12:2–27.
ANALYSIS
A. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the
level of ordinary skill in the art,5 we find that the
level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261
F.3d 1350, 1355 (Fed. Cir. 2001); In re GPAC Inc., 57
F.3d 1573, 1579 (Fed. Cir. 1995); In re Oelrich, 579
F.2d 86, 91 (CCPA 1978).

5 The parties’ submissions focus primarily on the degrees,
occupations, and experience, as opposed to what the
hypothetical person of ordinary skill in the art would have
known at the time of the invention. As such, and as the triers of
fact, we do not find such information particularly helpful.

52a
B. Claim Construction
In a covered business method patent review,
claim terms are given their broadest reasonable
interpretation in light of the specification in which
they appear and the understanding of others skilled
in the relevant art. See 37 C.F.R. § 42.300(b); see
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144 (2016) (concluding the broadest reasonable
construction “regulation represents a reasonable
exercise of the rulemaking authority that Congress
delegated to the Patent Office”).
Applying that standard, we interpret the claim
terms of the ’132 patent according to their ordinary
and customary meaning in the context of the
patent’s written description. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any
special definitions for claim terms must be set forth
with reasonable clarity, deliberateness, and
precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed.
Cir. 1994). Petitioner and Patent Owner propose
constructions for several claim limitations. Pet. 13–
14; PO Resp. 27–30; Pet. Reply 9. For purposes of
this Decision, we determine that only the “single
action” limitations require an express construction in
order to conduct properly our analysis discussed
below.
Petitioner contends that
The ’132 patent specification defines this
term: “Any action by a user within a short
period of time, whether comprising one or

53a
more clicks of a mouse button or other input
device, is considered a single action of the
user for the purposes of the present
invention.” (’132 patent, 4:15-20; Román Decl.
¶ 78.)
Pet. 14. Patent Owner does not dispute this
construction, which we adopted in our Institution
Decision. Inst. Dec. 8. We are apprised of no
reason to change that construction.
Each of the independent claims recites the “single
action.” The relation of the “single action” to the
subsequent language in the claims merits discussion.
Claim 1 recites “selecting a particular area in the
order entry region through single action of the user
input device . . . to set a plurality of additional
parameters for the trade order and send the trade
order to the electronic exchange.” Claim 8 similarly
recites
a fourth program code for receiving a
command as a result of a selection of a
particular area in the order entry region by a
single action of the user input device . . . , to
set a plurality of additional parameters for
the trade order and send the trade order to
the electronic exchange.
Claim 14 recites
a trade order sending component for receiving
a command as a result of a selection of the
area in the order entry region by a single

54a
action of the user input device . . . , to set a
plurality of additional parameters for the
trade order and send the trade order to the
electronic exchange.
In our Institution Decision, we made a
preliminary determination that the “single action”
recited in claims 1, 8, and 14 does not require setting
the additional parameters or sending the trade
order. Inst. Dec. 10. Rather, we determined that the
claims require that the selection of the area in the
order entry is accomplished by the “single action,”
and that the “single action” allows for additional
parameters to be set and the trade order to be sent.
Id. Petitioner agrees with that construction. Pet.
Reply 9. Patent Owner disagrees. PO Resp. 27–28.
Patent Owner responds that
A trader order is an electronic message that
includes the parameters of a desired order.
The plain language is understood to mean
that the “single action of the user input
device” refers to both “set[ting] a plurality of
additional parameters” and “send[ing] the
trade order to the electronic exchange” (claim
1, similarly claims 8 and 14). Ex.2169, ¶30.
The BRI requires that the single user action
both set the additional parameters for the
trade order and also send the trade order to
an electronic exchange by selecting a
particular area of the order entry region. Id.

55a
Id. at 28. Patent Owner additionally points out that
the claims require that the order entry region is “for
receiving commands . . . to send trade orders.” PO
Resp. 68. Upon further consideration, we agree with
Patent Owner and determine that our initial
construction was overly broad.
Because the “order entry region” is “for receiving
commands . . . to send trade orders,” it follows that
the selection of the area in the order entry via the
“single action” does not simply provide an
opportunity for a user to set the additional
parameters and send the trade order, such as via a
subsequent pop-up window. Rather, as plainly
recited in the claims, the “order entry region,” itself,
receives the commands to send trade orders. This is
consistent with the only embodiment discussed in
the specification of the ’132 patent, which includes
setting trade parameters and sending a trade order
based on a single action. See Ex. 1001, 9:61–11:11.
Petitioner fails to apprise us of any contrary
understanding, consistent with the Specification,
where the “order entry region” would “receiv[e]
commands . . . to send trade orders.”
Accordingly, we determine that the “order entry
region” recited in claims 1, 8, and 14 receives
commands to send trade orders, including commands
to “set a plurality of additional parameters for the
trade order and send the trade order” as the result of
a “single action of the user input device with a
pointer of the user input device positioned over the
particular area.”

56a
C. Covered Business Method Patent
Section 18 of the AIA6 provides for the creation of
a transitional program for reviewing covered
business method patents. A “covered business
method patent” is a patent that “claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial
product or service, except that the term does not
include patents for technological inventions.” AIA §
18(d)(1); see 37 C.F.R. § 42.301(a). A patent need
have only one claim directed to a covered business
method to be eligible for review. See Transitional
Program for Covered Business Method Patents—
Definitions of Covered Business Method Patent and
Technological Invention, 77 Fed. Reg. 48,734, 48,736
(Aug. 14, 2012) (“CBM Rules”) (Response to
Comment 8).
In this Petition, Petitioner contends that “while a
patent need only one claim directed to a CBM to be
eligible for CBM review . . . all the claims qualify,”
and particularly cites claims 1, 4–8, and 14. Pet. 4.
1. Data Processing or Other Operations used in
a Financial Product or Service
Petitioner asserts that claim 1 is directed to a
covered business method because it recites a method

6 Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284, 329 (2011) (“AIA”).

57a
of placing a trade order for a commodity on an
electronic exchange including the steps of displaying
market information and sending a trade order,
which are financial in nature. Id. Based on this
record, we agree with Petitioner that at least the
subject matter recited by claim 1 is directed to
activities that are financial in nature, namely
“displaying . . . a plurality of bids and a plurality of
asks in the market for the commodity” and “selecting
a particular area in the order entry region . . . to . . .
send the trade order to the electronic exchange,”
which are recited in the claim.
Patent Owner does not dispute that the claims
are directed to a financial product or service and,
instead, contends that the claims are not directed to
“data processing or other operations” of the financial
product or service. Patent Owner’s contentions are
unpersuasive. See PO Resp. 22–24.
Claim 1 encompasses processing financial data
associated with a commodity for display and
processing financial data for sending a trade order
for a commodity to an exchange. See Ex. 1001, 4:62–
66 (“[t]he present invention processes this
information and maps it . . . to a screen.”); 11:12–14
(“[t]he process for placing trade orders using the
Mercury display”), 12:2–27. This processing of
financial data is used in the practice, administration,
or management of a commodity, which is a financial
product, and in the practice, administration, or
management of electronic trading with an exchange,
which is a financial service or activity.

58a
Even if there is some disagreement as to whether
claim 1 includes “data processing,” there appears to
be no disagreement that the steps of claim 1
(displaying market information, setting trade order
parameters, and sending a trade order to the
electronic exchange) are operations used in the
practice, administration, or management of a
commodity or trading a commodity on an electronic
exchange. See PO Resp. 23–24 (discussing only
whether the ’132 patent claims “data processing”).
The ’132 patent, thus, at least claims “other
operations used in the practice, administration, or
management of a financial product or financial
service” (AIA § 18(d)(1)).
For the reasons stated above, and based on the
particular facts of this proceeding, we conclude that
the ’132 patent “claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service” and
meets that requirement of § 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
To determine whether a patent is for a
technological invention, we consider “whether the
claimed subject matter as a whole recites a
technological feature that is novel and unobvious
over the prior art; and solves a technical problem
using a technical solution.” 37 C.F.R. § 42.301(b).

59a
The following claim drafting techniques, for
example, typically do not render a patent a
“technological invention”:
(a) Mere recitation of known technologies,
such as computer hardware, communication
or computer networks, software, memory,
computer-readable storage medium, scanners,
display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012).
Both prongs must be satisfied in order for the
patent to be excluded as a technological invention.
See Versata, 793 F.3d at 1326–27; Apple Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016)
(not addressing arguments regarding whether the
first prong was met when it was determined that the
second prong—that the claimed subject matter as a
whole does not solve a technical problem using a
technical solution—was met).
Patent Owner focuses on whether the claims
“solve[] a technical problem using a technical

60a
solution.” PO Resp. 24–27. When addressing
“whether the claimed subject matter as a whole
recites a technological feature that is novel and
unobvious over the prior art,” Patent Owner simply
alleges that “Petitioners fail to address whether the
claims recite a technical feature that is novel and
unobvious.” PO Resp. 24. That is incorrect.
Petitioner contends that rather than reciting a
technical feature that is novel or unobvious over the
prior art, the claims of the ’132 patent generally
recite trading software that is implemented on a
conventional computer. Pet. 5–7. That was
specifically noted in our Institution Decision. Inst.
Dec. 15.
We are persuaded by Petitioner’s contentions
that at least claim 1 of the ’132 patent does not recite
a novel and non-obvious technological feature. The
specification of the ’132 patent treats as well-known
all potentially technological aspects of the claims.
For example, the ’132 patent discloses that its
system can be implemented “on any existing or
future terminal or device” (Ex. 1001, 4:4–7), each of
which is known to include a display, and discloses
that the input device can be a mouse (id. at 4:9–11),
which is a known input device. The ’132 patent
further discloses that “[t]he scope of the present
invention is not limited by the type of terminal or
device used.” Id. at 4:7–9. The ’132 patent also
describes the programming associated with the GUI
as insignificant. See, e.g., Ex. 1001, 4:62–5:1
(explaining that “[t]he present invention processes
[price, order, and fill] information and maps it

61a
through simple algorithms and mapping tables to
positions in a theoretical grid program” and “[t]he
physical mapping of such information to a screen
grid can be done by any technique known to those
skilled in the art”). That at least claim 1 of the ’132
patent does not recite a novel and non-obvious
technological feature is further illustrated below in
our discussion of that claim being unpatentable
under § 103.
Accordingly, we determine that at least claim 1
does not satisfy the first prong of 37 C.F.R.
§ 42.301(b).
3. Conclusion
In view of the foregoing, we conclude that the
’132 patent is a covered business method patent
under AIA § 18(d)(1) and is eligible for review using
the transitional covered business method patent
program.
D. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–56 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 14–26; Pet. Reply 1–8. Patent Owner
disagrees. PO Resp. 5–22. Our reviewing court also
disagrees. Trading Techs., 2017 WL 192716 at *4.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and

62a
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014). Initially,
we note that Petitioner asserts that claims 8–13, 30–
39, and 51 are “broad enough to encompass a
transitory, propagating signal that is encoded, which
is not eligible for patenting.” Pet. 18 (citing In re
Nuijten, 550 F.3d 1346, 1357 (Fed. Cir. 2007)); Pet.
Reply 8. Claims 8–13, 30–39, and 51 recite a
“computer readable medium having program code
recorded thereon.” Petitioner contends that “[u]nder
the broadest reasonable interpretation (‘BRI’), the
scope of this term is broad enough to encompass a
transitory, propagating signal that is encoded.” Pet.
18. Petitioner explains that the specification neither
defines this term nor provides examples. In our
Institution
Decision,
we
made
an
initial
determination that the broadest reasonable
interpretation of “computer readable medium having
program code recorded thereon” is “any medium that
participates in providing instruction to a processor
for execution and having program code recorded
thereon.” Inst. Dec. 11. Patent Owner responds that
there is no evidence to support Petitioner’s
contention that one skilled in the art would have
understood “computer readable medium having
program code recorded thereon” to encompass a
signal at the time of the invention. PO Resp. 22.
Petitioner
responds
to
Patent
Owner’s
contentions by simply asserting that “TT’s narrow
construction of computer readable medium isn’t
based on the specification since that term is not
used therein,” and concluding that “the Board should

63a
apply the same BRI of computer readable medium
that it has applied in thousands of matters.” Pet.
Reply 8 (citing MPEP § 2106).
Petitioner’s response is unhelpful. For example,
in its Reply, Petitioner cites no evidence to rebut
Patent Owner’s contentions regarding how one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon,” at the time of the invention. In fact,
Petitioner does not even acknowledge those
contentions. Accordingly, on this record, which is
absent any further evidence or meaningful argument
from Petitioner, we are not persuaded that at the
time of the invention one skilled in the art would
have understood “computer readable medium having
program code recorded thereon” as encompassing
transitory, propagating signals.
There is no dispute that the remaining claims fit
within one of the four statutorily provided categories
of patent-eligibility.
Section 101 “contains an important implicit
exception: Laws of nature, natural phenomena, and
abstract ideas are not patentable.” Alice Corp. Pty.
Ltd. v. CLS Bank. Int’l., 134 S. Ct. 2347, 2354 (2014)
(citing Assoc. for Molecular Pathology v. Myriad
Genetics, Inc., 133 S. Ct. 2107, 2116 (2013) (internal
quotation marks and brackets omitted)). In Alice, the
Supreme Court reiterated the framework set forth
previously in Mayo Collaborative Services v.
Prometheus Labs., Inc., 132 S. Ct. 1289, 1293 (2012)
“for distinguishing patents that claim laws of nature,

64a
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id.
There is no definitive rule to determine what
constitutes an “abstract idea.” Rather, the Federal
Circuit has explained that “both [it] and the
Supreme Court have found it sufficient to compare
claims at issue to those claims already found to be
directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that, in determining whether
claims are patent-eligible under § 101, “the
decisional mechanism courts now apply is to
examine earlier cases in which a similar or parallel
descriptive nature can be seen—what prior cases
were about, and which way they were decided”).
The Federal Circuit has already decided that the
claims at issue before us are not directed to an
abstract idea. Trading Techs., 2017 WL 192716 at
*4. Petitioner provides no persuasive reason for us to
ignore that guidance, particularly with respect to
whether the claims are directed to an abstract idea.
See, e.g., Pet. Br. 3–5. For example, Petitioner offers
no persuasive explanation as to why its
characterization of the alleged abstract idea would
affect the Federal Circuit’s determination that the
claims are not directed to an abstract idea. See id. at

65a
5. We also are not apprised of a persuasive reason to
arrive at a different outcome with respect to whether
the claims are directed to an abstract idea based on
the differences between the record before us and that
before the Federal Circuit alleged by Petitioner. See
id. at 3–5.
Accordingly, we follow the Federal Circuit’s
guidance and, in accordance with that guidance,
determine the claims before us to be patent eligible.
E. TSE Challenges
Petitioner challenges claims 1–3, 7–10, 14–16,
20–28, 30–38, 40–48, and 50–56 as having been
obvious over TSE and Belden, claims 4, 11, and 17 as
having been obvious over TSE, Belden, and May,
and claims 5, 6, 12, 13, 18, 19, 29, 39, and 49 as
having been obvious over TSE, Belden, and
Gutterman (“the TSE challenges”).
1. TSE Printed Publication Status
Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a). Pet. 11. In support of its showing
that TSE qualifies as prior art, Petitioner relies on
the November 21, 2005 deposition testimony of
Atsushi Kawashima taken during litigation between
Patent Owner and a third party, eSpeed, Inc. Id.; Ex.
1019.
Whether a document qualifies as a printed
publication under 35 U.S.C. § 102(a) is a question of
law based on underlying findings of fact. In re

66a
Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354
(Fed. Cir. 2014) (citing In re Hall, 781 F.2d 897, 899
(Fed. Cir. 1986)). The Federal Circuit “has
interpreted § 102 broadly, explaining that even
relatively obscure documents qualify as prior art so
long as the public has a means of accessing them.”
Id. (citing Hall, 781 F.2d at 899).
Our leading case on public accessibility is In
re Hall, 781 F.2d 897 (Fed. Cir. 1986). In Hall
we concluded that “a single cataloged thesis
in one university library” constitutes
“sufficient accessibility to those interested in
the art exercising reasonable diligence.” Id. at
900. Thereafter, in Constant v. Advanced
Micro–Devices, Inc., we explained that
“[a]ccessibility goes to the issue of whether
interested members of the relevant public
could obtain the information if they wanted
to.” 848 F.2d 1560, 1569 (Fed. Cir. 1988).
Therefore, “[i]f accessibility is proved, there is
no requirement to show that particular
members of the public actually received the
information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The
determination of whether a document is a “printed
publication” under 35 U.S.C. § 102 involves a caseby-case inquiry into the facts and circumstances
surrounding its disclosure to members of the public.
In re Klopfenstein, 380 F.3d 1345, 1350 (Fed. Cir.
2004).

67a
TSE is entitled “Futures/Option Purchasing
System Trading Terminal Operation Guide” of the
“Tokyo Stock Exchange Operation System Division.”
Ex. 1017, 1.7 In the middle of page 5 is the
annotation “August, 1998” above the words “Tokyo
Stock Exchange Operation System Division.” Id. at
5. Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a) because it was published in August
of 1998 by giving two copies to each of the about 200
participants in the Tokyo Stock Exchange, who were
free to do whatever they wanted with their copies of
the publication. Pet. 11 (citing Ex. 1019, 12–33).
In support of its arguments regarding TSE as
prior art, Petitioner directs us to portions of Mr.
Kawashima’s testimony. At the time of his
testimony, Mr. Kawashima testified that he was
employed by the Tokyo Stock Exchange and was so
at the time of the TSE manual, August 1998. 7 Ex.
1019, 5–11. He further testified that TSE “is the
current TSE futures options trading system terminal
document, manual” that was prepared August of
1998 by the Tokyo Stock Exchange and that he was
in charge of preparing the document. Ex. 1019, 10–
11. Mr. Kawashima also testified that the purpose of
the manual was that “in 1998 we replaced the
futures options trading system and so this new
manual was prepared because there were changes to
the way the trading terminals were operating.” Id. at
12. Kawashima further testified that the manual
7 References are to pages located at center bottom of the
English translation of TSE (Ex. 1017).

68a
was distributed to “participants” in August of 1998,
who were “securities companies for banks who are
able to carry out futures options trading at the TSE”
and that the “manual was given to explain those
changes” made with respect to the operation of the
TSE trading system and terminals. Id. at 12, 14. Mr.
Kawashima testified that the manual was given to
around 200 “participant” companies—all companies
that conduct futures option trading on the Tokyo
Stock Exchange. Id. at 13.8 According to Mr.
Kawashima, two copies were distributed to each
company, by having a person from each company
come to the Tokyo Stock Exchange operating system
section to pick up their copies of the manual, and
that there was no restriction on what the
participants could do with the 1998 manual once
they received it. Id. at 14– 15. Mr. Kawashima
personally distributed the TSE manual to some of
the participants. Ex. 2163, 60:13–24.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by
Petitioner’s showing, which we adopt as our own,
that TSE qualifies as prior art under 35 U.S.C.
§ 102(a). Petitioner asserts, with supporting
evidence, that TSE was distributed to participants in
the Tokyo Stock Exchange. Pet. 11; Ex. 1019, 12, 14.
Based on the evidence before us, the participants
were securities companies for banks. The purpose of
8 We understand the then “participants” included such
companies as Goldman Sachs Securities, Merrill Lynch, and
Morgan Stanley. Ex. 2163, 58:5–17; Ex. 2169 ¶ 33.

69a
the distribution of the manual was to alert the
securities companies of changes to the way the
trading terminals of the Tokyo Stock Exchange
operated. Ex. 1019, 12, 14. Indeed, TSE is a user
manual that includes for example, in Chapter 2,
instructions for terminal system configuration to
enable a participant, such as a security company to
connect to the Tokyo Stock Exchange. Ex. 1017, 10–
25. Chapter 15, entitled “Response To A Problem,”
provides detailed explanations should a problem
arise with terminal equipment, communication
circuit
difficulties,
central
system
recovery
difficulties, etc., along with in-house procured
terminal problem handling instructions. Id. at 5.
Thus, TSE is more than a user manual for how to
trade on the Tokyo Stock Exchange, but also
includes how to electronically connect to the Tokyo
Stock Exchange.
The evidence that is before us, both
circumstantial and direct, supports a finding that
TSE was made accessible to securities companies
and all of the personnel in such a company, who
would have employed technical support personnel,
such as computer scientists or engineers, who would
have needed a copy of the TSE manual to configure
their own system to electronically communicate, and
to continue to trade securities, with the Tokyo Stock
Exchange.9 Thus, the securities companies would

We made a similar finding in our Decision to Institute
(Inst. Dec. 28), thereby putting Patent Owner on notice of such
finding in support of our determination that TSE was
9

70a
have included computer scientists or engineers, as
well as traders. We find that all such persons who
worked at the securities companies would have been
interested members of the relevant public.
Patent Owner’s Contentions10
Patent Owner argues that the evidence fails to
prove TSE is prior art. PO Resp. 59–66. We begin by
addressing Patent Owner’s assertions that Mr.
Kawashima’s testimony should be given little or no
weight because his testimony is not corroborated and
he is an interested witness. Id. at 64–66. Patent
Owner argues that Kawashima’s employer—the
Tokyo Stock Exchange—challenged Patent Owner’s
Japanese counterpart to U.S. Patent No. 6,766,304
by providing TSE to the Japanese Patent Office. Id.
at 65. Patent Owner further argues that the Tokyo
Stock Exchange wanted the Japanese Patent Office
to rely on “these documents” to prevent TT from
obtaining the Japanese patent. Id. (citing Ex. 2163,
39:23–40:20, 42:14– 43:10; Ex. 1019, 110:10–14).
Patent Owner concludes that because Kawashima’s
employer tried to use TSE to prevent TT from
obtaining the 6,766,304 patent, Kawashima is not
disinterested. Id.

publically accessible. Patent Owner does not address such
finding or provide evidence to rebut our finding in that regard.
Cuozzo, 136 S. Ct. at 2141.
10
Patent Owner makes unpersuasive evidentiary
arguments as well, which we address in connection with Patent
Owner’s Motion to Exclude TSE, infra.

71a
We are not persuaded that Kawashima is an
interested witness and that his testimony should be
given little weight. First, the patent involved here is
not the same as the patent involved before the
Japanese Patent Office and we do not understand
what Patent Owner means by “these documents.” In
any event, Patent Owner has not shown that what
occurred in a proceeding before the Japanese Patent
Office involving a different patent is relevant to the
facts of this proceeding. Patent Owner has not
shown sufficiently that Mr. Kawashima had an
interest, himself, regarding the outcome of the
Japanese Patent Office proceeding. Even assuming
that the Tokyo Stock Exchange had an interest in
that earlier proceeding, it does not follow necessarily
that Mr. Kawashima himself had an interest in it as
well. We have considered the evidence to which we
are directed, but do not find that evidence (passages
from Mr. Kawashima’s original and crossexamination) to support Patent Owner’s assertions
that Mr. Kawashima is biased. Indeed, when asked
if the Tokyo Stock Exchange preferred that vendors
like Trading Technologies not have patents on
trading screens, Mr. Kawashima testified, that that
was “not something I would know.” Ex. 2163, 41:6–
12. Lastly, Patent Owner has not demonstrated
sufficiently that Mr. Kawashima’s meetings with
Petitioners’ attorneys prior to his cross-examination
is demonstrative of “bias.” PO Resp. 66. Patent
Owner has not shown why Mr. Kawashima’s
meeting with Petitioner’s counsel prior to his
deposition would make him biased. For these

72a
reasons, we are not persuaded that Mr. Kawashima
is an interested witness.
We also are not persuaded by Patent Owner’s
argument that because Mr. Kawashima’s testimony
is uncorroborated we should give it little weight. PO
Resp. 64–65. In support of the argument, Patent
Owner cites to cases regarding an interested witness.
See, e.g., id. at 64. As explained above, Patent Owner
has not shown sufficiently that Mr. Kawashima is an
interested witness. The other arguments made, e.g.,
that there is no evidence of when the manuals were
picked up or by whom or what a person did with the
document once they received it, are factors to
consider when determining whether a document was
publically accessible, which we address below.
For all of these reasons, we credit the testimony
of Mr. Kawashima. We find that the facts discussed
above regarding Mr. Kawashima’s testimony (Ex.
1019) are supported by a preponderance of the
evidence and are undisputed.11 Although Mr.
Kawashima was cross-examined during this
proceeding, Patent Owner does not direct attention
to portions of his cross-examination testimony, or
any other evidence, that would outweigh Mr.

The burden of showing something by a preponderance of
the evidence simply requires the trier of fact to believe that the
existence of a fact is more probable than its nonexistence.
Concrete Pipe & Products of California, Inc. v. Construction
Laborers Pension Trust for Southern California, 508 U.S. 602,
622 (1993).
11

73a
Kawashima’s original testimony (Ex. 1019)
regarding what the TSE manual was, why it was
distributed, how it was distributed, when it was
distributed, and to whom it was distributed.
Patent Owner argues that Petitioner has not
established that TSE was publically available. PO
Resp. 60–63. In particular, Patent Owner argues
that there is no evidence that anyone actually
received a copy of TSE or whether the receivers of
such document were persons of ordinary skill in the
art. Id. (quoting Blue Calypso, LLC v. Groupon, Inc.,
815 F.3d 1331, 1348 (Fed. Cir. 2016) (a reference will
be considered publicly accessible if it was
“disseminated or otherwise made available to the
extent that persons interested and ordinarily skilled
in the subject matter or art exercising reasonable
diligence, can locate it.”)).
Patent Owner’s argument that there is no
evidence that anyone actually received a copy of TSE
is misplaced. The proponent of a document need not
show that particular members of the interested
public actually received the information. See, e.g., In
re Enhanced Sec. Research, LLC, 739 F.3d 1347,
1354 (Fed. Cir. 2014); Constant v. Advanced MicroDevices, Inc., 848 F.2d 1560, 1569 (Fed. Cir. 1988);
Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331,
1348 (Fed. Cir. 2016). Rather, accessibility goes to
the issue of whether persons interested in the
subject matter could obtain the information if they
wanted to. Id. Here, we have before us persuasive
evidence that TSE was made publically accessible by
providing two copies to each of the about 200

74a
participants (securities companies for banks) in the
Tokyo Stock Exchange, who were free to do whatever
they wanted with their copies of the publication. Ex.
1019, 12, 14. For these same reasons, we are not
persuaded by Patent Owner’s implicit argument that
Petitioner need show that the two copies of the TSE
manual available for pick up by the 200 participant
companies actually were picked up. In any event,
Mr. Kawashima testified that he personally
distributed the TSE manual to some of the
participants. Ex. 2163, 60:13–24.
Patent Owner argues that the participants
(securities companies for banks) who allegedly
received copies of the TSE manual are not persons of
ordinary skill in the art, which Patent Owner
submits would be GUI designers, and not traders at
a stock exchange. PO Resp. 61–62. We are not
persuaded by Patent Owner’s argument.
The patent before us is a business method patent,
the subject matter of which is represented by both
the business and technical sides of the spectrum.
Here, where the patent is directed to trading
commodities on an exchange using a computer, we
must consider all interested members of the public,
which would include not only technical personnel,
but traders as well. Traders of commodities at
securities companies for banks would be interested
members of the public.
In any event, there is sufficient evidence for us to
find that the securities companies for banks also
would have employed technical personnel as well,

75a
and even a “GUI designer.” As explained above, the
purpose of the TSE manual was to alert the
securities companies of changes to the way the
trading terminals of the Tokyo Stock Exchange
operated. Ex. 1019, 12, 14. The TSE manual includes
information and instructions of how to electronically
connect to the Tokyo Stock Exchange. TSE is not
simply a “how to trade commodities” user manual as
Patent Owner seems to suggest. The strong
circumstantial evidence supports finding that TSE
was made accessible to securities companies who
would have employed technical support personnel,
such as computer scientists or engineers, to
configure
their
system
to
electronically
communicate, and to continue to trade securities,
with the Tokyo Stock Exchange, based on the
changes in operation of the terminals explained in
the TSE manual. Thus, the securities companies
would have included computer scientists or
engineers, as well as traders. Lastly, even assuming
that a person of ordinary skill in the art is narrowly
limited to a “GUI designer” as Patent Owner asserts,
we find that securities companies for banks
(“participants”) provided their own front-end order
entry software, and that such participants would
have employed GUI designers to formulate the frontend order entry software to facilitate trading on the
Tokyo Stock Exchange. Ex. 2169 ¶ 33.
Patent Owner argues that because participants of
the Tokyo Stock Exchange were contractually
prohibited from modifying the terminals or software,
there was no reason to provide the manual to GUI

76a
designers. PO Resp. 61–62. Patent Owner has not
shown sufficiently that such a contractual provision
would have prevented persons interested or even
ordinarily skilled in the subject matter from
receiving copies of TSE. For all of the above reasons,
we are persuaded that TSE was publically
accessible.
Patent Owner additionally argues that there is
no evidence that a person having ordinary skill in
the art could have located TSE using “reasonable
diligence,” because there is no evidence that such a
person searching for TSE would find it, such as
being placed in a library, indexed, or catalogued, or
directions to locate TSE. PO Resp. 62–63. We
determine above, that the record evidence supports a
determination that TSE was publically accessible to
persons interested or even ordinarily skilled in the
subject matter. Patent Owner’s arguments are
premised on the notion that none of the personnel at
the securities banks are interested and ordinarily
skilled in the subject matter, which we reject. Thus,
Patent Owner’s argument is unpersuasive.
For all of the above reasons, we determine that
TSE qualifies as prior art.
2. TSE and Belden – Claims 1–3, 7–10, 14–16,
20–28, 30–38, 40– 48, and 50–56
a. Claims 1, 8, and 14
With respect to claims 1, 8, and 14, Petitioner
cites TSE as teaching the majority of limitations of
the claims. Pet. 64–72. Petitioner cites Belden for

77a
the “single action” limitation in the claims, including
the “setting” and “sending” via the “single action,”
and proposes modifying TSE accordingly. Id. at 63–
64, 69–72.
TSE describes a trading system that facilitates
trading with an electronic exchange by receiving bid
and offer information, displaying it to a user, and
accepting and sending bid and offer orders. Ex. 1017,
6–13, 35. A trading terminal displays a GUI for
depicting market information on a Board Screen,
which is shown in the figure reproduced below
(“TSE’s Board Screen”).

The figure reproduced above is illustrated on page
107 of TSE and depicts TSE’s Board Screen. The

78a
Board Screen includes a central order price at
column 11—a price display. Id. at 111. The Board
Screen can be placed in a “Scrolling Screen” mode
where “the price display positions do not change
automatically.” Id. at 115. TSE describes a number
of ways to scroll the Board Screen to vertically scroll,
including using the up/down scroll buttons, vertically
moving the cursor, and pressing the up or down key
on the keyboard. Id. at 116. To the left and right of
order price column 11, at a location corresponding to
price, are bid and offer indicators consisting of
numbers representing the quantity of orders in
respective columns 12, 13, and 14. Id. at 112. The
Board Screen is automatically updated with new bid
and offer information from a central system every
three seconds. Id. at 91. TSE explains that “[t]he
board information on each Board Screen is
automatically updated even if it has been scrolled
vertically.” Id. TSE describes a user entering an
order by double-clicking at a location along the price
axis, which automatically displays a pop-up window
displaying the selected price. Id. at 134, 137.
Clicking a send button sends an order to the
exchange. Id. at 143.
“setting a preset parameter for the trade order”
Petitioner contends that TSE teaches “setting a
preset parameter for the trade order.” Pet. 66 (citing
Ex. 1017, 72–75, 91–102; Ex. 1007 ¶¶ 148– 149). We
agree with Petitioner’s contentions, which are not
disputed by Patent Owner. TSE explains, for
example, that trade orders can be set up as “Own
Company” or “Commissioned” orders (Ex. 1017, 72–

79a
73), and further explains that “[t]he maximum order
input volume can be set in advance” (id. at 74).
Accordingly, we find that TSE teaches “setting a
preset parameter for the trade order.”
“displaying market depth”
Claims 1, 8, and 14 each recite “displaying
market depth of the commodity, through a dynamic
display of . . . bids and . . . asks . . . aligned with a
static display of prices corresponding thereto,” and
further specifies that “the static display of prices
does not move in response to a change in the inside
market.” The ’132 patent explains that “[a]
commodity’s market depth is the current bid and ask
prices and quantities in the market.” Ex. 1001, 3:59–
61. It is readily apparent, and there is no dispute,
that TSE teaches displaying current bid and ask
quantities in the market and their corresponding
prices, and that those quantities are dynamically
displayed. The bid and ask quantities and their
associated process are clearly shown in Petitioner’s
annotated version of TSE’s Board Screen (“Román’s
FIG. C”), reproduced below.

80a

“Román’s FIG. C” is an annotated version of the
figure illustrated on page 107 of TSE depicting a
Board Screen, and is found at page 76 of the Román
Declaration. Mr. Román’s annotations indicate the
portions of the Board Screen considered to
correspond to various claim elements. As for the
display of bid and ask quantities being “dynamic,” as
Petitioner notes (Pet. 67), TSE specifically explains
that the “[b]oard and quotation information is
automatically updated at three-second intervals”
(Ex. 1017, 91).
The dispute with respect to this limitation is
whether TSE’s price display is a “static display of
prices [that] does not move in response to a change
in the inside market” as required by the claims. With
respect to the display of prices being “static,”

81a
Petitioner cites TSE’s discussion of the “Scroll
Screen” mode. Pet. 68 (citing Ex. 1017, 91, 115–116).
Patent Owner responds that “the [person of ordinary
skill in the art] would not have understood TSE’s
screen to have a price axis with relative movement,
as contemplated by Petitioners,” without any
meaningful explanation to support that conclusion.
PO Resp. 67. Patent Owner further contends that
“the [person of ordinary skill in the art] would have
rejected [TSE’s] price axis with relative movement as
counter to the conventional wisdom to fix the inside
market’s location to conserve screen real estate” and
“would not understand relative movement of the
indicators to be the purpose, but rather—at most—a
necessary evil.” Id. at 66–67.
The portions of TSE cited by Petitioner explicitly
state that “in a ‘Scrolling Screen,’ the price display
positions do not change automatically” (Ex. 1017,
115), and that “Board information is automatically
updated even if the screen has been scrolled” (id. at
116). That is, the display of prices remains static
while the corresponding bid and ask quantities
change. This understanding of TSE is supported by
Mr. Román’s testimony. See Ex. 1007 ¶¶ 152–154.
Patent Owner cites no authority to support its
position that we should disregard the express
teachings of a reference because those teachings may
be something unconventional.
Accordingly, we find that TSE teaches the
“displaying market depth” limitation.

82a
“displaying an order entry region” and selecting a
particular area of the “order entry region” by a
“single action”
Claims 1, 8, and 14 each additionally recite an
“order entry region” aligned with the “static display
of prices.” As explained above in our discussion of
claim construction, the “order entry region” recited
in claims 1, 8, and 14 receives commands to send
trade orders as the result of a “single action of the
user input device with a pointer of the user input
device positioned over the particular area.”
Petitioner proposes combining the teachings of
Belden with those of TSE when addressing these
limitations. Pet. 69–72. Belden “relates to computerbased techniques for replicating a physical market
for trading items such as stocks . . . and the like.” Ex.
1012, 3. Petitioner contends that Belden teaches
single action commands that set trade prices and
send trade orders. Pet. 70–71.
Patent Owner responds that “TSE does not
include the claimed order entry region because
selecting an area along the price axis only opens a
separate order entry window, it cannot be used to
send orders.” PO Resp. 68 (citing Ex. 1017, 137).
Patent Owner explains that “[b]ecause of the
separate order entry window, TSE does not disclose
the claimed ‘order entry region’ and functions of the
claimed ‘areas for receiving’ along a price axis.” Id.
at 68–69 (citing Ex. 2169 ¶ 164). With respect to
Belden, Patent Owner responds that “Belden does
not disclose a price axis, and therefore cannot

83a
disclose the claimed order entry region.” Id. at 69.
Patent Owner further contends that “even if TSE
and Belden were combined in the manner suggested
by Petitioners, one still would not arrive at the
claimed
invention
because
the
suggested
combination lacks an ‘order entry region’ as
claimed.” Id. at 69.
The problem with Patent Owner’s response is
that it does not address the combined teachings of
TSE and Belden asserted by Petitioner. There is no
dispute, and we agree, that Belden teaches the
“single action sending” asserted by Petitioner. See,
e.g., Ex. 1012, 12, 33. As noted above, Petitioner’s
challenge proposes modifying TSE to include
Belden’s “single action” sending. Pet. 69–72.
Specifically,
under
Petitioner’s
proposed
combination, as illustrated in Román’s FIG. C, the
“three exemplary areas associated with bids and
three exemplary areas associated with asks (‘1st,’
[‘]2nd,’ and ‘3rd’)” are “order entry regions” with
“[e]ach of the displayed bids and asks include[ing] an
area that can receive commands from the user input
device.” Id. at 69. Patent Owner acknowledges that
“selecting an area along [TSE’s] price axis . . . opens
a separate order entry window” and allows the “user
[to] perform additional steps, such as entering an
order quantity and clicking ‘send,’ to send the order.”
PO Resp. 68 (citing Ex. 1017, 137, 142). We agree
that TSE teaches this feature. See, e.g., Ex. 1017,
137. When modified by Belden’s teachings, selecting
one of TSE’s order entry regions (labeled 1st, 2nd, and
3rd areas in areas in Román’s FIG. C) sets a trade

84a
parameter and sends a trade order, rather than
opening a separate window. Accordingly, under this
combination, TSE’s order entry region “receiv[es]
commands from the user input devices to send trade
orders” and meets the “single action” limitations.
Rationale for combination
Petitioner provides persuasive rationale for
combining Belden’s teachings with those of TSE
(Pet. 63–64), which Patent Owner does not dispute
(see PO Resp. 66–70), and we adopt as our own. That
rationale is supported both by Mr. Román’s
testimony and the express teachings of Belden. For
example, Petitioner reasons that “a [person of
ordinary skill in the art] would have been motivated
to
incorporate
Belden’s
single-action
order
techniques in TSE’s electronic trading system to
achieve the predictable and desirable results of
reducing the time needed to place an order and
reduce operator error.” Pet. 64 (citing Ex. 1007 ¶
141). Petitioner also notes Belden’s express teaching
that “a trader ‘benefits from the speed with which he
can take or liquidate positions’.” Id. (quoting Ex.
1012, 4).
For the reasons set forth above, we are persuaded
that Petitioner has established, by a preponderance
of the evidence, that the features of claims 1, 8, and
14 are taught by the combination of TSE and Belden,
and that one skilled in the art would have combined
those teachings.

85a
b. Claims 2, 3, 9, 10, 15, and 16
Claims 2, 9, and 15 depend from claims 1, 8, and
14, respectively, and further recite that the
trade order is a buy order if the position of the
pointer at the time of said single action is
within a bid order entry region and wherein
said trade order is a sell order if the position
of the pointer at the time of said single action
is within an ask order entry region.
Petitioner cites TSE as teaching an order being
buy or sell depending on the location clicked. Pet. 72
(citing Ex. 1017, 137). There is no dispute, and we
agree, that this limitation is taught by TSE, as can
be seen in Román’s FIG. C above.
Claims 3, 10, and 16 depend from claims 2, 9, and
15, respectively, and further recite that the “trade
order is for a pre-determined fixed quantity and for a
price corresponding to the position of the pointer at
the time of said single action.” Petitioner cites TSE
as teaching the “trade order is . . . for a price
corresponding to the position of the pointer at the
time of said single action,” as well as other automatic
settings. Pet. 72. Petitioner cites Belden for the
“trade order [being] for a pre-determined fixed
quantity.” Id. (citing Ex. 1012, 26, 33–34). Petitioner
relies on the same rationale noted above for
combining Belden’s teachings with those of TSE,
such as increasing speed and reducing potential for
errors. See id. at 63–64.

86a
Patent Owner responds that, in Belden, “[t]he
quantity is not ‘fixed’ because part of the order could
be filled by another trader as the user clicks the icon,
and the user would therefore trade another
quantity,” the quantity is not “pre-determined”
because the quantity is not defined by the action
(clicking) but instead by the underlying icon, which
can change,” and “the amount of the trade order in
Belden is not determined until after the icon is
clicked.” PO Resp. 70. Patent Owner’s contentions
are not persuasive. With respect to claims 3, 10, and
16, Petitioner cites Belden for simply teaching
selecting a trade order for a fixed predetermined
quantity.
Belden describes presenting trading information
on a display of a user terminal using icons indicating
bid and ask quantities at a given price. Ex. 1012, 26.
Belden explains that a bid or an ask may be accepted
(i.e., a buy or sell order may be placed) by clicking on
the appropriate icon and that bid or ask quantity
will automatically be for the quantity shown unless
the user takes steps to modify the quantity. Id. at
33–34. Belden’s express disclosure of “mouse: enter
amount (if less than what icon is showing), point and
click on icon with mouse in the appropriate
partition” (Ex. 1012, 33), for example, teaches this
feature because without further user intervention
(i.e., without the user entering less than what is
showing), the order is entered at the “predetermined fixed quantity” that is shown on the icon.
Patent Owner further contends that “Petitioners
do not provide any explanation of how the POSA

87a
would combine Belden’s acceptance of a specific
user’s bid/offer with TSE, which displays only
aggregated totals of bid/asks, making the Petition
deficient.” Id. at 71. Contrary to Patent Owner's
position, it is not necessary that Belden’s specific
user’s bid/offer be physically combinable to render
claims 3, 10, and 16 obvious. Patent Owner does not
dispute Petitioner’s rationale for combining the
teachings of Belden with those of TSE, which we find
persuasive for the reasons explained above with
respect to claims 1, 8, and 14.
c. Claims 24, 34, and 44
Claims 24, 34, and 44 depend from claims 1, 8,
and 14, respectively, and further recite that bids and
asks are “re-centered” upon receiving a “recentering
instruction.” Petitioner contends that selection of the
“home button [H]” while in the Scroll Screen in TSE
teaches this feature. Pet. 74 (citing Ex. 1017, 110).
Patent Owner responds that “[t]his is not a manual
re-centering command because it switches between
modes (scroll mode to basic board mode), also
referred to as a modal shift, [and] returns the user to
the basic Board screen.” PO Resp. 71. Patent Owner
contends that “a [person of ordinary skill in the art]
would not understand this mode switching to be a recentering command.” Id. (citing Ex. 2169 ¶ 170).
Patent Owner’s contentions are not persuasive.
There is no dispute, and we agree, that TSE teaches
manual re-centering by switching between modes.
See Ex. 1017, 110 (“Clicking [the home] button with
the mouse after the board information has been

88a
scrolled causes the screen to return to the Basic
Board Screen, with the board display center price at
the center.”). The fact that re-centering is achieved
by switching between modes does not change the fact
that this is a re-centering command. Patent Owner’s
declarant, Mr. Thomas testifies, for example, that
“TSE fails to suggest that, while in the Board mode,
one could select the ‘H’ button to re[-]center the
board mode display, and as a consequence fails to
suggest the claimed ‘re-centering instruction,’” but
this, too, is unpersuasive because it is not tied to any
requirement in the claims. The claims simply
require “re-centering,” and are silent as to whether a
mode must remain the same.
For the reasons set forth above, we find that
“[c]licking [the home] button with the mouse after
the board information has been scrolled causes the
screen to return to the Basic Board Screen, with the
board display center price at the center” in TSE
teaches the features recited in claims 24, 34, and 44.
d. Claims 25, 26, 35, 36, 45, and 46
Claims 25, 35, and 45 depend from claims 1, 8,
and 14, respectively, and further recite “dynamically
displaying working orders in alignment with the
prices corresponding thereto.” Claims 26, 36, and 46
also depend from claims 1, 8, and 14, respectively,
and further recite “dynamically displaying entered
orders in alignment with the prices corresponding
thereto, wherein said entered orders indicate a
quantity of said commodity for which a trader’s
orders have been filled at said corresponding prices.”

89a
Petitioner contends that Belden teaches these
features. Pet. 74–76.
There is no dispute, and we agree, that Belden
teaches displaying the information recited in the
claims noted above, albeit the information in Belden
is not displayed along a price axis. Petitioner,
however, proposes modifying TSE to display the
information taught by Belden (working orders and
entered orders), and that information would be
displayed along the price axis in TSE. Id. at 75–76.
Accordingly, Patent Owner’s arguments against the
references individually are unpersuasive.
Patent Owner additionally responds that
“Petitioners failed to provide any reason why the
[person of ordinary skill in the art] would modify
TSE to add a new column of information” (i.e.,
including the dynamic display of working orders
from claims 25, 35, and 45 or the entered orders
from claims 26, 36, and 46). PO Resp. 72. In the
Petition, however, Petitioner reasons that one of
ordinary skill in the art would have made the
proposed modifications to TSE “so that the trader
could easily recognize and track his/her orders at
various price levels.” Pet. 74–75.
There is no dispute that one skilled in the art
would have appreciated the benefits of displaying
working orders. See PO Resp. 72 (Patent Owner
acknowledges that “conventional wisdom was to
place working orders in a separate window.”). We are
persuaded that, as an alternative to displaying
orders in a separate window, one skilled in the art

90a
would have appreciated the benefits of “dynamically
displaying . . . orders in alignment with the prices
corresponding thereto,” as recited in the claims, in
view of the ability to easily track orders when
displayed in that manner as Petitioner suggests.
For the reasons set forth above, we are persuaded
that Petitioner has established, by a preponderance
of the evidence, that the features of claims 25, 26, 35,
36, 45, and 46 are taught by the combination of TSE
and Belden, and that one skilled in the art would
have combined those teachings.
e. Additional Dependent Claims
Petitioner additionally challenges claims 7, 20–
23, 27, 28, 30–33, 37, 38, 40–43, and 50–56 as being
unpatentable over TSE and Belden. Pet. 73, 76–78.
We have reviewed Petitioner’s challenge to those
claims, which Patent Owner does not dispute, as
well as the evidence supporting those challenges.
We adopt Petitioner’s findings and rationale, and
are persuaded that the features recited in those
claims are taught by the combination of TSE and
Belden and that one skilled in the art would have
combined those teachings.
3. TSE, Belden, and May – Claims 4, 11, and 17
Petitioner challenges claims 4, 11, and 17 as
being unpatentable over TSE, Belden, and May. Pet.
78. We have reviewed Petitioner’s challenge to those
claims, which Patent Owner does not dispute, as
well as the evidence supporting those challenges.

91a
We adopt Petitioner’s findings and rationale, and
are persuaded that the features recited in those
claims are taught by the combination of TSE,
Belden, and May and that one skilled in the art
would have combined those teachings.
4. TSE, Belden, and Gutterman – Claims 5, 6,
12, 13, 18, 19, 29, 39, and 49
a. Claims 29, 39, and 49
Claims 29, 39, and 49 depend from claims 1, 8,
and 14, respectively, and further recite “dynamically
displaying a last traded quantity for said commodity
in alignment with the price corresponding thereto.”
Petitioner contends that this is taught by Gutterman
and proposes further modifying TSE accordingly.
Pet. 80 (citing Ex. 1011, 12:7–12). Specifically,
Petitioner contends that “[m]odifying TSE to include
features of Gutterman’s GUI would only require the
simple substitution of known elements or combining
familiar elements according to known methods to
achieve predictable results, and thus is obvious.” Id.
at 79.
Patent Owner responds that “Petitioners . . . do
not explain how Gutterman discloses dynamically
displaying the ‘last traded quantity,’ as claimed,”
which “makes the Petition legally deficient.” PO
Resp. 75. Petitioner does not respond by pointing to
any particular disclosure in Gutterman to rebut
Patent Owner’s contentions. Rather, Petitioner
recasts its obviousness challenge as “[d]isplaying
quantity . . . be[ing] nothing more than obvious
design choice.” Pet. Reply 16–17. The Petition,

92a
however, based the challenge on an express teaching
of this limitation in Gutterman. See Pet. 80 (“This
limitation is disclosed in Gutterman.”). We do not
consider the new argument set forth in Petitioner’s
Reply. See 37 C.F.R. § 42.23(b); see also Intelligent
Bio-Sys., Inc. v. Illumina Cambridge Ltd., 821 F.3d
1359, 1369–70 (Fed. Cir. 2016).
There now appears to be no dispute that
Gutterman does not teach the limitations recited in
claims 29, 39, and 49, which was the basis for the
challenge to these claims in the Petition.
Accordingly, Petitioner has failed to establish, by a
preponderance of the evidence, that claims 29, 39,
and 49 are unpatentable under § 103.
b. Additional Dependent Claims
Petitioner additionally challenges claims 5, 6, 12,
13, 18, and 19 as being unpatentable over TSE,
Belden, and Gutterman. Pet. 79–80. We have
reviewed Petitioner’s challenge to those claims,
which Patent Owner does not dispute, as well as the
evidence supporting those challenges.
We adopt Petitioner’s findings and rationale, and
are persuaded that the features recited in those
claims are taught by the combination of TSE,
Belden, and Gutterman and that one skilled in the
art would have combined those teachings.
5. Secondary Considerations
As part of our obviousness analysis, we consider
the arguments and corresponding evidence

93a
submitted by Patent Owner regarding secondary
considerations of non-obviousness. See Graham v.
John Deere Co., 383 U.S. 1, 17–18 (1966). To be
relevant, secondary evidence of nonobviousness must
be commensurate in scope with the claimed
invention. In re Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011). There must be a nexus between the merits of
the claimed invention and the evidence of secondary
considerations. In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995). “Nexus” is a legally and factually
sufficient connection between the objective evidence
and the claimed invention, such that the objective
evidence should be considered in determining nonobviousness. Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988).
Patent Owner contends that “there is a mountain
of objective indicia of non-obviousness that proves
the claimed invention is not obvious.” PO Resp. 37.
a. MD Trader
Patent Owner contends that “MD Trader [is] the
commercial embodiment of the invention” (PO Resp.
44), and refers to MD Trader throughout its
discussion of secondary considerations of nonobviousness (id. at 39–59). As Petitioner notes,
however, “the [Patent Owner Response] fails to
explain how MD Trader embodies the ’132 claims
and doesn’t even identify which claims (if any) MD
Trader embodies.” Pet. 19.
The only discussion provided in Patent Owner’s
Response as to how MD Trader includes the features

94a
recited in the challenged claims is a general
allegation noted above that “MD Trader [is] the
commercial embodiment of the invention . . .
Ex.2169, ¶ 95 (citing Ex.LL [Ex.2233] to explain how
each claim element is present in MD Trader).” PO
Resp. 44. Initially, we note that such an
incorporation by reference is inappropriate, as
Patent Owner’s Response fails to explain how MD
Trader includes the features of the claims. See 37
C.F.R. § 42.6(a)(3) (“Arguments must not be
incorporated by reference from one document into
another document.”).
Nevertheless, and as explained below, Patent
Owner’s
contentions
regarding
secondary
considerations fail even if we assume that MD
Trader includes the claim elements (the features of
claims 1, 3, and 7 noted in Exhibit 2233).
b. Unrecognized Problems
Patent Owner contends that “[t]he inventive GUI
tool solved problems in conventional GUIs,” which
“exhibited problems with speed and accuracy.” PO
Resp. 38. Patent Owner, however, offers no
persuasive authority for the proposition that
“unrecognized
problems”
is
a
secondary
consideration of non-obviousness. See id. at 39
(citing Leo Pharm. Prods., Ltd. v. Rea, 726 F.3d
1346, 1353–54, 1357 (Fed. Cir. 2013)). An inventor’s
discovery of a previously unrecognized problem is
generally accounted for in the analysis of the scope
of the prior art and a motivation to combine prior art
elements, rather than it being a secondary

95a
consideration of nonobviousness. See Leo Pharm.
Prods., 726 F.3d at 1353–54; see also S. Alabama
Med. Sci. Found. v. Gnosis S.P.A., 808 F.3d 823, 827
(Fed. Cir. 2015). We note that Patent Owner’s
contentions regarding “unrecognized problems” are
not tied to any of the asserted references or rationale
discussed above with respect to the challenges to
claims 1–56 under § 103.
Accordingly, these contentions are not persuasive
of non-obviousness.
c. Unexpected Results
Patent Owner contends that “[u]nexpected
superior properties from an invention support the
conclusion that the invention was not obvious to a
[person of ordinary skill in the art].” PO Resp. 39
(citing Procter & Gamble Co. v. Teva Pharm. USA,
Inc. 566 F.3d 989, 997 (Fed. Cir. 2009); In re Soni, 54
F.3d 746, 750 (Fed. Cir. 1995)). As the authority
cited by Patent Owner explains,
[t]he basic principle behind [unexpected
results
supporting
nonobviousness]
is
straightforward—that which would have been
surprising to a person of ordinary skill in a
particular art would not have been obvious.
The principle applies most often to the less
predictable fields, such as chemistry, where
minor changes in a product or process may
yield substantially different results.
In re Soni, 54 F.3d at 750.

96a
Patent Owner contends that “[a]lthough the
invention achieved Brumfield’s intended benefit of
increasing the likelihood that the user would get
his/her desired price, this was not a problem widely
appreciated by others.” PO Resp. 39. Patent Owner
further contends that “the invention provided
several other unexpected benefits as well.” Id. This is
not persuasive of “unexpected results.”
Patent Owner does not allege that the GUI
operated in some unexpected manner. Indeed, it is
hard to imagine computer code (i.e., a set of
instructions) operating in an unexpected manner,
particularly when the ’132 patent describes the
programming associated with the GUI as
insignificant. See, e.g., Ex. 1001, 4:62–5:1 (explaining
that “present invention processes [price, order, and
fill] information and maps it through simple
algorithms and mapping tables to positions in a
theoretical grid program” and “[t]he physical
mapping of such information to a screen grid can be
done by any technique known to those skilled in the
art”).
Accordingly, we are not persuaded by Patent
Owner’s contentions regarding unexpected results.
d. Initial Skepticism
Patent Owner contends that “MD Trader was
received with skepticism by TT’s own sales
personnel.” PO Resp. 41 (Ex. 2169 ¶¶ 97–98, 101;
Ex. 2211, 715:19-716:18; Ex. 2173 ¶¶ 21–23; Ex.
2170 ¶¶ 21–27; Ex. 2171 ¶ 40; Ex. 2173 ¶ 16).

97a
Initially, we reiterate that “[a]rguments must not be
incorporated by reference from one document into
another document.” 37 C.F.R. § 42.6(a)(3).
Patent Owner’s arguments related to “initial
skepticism” are based primarily on the premise that
“a [person of ordinary skill in the art] would have
rejected outright a price axis with relative
movement.” PO Resp. 43. Those contentions are
unpersuasive. As noted above, TSE expressly
teaches this feature. To the extent the other
contentions related to “initial skepticism” are
directed to traders simply being resistant to change,
generally, those contentions are also unpersuasive.
See, e.g., id. at 43 (discussing profitable traders
being hesitant towards any type of change because
change can alter their confidence). Those contentions
are not tied in any meaningful way to the features of
the claims.
That traders would have been resistant to accept
anything different is not persuasive of nonobviousness.
e. Commercial Success
Patent Owner contends that MD Trader “became
a huge commercial success.” PO Resp. 45. As noted
above, Patent Owner does not explain, in its Patent
Owner Response, how MD Trader embodies the
claimed invention. Even if MD Trader includes each
feature recited in the claims, “[e]vidence of
commercial success . . . is only significant if there is
a nexus between the claimed invention and the

98a
commercial success.” Ormco Corp. v. Align Tech.,
Inc., 463 F.3d 1299, 1311–12 (Fed. Cir. 2006). In
some instances, there may be a presumption of
nexus. See WBIP, LLC v. Kohler Co., 829 F.3d 1317,
1329 (Fed. Cir. 2016) (“[T]here is a presumption of
nexus for objective considerations when the patentee
shows that the asserted objective evidence is tied to
a specific product and that product ‘is the invention
disclosed and claimed in the patent.’”).
Patent Owner does not contend that a
presumption of nexus is appropriate in this case. In
fact, the Patent Owner Response is silent as to any
nexus between the alleged commercial success and
the claimed invention. Petitioner argues there is no
presumption of nexus, and that Patent Owner has
not established the requisite nexus. Pet. Reply 19–
21, 23. We agree with Petitioner. Patent Owner
admits that MD Trader is part of a suite of software
and not sold separately. Tr. 72:18–23. A limited
exception to the presumption of nexus exists where
the patented invention is only a component of the
product
to
which
the
asserted
objective
considerations are tied. Demaco, 851 F.2d at 1392.
Here, because MD Trader is a component of a suite
of software, Patent Owner enjoys no presumption of
nexus. Patent Owner fails to offer any meaningful
discussion of nexus in its Patent Owner Response,
other than a general assertion at the end of its
discussion that “MD Trader was successful due to
the patented features.” PO Resp. 47. Patent Owner’s
contentions regarding commercial success fail for
this reason alone.

99a
Even if we were to assume nexus, Petitioner
persuasively rebuts that presumption. Petitioner
responds, for example, that Patent Owner’s increase
in sales could easily have been the result of increases
in the market itself during the relevant time period.
Pet. Reply 25. Petitioner explains that “in the U.S.,
both the trading volume and the number of actively
traded commodities contracts exploded in the earlyto-mid 2000s” and “[t]rading volume increased sixfold; the number of actively traded contacts
increased five-fold.” Id. (citing Ex. 1048, 35–36).
Exhibit 1048 is a document from the Commodity
Futures Trading Commission (CFTC), and pages 35–
36 support the trading volume increase alleged by
Petitioner.
Petitioner also points to several unclaimed
features being responsible for the alleged commercial
success. Pet. Reply 21. In support of this contention,
Petitioner cites Patent Owner’s own testimony from
traders in the industry (Ex. 222312), noting, for
example, that “Grisafi identifies one-click canceling
and one-click re-centering as key features,”
“McElveen identifies speed, precision, and one-click
re-centering as a key features,” and “Beattie
identifies ‘set[ting] up multiple MD Trade windows
side-by-side on their desktop computer screens’ to
help ‘traders to visualize the entire market easily
and fast’ (‘multi-screen visualization’).” Pet. Reply 21
(citing Ex. 2223, 2–4, 40). Patent Owner
12 Petitioner mistakenly cites to Exhibit 2233 in its Reply.
See Pet. Reply 21.

100a
acknowledges that, “in this industry . . . anything
that is even remotely appreciated as providing an
edge is tried and spreads quickly if successful.” Id. at
45 (emphasis added).
We additionally note, as Petitioner points out
(Pet. Reply 20), that the evidence provided by Patent
Owner in its claim chart corresponds to a 2014
version of MD Trader (citing the X_TRADER®
Version 7.12.X User Manual, with a “document
version” date of March 5, 2014). Ex. 2233, 1–5, 7, 9,
12. The sales information for MD Trader discussed
in the Patent Owner Response is from the period
from 1996–2006. PO Resp. 46. Patent Owner offers
no explanation, in its Patent Owner Response, as to
how the product on sale at that time period
corresponds to the claimed invention or to the MD
Trader from 2014.
Furthermore, Patent Owner does not provide
information regarding sales volume or market share
as compared to providers of competing products.
Rather, Patent Owner only alleges an increase in its
own sales, without reference to the market. See id.
This information, without market share information,
is only weak evidence, if any, of commercial success.
See In re Applied Materials, 692 F.3d 1289, 1299
(Fed. Cir. 2012).
f. Copying
Patent Owner additionally contends that the
invention was widely copied by others. PO Resp. 48–
53. “[C]opying requires the replication of a specific

101a
product.” Iron Grip Barbell Co. v. USA Sports, Inc.,
392 F.3d 1317, 1325 (Fed. Cir. 2004).
Patent Owner refers to products allegedly
including the claimed features, as well as consent
judgments where others acknowledged infringement.
PO Resp. 48–52. This is not persuasive evidence of
copying. See Iron Grip, 392 F.3d at 1325 (“Not every
competing product that arguably falls within the
scope of a patent is evidence of copying. Otherwise
every infringement suit would automatically confirm
the nonobviousness of the patent.”).
Although Patent Owner repeatedly alleges that
others copied the invention, there is no explanation,
in the Patent Owner Response, to support those
alleged copiers attempting to replicate specific
products. Patent Owner has failed to establish
widespread copying.
g. Industry Praise
Patent Owner contends that widespread praise in
the industry also supports non-obviousness. PO
Resp. 53–54. In support of its “widespread praise”
contentions, Patent Owner notes, for example, that
the invention was characterized as a “unique vision,”
“ingenious,” “paradigm change,” “revolutionary… not
just an incremental improvement,” “outside of the
box,” “huge innovation,” “significant advance,”
“determining factor in our success,” “radically
different,” “far superior,” “very significant departure
[from the prior art],” “invaluable tool,” “stroke of
genius,” “so significant that I cannot put a price on

102a
its value.” Id. Patent Owner proceeds to conclude
that “[e]ach one of these was directed to the claimed
features.” Id. at 54.
As with commercial success, however, evidence of
industry praise is only relevant when it is directed to
the merits of the invention claimed. See Ormco, 463
F.3d at 1311. Patent Owner offers no explanation, in
its Patent Owner Response, as to how any of the
alleged praise is due to specific features that are
present in the claims.
h. Industry Acquiescence
Patent Owner contends that non-obviousness is
further shown by “widespread acquiescence and
acceptance in the industry, with many licenses and
consent judgments acknowledging infringement and
validity.” PO Resp. 54. Although licenses taken
under the patent in suit may constitute evidence of
non-obviousness, we attribute little weight to such
evidence because Patent Owner does not
demonstrate “a nexus between the merits of the
invention and the licenses of record.” GPAC, 57 F.3d
at 1580 (internal quotation and citations omitted).
Furthermore, as Petitioner notes, litigation-induced
licensing, alone, does not establish non-obviousness.
See Pet. Reply 25 (citing EWP Corp. v. Reliance
Universal Inc., 755 F.2d 898, 907–8 (Fed. Cir. 1985)).
We note that Patent Owner’s contention
regarding licensing to traders is more related to
commercial success than licensing in the context of
secondary considerations of non-obviousness. See PO

103a
Resp. 55 (discussing traders purchasing software
licenses, the MD Trader product).
i. Failure of Others
Patent Owner additionally contends that the
alleged failure of others to make the invention
supports non-obviousness. PO Resp. 56–58. Patent
Owner’s contentions on this issue are not directed to
any particular attempt and failure of others to make
the claimed invention. See id. Indeed, it is difficult to
image that would be the case with the claimed
invention, as the ’132 patent explains that there is
nothing special about the programming required. Ex.
1001, 4:62–5:1.
Rather, Patent Owner’s contentions are directed
to the allegation that the claimed invention did not
exist before arrived at by Patent Owner. Id. This
does not establish non-obviousness. Iron Grip, 392
F.3d at 1325 (“Absent a showing of long-felt need or
the failure of others, the mere passage of time
without the claimed invention is not evidence of
nonobviousness.”). Patent Owner does not allege any
long-felt need existed. In fact, Patent Owner
advances the opposite position, that the problem was
not even recognized by others. See PO Resp. 57
(“Before the invention, [persons of ordinary skill in
the art] failed to even appreciate the problems.”).
j. Other Evidence
Patent Owner additionally cites another party’s
attempt to invalidate the ’132 patent as evidence of
non-obviousness. PO Resp. 58. Patent Owner

104a
concludes that the party’s “actions show that experts
in the field recognized that prior art, including the
TSE, was insufficient to render the invention
obvious.” Id. We are apprised of no persuasive
reason as to why those contentions establish nonobviousness in this proceeding.
6. Weighing Secondary Considerations against
Obviousness
As explained above, Patent Owner has not
established the majority of its alleged secondary
considerations of non-obviousness. Weighing the
evidence before us, Patent Owner’s contentions
regarding secondary considerations of nonobviousness do not outweigh the strong case of
obviousness discussed above. For example, as noted
above, TSE teaches each feature of claim 1 other
than the “single action” setting and sending, which is
taught by Belden, and Belden itself provides
motivation for that proposed modification to TSE.
Accordingly, we are persuaded that Petitioner
has established, by a preponderance of the evidence,
that claims 1–28, 30–38, 40–48, and 50–56 are
unpatentable under 35 U.S.C. § 103.13 As noted

Patent Owner alleges that Petitioner has failed to
establish a prima facie case of obviousness because various
portions of testimony from Mr. Román and Mr. Rho addresses
only portions of various claims. PO Resp. 77–78. Patent Owner
offers no explanation however, as to how any of the alleged
deficiencies in testimony affects any specific challenge to any
specific claim. See id. (including only general allegations).
13

105a
above, however, Petitioner has failed to establish
that claims 29, 39, and 49 are unpatentable under 35
U.S.C. § 103.
F. Due Process
Patent Owner alleges due process issues in
connection with alleged evidence of non-obviousness.
PO Resp. 78–85. Specifically, Patent Owner
references documents from the related district court
proceeding. See, e.g., id. at 78–79. Patent Owner
references our order (Paper 58, “the discovery order”)
in connection with its due process arguments. Id. at
79. As noted in the discovery order, Patent Owner
failed to explain why some of the documents sought
could be obtained only from Petitioner. Paper 58, 9–
10. Furthermore, the discovery order also explained
that much of the information sought by Patent
Owner was already in Patent Owner’s possession
and potentially could have been used in our
proceedings had Patent Owner sought relief from the
district court in the related proceeding (the
information sought for use in this proceeding was
subject to a protective order in the related district
court proceeding). Id. at 10.
We do not discern any due process issues.
G. Motions to Exclude
1. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1016
(TSE), the transcript of Mr. Kawashima’s deposition
(Ex. 1019), and portions of Exhibits 1051 and 1052.

106a
Paper 100 (“PO MTE”). Exhibit 1016 is the Japanese
version of the TSE document. See, e.g., Paper 119, 2.
Patent Owner seeks to exclude Exhibit 1016 because
it has not been authenticated per Rule 901 of the
Federal Rules of Evidence (FRE). PO MTE 1–8.
Patent Owner recognizes that Petitioner relies on
Mr. Kawashima’s testimony (Ex. 1019) to
authenticate TSE, but argues that his testimony is
hearsay. PO MTE 2–6. Patent Owner, however,
acquiesces that Mr. Kawashima’s testimony is not
hearsay because he was cross-examined. Patent
Owner also argues that Mr. Kawashima’s testimony
raises more doubt than it resolves. Id. at 6–8.
Patent Owner’s motion with respect to the
exclusion of TSE (Exhibit 1016) and the transcript of
Mr. Kawashima’s deposition (Exhibit 1019) falls
short of what is required in a motion. The statement
of the precise relief requested is lacking. For
example, Patent Owner argues that TSE and Mr.
Kawashima’s deposition testimony should be
excluded, but also argues that Mr. Kawashima’s
deposition testimony falls under the FRE 807
hearsay exception, and, therefore, is admissible. See,
e.g., PO MTE 2–6. We understand Patent Owner’s
position to be that if we exclude any of Patent
Owner’s evidence, then we also should exclude
Exhibits 1016 and 1019. Id. at 6 (“To the extent the
Board excludes any of Patent Owner’s evidence from
district court litigation, which it should not, the
Board should likewise exclude the 2005 Kawashima
deposition transcript.”).

107a
We are not persuaded by Patent Owner’s
arguments. Patent Owner has not met its burden to
show that either Exhibit 1019 or Exhibit 1016
should be excluded from the record. In fact, Patent
Owner appears to concede that Mr. Kawashima’s
testimony is not hearsay because it falls under an
exception to the hearsay rule. Nor are we persuaded
by Patent Owner’s argument that the deposition
testimony of Mr. Kawashima (Ex. 1019) raises more
doubt than it resolves. PO MTE 6–8. In essence,
Patent Owner’s arguments go to the weight we
should give Mr. Kawashima’s testimony, which is
not a proper argument for a motion to exclude. For
all of these reasons, we are not persuaded that either
Exhibit 1019 or 1016 should be excluded from the
record.
Patent Owner seeks to exclude pages 57–58 of
Exhibit 1051 (the cross-examination testimony of
Mr. Olsen) and pages 393–397 of Exhibit 1052 (the
cross-examination testimony of Mr. Thomas). We did
not and need not consider the specific pages objected
to in Exhibits 1051 and 1052. We have determined
that
Petitioner
has
demonstrated,
by
a
preponderance of the evidence, that the challenged
claims are unpatentable without considering the
specific objected to pages or the portion of
Petitioner’s Reply that relies on such evidence.
Accordingly, we deny Patent Owner’s Motion to
Exclude with respect to Exhibits 1016 and 1019, and
dismiss Patent Owner’s Motion to Exclude with
respect to Exhibits 1051 and 1052 as moot.

108a
2. Petitioner’s Motion to Exclude
Petitioner moves to exclude various ones of
Patent Owner’s Exhibits. Paper 102 (“Pet. MTE”).
Because the outcome of this trial does not change
based on whether or not we exclude those exhibits,
we dismiss Petitioner’s Motion to Exclude as moot.
CONCLUSION
For the foregoing reasons, we determine that
Petitioner has shown, by a preponderance of the
evidence, that claims 1–28, 30–38, 40–48, and 50–56
of the ’132 patent are unpatentable under 35 U.S.C.
§ 103. Petitioner has failed to show, by a
preponderance of the evidence, that claims 29, 39,
and 49 are unpatentable under § 103 or that claims
1–56 are patent-ineligible under 35 U.S.C. § 101.

ORDER
For the reasons given, it is:
ORDERED that claims 1–28, 30–38, 40–48, and
50–56 of the ’132 patent are unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude Evidence is denied with respect to
Exhibits 1016 and 1019 and dismissed with respect
to Exhibits 1051 and 1052;
FURTHER ORDERED that Petitioner’s Motion
to Exclude Evidence is dismissed; and

109a
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.

110a
Trials@uspto.gov
Tel: 571-272-7822

Paper No. 129
Entered: February 28, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-00182
Patent No. 6,772,132 B1
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
PETRAVICK, Administrative Patent Judge,
dissenting-in-part.

111a
FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
I respectfully dissent from the majority opinion
determining that the claims of the ’132 patent are
directed to patent eligible subject matter under 35
U.S.C. § 101. I join the majority opinion in all other
respects.
Petitioner was not a party in the suit involved in
Trading Technologies International, Inc. v. CQG,
Inc., No. 2016-1616, 2017 WL 192716 (Fed. Cir. Jan.
18, 2017) (“CQG”). Accordingly, the Federal Circuit
was not placed in a position to determine the merits
of the Petitioner’s challenge to the patent eligibility
of claims 1–56 under 35 U.S.C. § 101. Petitioner’s
challenge to the patent eligibility of claims 1–56
under 35 U.S.C. § 101 is based on different
arguments and evidence submitted in this
proceeding, such as different evidence of what was
routine and conventional. See Pet. Br. 1–5
(discussing the differences between the records in
CQG and here). The determination of whether
claims 1–56 are patent eligible under 35 U.S.C. §
101 should focus on the record here. The patenteligibility determination reached in CQG was based
on the different record before the District Court.
Treating CQG as controlling of the patenteligibility of claims 1–56, notwithstanding a different
outcome based on the record developed in this
proceeding involving a different party and relying on
different evidence, in effect, treats CQG as

112a
precedential to the patent-eligibility question in this
proceeding. Because the Federal Circuit did not in
fact designate CQG as precedential, the possibility
remains that the Federal Circuit would consider the
merits of a different outcome based on a different
record.
The presumption that CQG controls patenteligibility of claims 1–56, notwithstanding a possible
different outcome based on a different set of facts
and evidence, necessarily follows from the view that
the question of patent-eligibility is a pure question of
law. However, if the question of patent-eligibility is a
question of law based on underlying facts, then
underlying facts have the potential of controlling the
ultimate determination. Likewise, a determination
of obviousness under 35 U.S.C § 103 may depend on
which prior art is applied against the claims. The
Federal Circuit has not yet decided whether the
question of patent-eligibility is a pure question of
law or a question of law based on underlying facts.
I respectfully dissent and based on the record
before us determine that the claims of the ’132
patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.
Background
The ’132 patent discloses a method of trading
that reduces the time it takes for a trader to place an
order and, thus, increases the likelihood that the
order will be filled at desirable prices and quantities.
Id. at Abstract and 3:1–6. The method uses a

113a
graphical user interface (“GUI”) named the Mercury
display. Id. at Abstract, 3:5. Before turning to the
issue of subject matter eligibility under 35 U.S.C. §
101, a discussion of the differences in the methods of
trading using the Mercury Display and a prior art
GUI is helpful.
Figure 2 of the ’132 patent depicts a prior art
GUI. Ex. 1001, Fig. 2 (“the Fig. 2 GUI”). “GUI tools
like the example shown in Figure 2 were ubiquitous
by the time of the invention.” Ex. 2169 ¶ 60; see also
PO Resp. 1 (“widely used and accepted”). Figure 2 of
the ’132 patent is reproduced below.

The Fig. 2 GUI displays market information in
columns. See id. at 5:15–25, 5:36–42. BidQty column
202 displays bid quantity, and BidPrc column 203
displays corresponding bid price levels. AskQty
column 205 displays ask quantities, and AskPrc
column 204 displays corresponding ask price levels.
Id. at 5:23–24 and 5:38–42. The inside market (i.e.,
the best (highest) bid price and quantity and the best
(lowest) ask price and quantity) is displayed in row
one. Id. at 5:18–21. Rows 2–5 display the market

114a
depth, a list of next-best bids and asks. Id. at 5:21–
25.
Prices and quantities change dynamically based
on real time information from the market. Id. at
5:25–28. The inside market, however, is always
displayed in row 1, a fixed location. PO Resp. 1–2.
“This made perfect sense because it emphasized
focus on the primary target for the trader: the inside
market,” and “[s]ince the location of the inside
market is always known, the trader may easily spot
the target, regardless of changes in the market.” Ex.
2169 ¶ 62. Patent Owner’s declarant Christopher H.
Thomas testifies that other prior art GUIs, which
are similar to the Fig. 2 GUI, “displayed the
locations for the best bid and ask prices such that
the prices were displayed vertically (e.g., with the
location for the best ask price being displayed above
the location for the best bid price).” Id. ¶ 61.
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the
price or quantity columns.” Ex. 2169 ¶ 57; see id. ¶
58; PO Resp. 2–3. According to Patent Owner, “these
types of tools permitted ‘single action’ order entry
that consisted of a trader presetting a default
quantity and then clicking on a cell in the screen . . .
to cause a trade order message to be sent to the
exchange at the preset quantity and at the price
value associated with that cell.” Ex. 1031, 7.
Other types of conventional trading GUIs used
order entry tickets to send trade orders to an
electronic exchange. PO Resp. 1. An order entry

115a
ticket is usually in the form of a window, with areas
for a trader to fill out order parameters (e.g., price,
quantity, an identification of the item being traded,
buy or sell). Ex. 2169 ¶ 48; see also Ex. 1001, 2:42–46
(describing a trader manually entering trade order
parameters).
Turning now to a discussion of how the Mercury
display is used to enter an order on an electronic
exchange, the Mercury display is depicted in Figure
3 of the ’132 patent. Id. at 3:41–42. Figure 3 is
reproduced below.

116a

As can be seen in Fig. 3 above, like the Fig. 2
GUI, the Mercury display displays market
information in columns. BidQ column 1003 displays
bid quantities, and AskQ column 1004 displays bid
ask quantities. See id. at 7:35–36. The bid and ask
quantities are displayed along corresponding price
levels in Prc column 1005, which is a common price
axis. The inside market is displayed at 1020. Id. at
7:36–38.

117a
Unlike the Fig. 2 GUI, the Mercury display
values in the price column “are static; that is, they
do not normally change positions unless a recentering command is received.” Ex. 1001, 7:46–48.
The bid quantities and ask quantities move up and
down as the market changes, and, thus, the location
of the inside market moves up and down. See id. at
7:48–51. According to Patent Owner, some traders
focused on trading at particular prices, not the inside
market prices. See PO Resp. 2; Ex. 2169 ¶ 84.
Like the Fig. 2 GUI, a trader executes trades
using the Mercury display by first setting the
desired commodity and default parameters, such as
default quantity. Ex. 1001, 9:5–7, 9:51–52, Fig. 6,
step 1302. Then, a trader can send a buy order or
sell order to the market with a single action, such as
clicking on the appropriate cell in column 1003 or
1004. See id. at 9:53–10:63; Fig. 6, steps 1306–1315.
In the example shown in Figure 3, a left click on “20”
in column 1004 will send an order to the market to
buy 17 lots (i.e., the default quantity set in cell 1016
of column 1002) at a price of 90. See id. at 10:1–3.
Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent

118a
therefor, subject to the
requirements of this title.

conditions

and

There are, however, three judicially created
exceptions to the broad categories of patent-eligible
subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice, 134 S. Ct. at
2354; Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 132 S. Ct. 1289, 1293 (2012). Although
an abstract idea, itself, is patent-ineligible, an
application of the abstract idea may be patenteligible. Alice, 134 S. Ct. at 2355. Thus, we must
consider “the elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Id. (citing Mayo, 132 S. Ct. at
1297–98). The claim must contain elements or a
combination of elements that are “sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over
the prior art’ to determine if the claim’s ‘character as
a whole’ is directed to excluded subject matter.’”
Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016) (quoting Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016); see also Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016). “The § 101

119a
inquiry must focus on the language of the Asserted
Claims themselves.” Synopsys, Inc. v. Mentor
Graphics Corp., 839 F.3d 1138, 1149 (Fed. Cir.
2016); see also Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed.
Cir. 2013) (admonishing that “the important inquiry
for a § 101 analysis is to look to the claim”); Content
Extraction & Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir.
2014) (“We focus here on whether the claims of the
asserted patents fall within the excluded category of
abstract ideas.”).
According to Petitioner, the claims are directed to
the abstract idea of “placing an order based on
observed (plotted) market information, as well as
updating market information.” Pet. 16. Petitioner
contends that “claim 1 could be performed in the
human mind or with the aid of pen-and-paper with
little difficulty because the claim requires plotting
only a few data points” (id. at 17) and that the
claims are directed to commodity trading which is ‘a
fundamental economic practice long prevalent in our
system of commerce.’” Pet. Reply 5 (citing Alice, 134
S. Ct. at 2356). Patent Owner disagrees. See PO
Resp. 5–13.
Claim 1 of the ’132 patent is representative.
Claim 1 of the ’132 patent recites “a method of
placing a trade order for a commodity on an
electronic exchange having an inside market with a
highest bid price and lowest ask price, using a
graphical user interface and a user input device.” Ex.
1001, 12:25. Claim 1 recites a step of “setting a

120a
preset parameter for the trade order.” Id. at 12:7.
The specification of the ’132 patent discloses that the
preset parameter may be a quantity the trader
wished to buy or sell. Id. at 9:5–7, 9:51–52. Claim 1
also recites a step directed to dynamically
“displaying the market depth of a commodity,” which
requires displaying bid and ask quantities aligned
with a static display of prices that do not move in
response to a change in the inside market. Id. at
12:8–15. Finally, claim 1 recites two steps related to
creating a trade order: (1) displaying an order entry
region, having a plurality of areas aligned with the
static display of prices for receiving commands to
send trade orders and (2) selecting an areas of the
order entry region through a single action to set a
plurality of parameters for a trade order and to send
the trader order to an electronic exchange. Id. at
12:16–27.
As can be seen from its steps, the focus of claim 1
is placing an order based on observed (plotted)
market information, as well as updating market
information. This focus is consistent with the
disclosure of the ’132 patent, which states that “[t]he
present invention is directed to the electronic
trading of commodities. . . . It facilitates the display
of and the rapid placement of trade orders.” Id. at
1:12–16. The focus of claim 1 is also consistent with
the problem disclosed by the ’132 patent, which is a
trader missing an intended price because the market
changed during the time required for a trader to
read the prices displayed and to manually enter an
order. Id. at 2:23–41.

121a
Claim 1 does not recite any limitations that
specify how the computer implements the steps or
functions for using a GUI. For example, claim 1 does
not specify how the computer maps the bid
quantities, ask quantities, and prices to the display.
The ’132 patent also does not disclose an
unconventional or improved method of mapping the
bid quantities, ask quantities, and price axis to the
display. It states that “[t]he physical mapping of
such information to a screen grid can be done by any
technique known to those skilled in the art” and that
“[t]he present invention is not limited by the method
used to map the data to the screen.” Id. at 4:66–5:3.
The ’132 patent discloses that at least 60
exchanges throughout the world utilize electronic
trading and discloses that it is known that electronic
trading includes analyzing displayed market
information and updated market information to send
trade orders to an exchange. See id. at 1:21–2:10.
Similarly, Mr. Thomas indicates that traders in prior
trading systems, including pre-electronic open outcry
systems, which have been used for over one hundred
years, make trade orders at an exchange based on
market data, such as the inside market prices or “a
price that improves the best bid/offer.” Ex. 2169 ¶¶
35, 61, and 62. Mr. Thomas testifies that “[i]n the
trading pit, traders utilize shouting and hand
signals to transfer information about buy and sell
orders to other traders. To avoid confusion, the
inside market prices were the focus, and traders
could only shout and signal regarding their interest
at the best bid/offer or at prices that improves the

122a
best bid/offer.” Ex. 2169 ¶ 35. The ’132 patent
discloses that electronic exchanges are known to
provide the market depth for display that is the
inside market and a few orders away from the inside
market. Ex. 1001, 5:4–10. Further, Exhibit 1020
discloses that long before the ’132 patent traders
maintained books that plotted bids and asks (e.g.,
the market depth) along a price axis. See Ex. 1020,
44–46. Figure 4-2 of Exhibit 1020 is reproduced
below.

Figure 4-2 depicts a page of a book of a trader. Id.
at 44–45. Orders to buy or sell a commodity are
plotted along a prices axis. For example, Figure 4–2
shows the best bid at 22¼ and the best ask at 22Ɏ.
Id. at 44.

123a
Given this, I determine that placing an order
based on displayed market information, such as the
inside market and few other orders, as well as
updating the market information is a fundamental
economic and conventional business practice. I am
persuaded by Petitioner that the method of claim 1
could be performed in the human mind or with the
aid of pen-and-paper with little difficulty because the
claim requires plotting only a few data points. See
Pet. 17 (citing Ex. 1020, 44–46; Ex. 1007 ¶¶ 73–75).
The claims at issue here are like the claims at
issue in Affinity Labs. In Affinity Labs, the claim at
issue recited an application that enabled a cellular
telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the
cellular telephone was enabled to transmit a request
for the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the
claims at issue in Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229 (Fed. Cir. 2016). In Ameranth, the claim
at issue recited a GUI that displayed menu items in
a specific arrangement, a hierarchical tree format.
Menu items were selected to generate a second menu
from a first menu. Ameranth, 842 F.3d at 1234. In
both Affinity Labs and Ameranth, the court
determined that the claims were not directed to a
particular way of programming or designing the
software, but instead merely claim the resulting
systems. The court thus determined that the claims
were not directed to a specific improvement in the

124a
way computers operate. Affinity Labs, 838 F.3d at
1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not
directed to specific improvements in the way the
computers operate. “Though lengthy and numerous,
the claims [that] do not go beyond requiring the
collection, analysis, and display of available
information in a particular field, stating those
functions in general terms, without limiting them to
technical means for performing the functions that
are arguably an advance over conventional computer
and network technology” are patent ineligible. Elec.
Power Grp., 830 F.3d at 1351. “Generally, a claim
that merely describes an ‘effect or result dissociated
from any method by which [it] is accomplished’ is not
directed
to
patent-eligible
subject
matter.”
Ameranth, 842 F.3d at 1244 (quoting Internet
Patents Corp. v. Active Network, Inc., 790 F.3d 1343,
1348 (Fed. Cir. 2015)).
Claim 1 of the ’132 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR
Holdings, the court determined that the claims did
not embody a fundamental economic principle or a
longstanding commercial practice. The claims at
issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a
problem “particular to the Internet.” DDR Holdings,
773 F.3d at 1257. The court also determined that the
invention was “necessarily rooted in computer
technology in order to overcome a problem
specifically arising in the realm of computer

125a
networks” and that the claimed invention did not
simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue
was directed to a data storage and retrieval system
for a computer memory. Enfish, 822 F.3d at 1336–
37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business
practices. Id. at 1338. Here, in contrast, claim 1 is
directed to a fundamental economic principle or a
longstanding commercial practice and not directed to
an improvement in the computer but simply to the
use of the GUI in a method of placing an order based
on displayed market information, as well as
updating market information.
Patent Owner argues that the GUI disclosed in
the ’132 patent solves an alleged problem of a Fig. 2
GUI, displaying the inside market at a fixed
location, while the displayed prices change as the
market changes. See PO Resp. 2–5, 9–10. If a trader
was focused on trading at a particular price, the
trader could miss its intended price using the Fig. 2
GUI because the price could change as the trader
clicked it. Id. at 2–4. Patent Owner contends that
the ’132 patent solves this problem by having static
prices that do not normally move. Id. at 4–5. The
problem of a price changing just as a trader clicks on
the price is not disclosed in the ’132 patent. Patent
Owner relies upon the testimony of Mr. Thomas to
show that such a problem existed with the Fig. 2
GUI. See PO Resp. 4–5 (citing Ex. 2169 ¶¶ 72–32,

126a
83–84). The testimony of Mr. Thomas, however,
indicates that displaying the inside market at a fixed
location, while the displayed prices change as the
market changes, is only a problem if the trader is
focused on trading at a particular price, not on the
inside market price. Cf. Ex. 2169 ¶ 62 (focus on the
primary target for the traders: the inside market”)
and ¶ 80 (“focused on particular prices than market
prices as many other traders were”). For traders
focused on trading at the inside market price, the
Fig. 2 GUI is advantageous over the Mercury
Display—“[s]ince the location of the inside market is
always known, the trader may easily spot the target,
regardless of changes in the market.” Ex. 2169 ¶ 82.
For traders focused on trading at the inside market
price, the Mercury Display may be problematic
because the inside market is not fixed, the location of
the inside market may move up and down the price
axis as the market changes, and the inside market
could move as the trader clicked on the inside
market. See Tr. 64:18–66:2; Ex. 2169 ¶ 73. Thus, the
trader could miss their intended price (i.e., the inside
market price). In both Fig. 2 GUI and the Mercury
Display, the inside market and prices move relative
to each other. The difference between the Fig. 2 GUI
and the Mercury Display is whether the inside
market or price remains static. That difference is
based upon the focus of the trader, and is not a
problem with the technology. The fact that some
traders focus on price and some traders focus on the
inside market is not a problem necessarily rooted in
computer technology that overcomes a problem
specifically arising in the realm of computer

127a
networks; it is a difference in the preferences of a
trader. See Pet. Reply 3–7.
Further, claim 1 of the ’132 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d. 1299 (Fed. Cir. 2016).
In McRO, the court held that claims that recited “a
specific asserted improvement in computer
animation” were not directed to an unpatentable
abstract idea because they go “beyond merely
organizing existing information into a new form or
carrying out a fundamental economic practice.”
McRO, 837 F.3d at 135. Here, the claims merely
organize existing market information. As discussed
above, the claims merely reorganize market
information so that the focus of a trader does not
normally move.
Inventive Concept
To be patent eligible, a claim directed to an
abstract idea must recite additional elements that
constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Mayo, 132 S. Ct. at 1297–98.
The additional elements must be more than “wellunderstood, routine, conventional, activity.” Mayo,
132 S. Ct. at 1298.

128a
Petitioner contends that claim 1 does not recite
an inventive concept. Pet. 18–22; Pet. Reply 6–8.
Patent Owner disagrees. PO Resp. 17–21.
Claim 1 of the ’132 patent recites “a method of
placing a trade order for a commodity on an
electronic exchange having an inside market with a
highest bid price and a lowest ask price, using a
graphical user interface and a user input device.” Ex.
1001, 12:2–5. The ’132 patent discloses that its
system can be implemented “on any existing or
future terminal or device” (Ex. 1001, 4:4–7), each of
which is known to include a display, and discloses
that the input device can be a mouse (id. at 4:9–11),
which is a known input device. The ’132 patent
further discloses that “[t]he scope of the present
invention is not limited by the type of terminal or
device used.” Id. at 4:7–9. A mere recitation of a GUI
does not make the claim patent eligible. See Affinity
Labs, 838 F.3d at 1257–58; Ameranth, 842 F.3d at
1236–1242; Internet Patent Corp., 790 F.3d at 1348–
1349; Pet. Reply 16– 17. A recitation of a generic
GUI merely limits the use of the abstract idea to a
particular technological environment.14 “Limiting
the field of use of the abstract idea to a particular
existing technological environment does not render
any claims less abstract.” Affinity Labs, 838 F.3d at

14 The ’132 patent was also the subject of CBM2014-00135.
In CBM2014- 00135, Patent Owner stated, “[t]he claimed tool
is implemented as a GUI merely because of the state of
technology today—a comparable tool could have been
implemented mechanically.” Ex. 1031, 30.

129a
1258 (citing Alice, 134 St. Ct. at 2358; Mayo, 132 S.
Ct. at 1294).
Claim 1 recites a first step of “setting a preset
parameter for the trade order.” Ex. 1001, 12:7. The
’132 patent discloses that it is known in existing
systems for a trader to set parameters, such as
desired quantity, for a trade order. Id. at 2:43–47.
Claim 1 recites a second step of displaying the
market depth by dynamically displaying the
quantities of bids and asks aligned with a static
display of prices. Ex. 1001, 12:8–13. The static
display of prices does not move in response to a
change in the inside market. Id. at 12:13–15.
Essentially, this limitation requires plotting the
inside market along a price axis. Plotting
information along an axis is a well-understood,
routine, conventional, activity. As can be seen from
Fig. 4–2 of Exhibit 1020, reproduced above, it was
known to plot orders to buy or sell a commodity
along a prices axis. Ex. 1020, 44–46. Further, the
Fig. 2 GUI includes regions for displaying indicators
of bid and ask quantities and regions for displaying
corresponding prices. For example, the Fig. 2 GUI
displays the bid quantity in BidQty column 202 at
locations that correspond to the bid prices in BidPrc
column 203. Ex. 1001, 5:14–25. This is akin to
plotting information BidQty and AskQty along a
price axis. Further, Mr. Thomas testifies that prior
GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being

130a
displayed above the location for the best bid price).”
Ex. 2016 ¶ 61. Displaying the best ask price above a
best bid price would be displaying a common column
of price levels.
The ’132 patent describes the programming
associated with the GUI as insignificant. See, e.g.,
Ex. 1001, 4:62–5:1 (explaining that “present
invention processes [price, order, and fill]
information and maps it through simple algorithms
and mapping tables to positions in a theoretical grid
program” and “[t]he physical mapping of such
information to a screen grid can be done by any
technique known to those skilled in the art”).
Claim 1 requires that the price levels are static
(i.e., they do not change positions unless a recentering command is received). Fixing the location
of the target or focus of the trader was known in the
prior method of trading using a GUI. See Ex. 2169 ¶
62. This step of claim 1 requires merely a
rearrangement of market information that was
known to be displayed in corresponding columns on
a GUI. CyberSource Corp. v. Retail Decisions, Inc.,
654 F.3d 1366, 1370 (Fed. Cir. 2011) (holding “[t]he
mere collection and organization of data” patentineligible).
Third, claim 1 also recites steps of displaying an
order entry region for receiving commands to send
trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with
a single action. Ex. 1001, 12:16–27. Methods that
permit single action entry of an order, which has

131a
preset default parameters, by clicking on a cell in a
display of a GUI are known technology. See Ex. 2169
¶¶ 57–58; Ex. 1031, 7. The additional elements must
be
more
that
“well-understood,
routine,
conventional, activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not
transform the nature of the claim into a patenteligible application. They do not add significantly
more to the abstract idea or fundamental economic
practice. Contrary to Patent Owner’s argument, the
claim simply recites the use of a generic GUI with
routine
and
conventional
functions.
Even
considering all of the elements as an ordered
combination, I determined that the combined
elements also do not transform the nature of the
claim into a patent-eligible application. Indeed, as
discussed above, the Fig. 2 GUI discloses in the ’132
patent includes a similar combination of elements.
For the reasons discussed above, I respectfully
dissent and determine that the claims of the ’132
patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.

132a
PETITIONER:
Robert E. Sokohl
Lori A. Gordon
Richard M. Bemben
Sterne, Kessler, Goldstein & Fox P.L.L.C.
PTAB@skgf.com
rsokohl-ptab@skgf.com
lgordon-PTAB@skgf.com
rbemben-PTAB@skgf.com
John Phillips
Fish & Richardson P.C.
CBM41919-0006CP1@fr.com
PATENT OWNER:
Erika H. Arner
Joshua L. Goldberg
Kevin Rodkey
Rachel L. Emsley
Cory Bell
Finnegan, Henderson, Farabow, Garrett & Dunner,
LLP
erika.arner@finnegan.com
joshua.goldberg@finnegan.com
kevin.rodkey@finnegan.com
rachel.emsley@finnegan.com
cody.bell@finnegan.com
Michael D. Gannon
Leif R. Sigmond, Jr.
Jennifer Kurcz

133a
McDonnell Boehnen Hulbert & Berghoff LLP
gannon@mbhb.com
sigmond@mbhb.com
kurcz@mbhb.com
Steven F. Borsand
Jay Knobloch
Trading Technologies International, INC.
tt-patent-cbm@tradingtechnologies.com
jay.knobloch@tradingtechnologies.com

134a
APPENDIX D
Trials@uspto.gov
571.272.7822

Paper No. 138
Entered: March 3, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-00181
Patent No. 7,676,411 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.

135a
Opinion for the Board filed by PETRAVICK,
Administrative Patent Judge.
Opinion dissenting-in-part filed by PLENZLER,
Administrative Patent Judge.
PETRAVICK, Administrative Patent Judge.
FINAL WRITTEN DECISION

35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation
Group,
Inc.,
TradeStation
Securities,
Inc.,
TradeStation Technologies, Inc., and IBFX, Inc.
(collectively, “Petitioner”) filed a Petition requesting
covered business method patent review of claims 1–
28 (the “challenged claims”) of U.S. Patent No.
7,676,411 B2 (Ex. 1001, “the ’411 patent”). Paper 7
(“Pet.”). Trading Technologies International, Inc.
(“Patent Owner”) filed a Preliminary Response.
Paper 22 (“Prelim. Resp.”). On March 7, 2016, we
instituted a covered business method patent review
(Paper 26, “Institution Decision” or “Inst. Dec.”)
based upon Petitioner’s assertion that claims 1–28
are directed to patent ineligible subject matter under
35 U.S.C. § 101 and that those claims are
unpatentable under 35 U.S.C. § 103. Inst. Dec. 35.
Subsequent to institution, Patent Owner filed a
Patent Owner Response (Paper 71, “PO Resp.”) and
Petitioner filed a Reply (Paper 105, “Pet. Reply”) to
Patent Owner’s Response.

136a
We held a joint hearing of this case and several
other related cases on October 19, 2016. Paper 131
(“Tr.”).
After oral hearing, the Federal Circuit issued a
decision, Trading Technologies Int’l, Inc., v. CQG,
Inc., No. 2016-1616, 2017 WL 192716 (Fed. Cir. Jan.
18, 2017), determining that the claims of U.S. Patent
Nos. 6,766,304 (“the ’304 patent”) and 6,772,132
(“the ’132 patent”) are directed to patent-eligible
subject matter under § 101.1 Petitioner and Patent
Owner, with authorization (Paper 134), each filed
supplemental briefing addressing the impact of that
decision on this proceeding. Paper 137 (“Pet. Br.”);
Paper 135 (“PO Br.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 328(a) and 37 C.F.R. § 42.73. For the
reasons that follow, we determine that Petitioner
has shown by a preponderance of the evidence that
claims 1–28 of the ’411 patent are patent ineligible
under 35 U.S.C. § 101 and unpatentable under 35
U.S.C. § 103.

1 By virtue of a number of continuation filings, the ’411
patent is ultimately a continuation of the application resulting
in the ’132 patent (Application No. 09/590,692). The ’304 patent
resulted from a divisional filing of that application.

137a
B. Related Proceedings
The parties indicate that the ’411 patent is the
subject of numerous related U.S. district court
proceedings, as well as the Federal Circuit Decision
noted above. Pet. 2; Paper 11, 2–6; Paper 133, 1. The
’411 patent was the subject of a petition for covered
business method patent review in TD Ameritrade
Holding Corp. v. Trading Technologies Int’l, Inc.,
CBM2014-00133 (PTAB), for which trial was
instituted, but later terminated.
Numerous patents are related to the ’411 patent
and the related patents are or were the subject of
numerous petitions for covered business method
patent review and reexamination proceedings.
C. Asserted Grounds
Trial was instituted based on the following
grounds.
References

Basis

N/A
TSE,2 Belden,3
and Togher4

§ 101
§ 103

Claims
Challenged
1–28
1–28

2 Tokyo Stock Exchange Operation System Division,
Futures/Option Purchasing System Trading Terminal
Operation Guide (1998) (Ex. 1006). Citations to this reference
refer to its English translation (Ex. 1007).

138a
Petitioner provides testimony from David Rho
(Ex. 1023; “the Rho Declaration) and Kendyl A.
Román (Ex. 1019; “the Román Declaration”) to
support its challenges. Patent Owner provides
testimony from Eric Gould-Bear (Ex. 2168; “the
Gould-Bear Declaration”) and Christopher H.
Thomas (Ex. 2169; “the Thomas Declaration”).
D. The ’411 Patent
The ’411 patent is titled “Click Based Trading
with Intuitive Grid Display of Market Depth.” Ex.
1001, [54]. The invention of the ’411 patent “is
directed to the electronic trading of commodities.” Id.
at 1:21–22. The invention of the ’411 patent is a
graphical user interface (“GUI”), named the Mercury
display, and a method of using the Mercury display
to trade a commodity. Id. at Abstract, 3:9–10.
1. Conventional GUI
Before beginning our analysis of the claims for
patent-eligibility, a discussion of conventional
methods of trading is helpful. Figure 2 of the ’411
patent depicts a GUI. Ex. 1001, Fig. 2 (“the Fig. 2

3 PCT Pub. No. WO 90/11571, pub. Oct. 4, 1990 (Ex. 1009,
“Belden”). The page numbers referenced herein are those at the
bottom of each page.

U.S. Pat. No. 5,375,055, iss. Dec. 20, 1994 (Ex. 1005,
“Togher”).
4

139a
GUI”). According to Patent Owner, the Fig. 2 GUI
illustrates the “widely accepted conventional wisdom
regarding” electronic trading. PO Resp. 1; see also
PO Resp. 28 (describing Fig. 2 GUI as “ubiquitous at
the time” of the invention of the ’411 patent).
Figure 2 of the ’411 patent is reproduced below.

The Fig. 2 GUI displays market information in
columns. See id. at 5:20–27, 6:1–2. BidQty column
202 displays bid quantity, and BidPrc column 203
displays corresponding bid price levels. AskQty
column 205 displays ask quantities, and AskPrc
column 204 displays corresponding ask price levels.
Id. at 5:20–27 and 6:3–11. The inside market (i.e.,
the best (highest) bid price and quantity and the best
(lowest) ask price and quantity) is displayed in row
one. Id. at 5:18–20. Rows 2–5 display the market
depth, a list of next-best bids and asks. Id. at 5:20–
24.
Prices and quantities change dynamically based
on real time information from the market. Id. at
5:27–29. The inside market, however, is always

140a
displayed in row 1, a fixed location. PO Resp. 2.
Christopher H. Thomas testifies that other prior art
GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being
displayed above the location for the best bid price).”
Ex. 2169 ¶ 60; see also Ex. 1007, 107 (depicting a
trading screen having a central order price column
and corresponding ask and bid quantities in adjacent
columns).
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the
price or quantity columns.” Ex. 2169 ¶ 56; see Ex.
1028, 7–8. According to Patent Owner,
these types of tools permitted “single action”
order entry that consisted of a trader
presetting a default quantity and then
clicking on a cell in the screen . . . to cause a
trade order message to be sent to the
exchange at the preset quantity and at the
price value associated with that cell.
Ex. 1028, 8.
Other types of conventional trading GUIs used
order entry tickets to send trade orders to an
electronic exchange. PO Resp. 1. An order entry
ticket is “in the form of a window, with areas in
which the trader could fill out parameters for an
order, such as the price, quantity, an identification of
the item being traded, buy or sell, etc.” Ex. 2169 ¶

141a
48; see also Ex. 1001, 2:42–55 (describing a trader
manually entering trade order parameters).
2. Mercury Display
The Mercury display is depicted in Figure 3,
which is reproduced below.

142a
Figure 3 of the ’411 patent illustrates an example of
the Mercury display with example values for trading
a commodity including prices, bid and ask quantities
relative to price, and trade quantities.
The Mercury display is like the Fig. 2 GUI in
that both display market information in columns.
Column 1005 is a price axis, which includes a
plurality of price values for the commodity. See Ex.
1001, 7:55–66. The ’411 patent explains that “[t]he
column does not list the whole prices (e.g. 95.89), but
rather, just the last two digits (e.g. 89).” Id. at 7:57–
58. Columns 1003 and 1004 are aligned with the
price axis and dynamically display bid and ask
quantities, respectively, for the corresponding price
values of the static price axis. See id. at 7:54–8:16.
The ’411 patent explains that “[t]he exchange sends
the price, order and fill information to each trader on
the exchange” and that “[t]he physical mapping of
such information to a screen grid can be done by any
technique known to those skilled in the art.” Id. at
4:63–5:3.
Unlike the prior art Fig. 2 GUI, the values in the
price column of the Mercury Display “are static; that
is, they do not normally change positions unless a recentering command is received.” Id. at 7:64–66. The
bid quantities and ask quantities move up and down
as the market changes, and, thus, the location of the
inside market moves up and down. See id. at 7:66–
8:16.
Similar to the prior art Fig. 2 GUI, a trader
executes trades using the Mercury display by first

143a
setting the desired commodity and default
parameters, such as default quantity. Id. at 9:35–49
and Fig. 6, step 1302. Column 1002 contains various
parameters and information used to execute trades,
such as the default quantity displayed in cell 1016.
See id. at 8:35– 9:3. A trader executes trades using
the Mercury display by first setting the desired
commodity and default parameters, such as default
quantity. See id. at 9:35–49; Fig. 6, step 1302. Then,
a trader can send a buy order or sell order to the
market with a single action, such as clicking on the
appropriate cell in column 1003 or 1004. See id. at
9:35–10:32; Fig. 6, steps 1306– 1315. For example, a
left click on “20” in column 1004, shown in Figure 3,
will send an order to the market to buy 17 lots (i.e.,
the default quantity set in cell 1016 of column 1002)
at a price of 90. See id. at 10:30–32.
E. Illustrative Claim
As noted above, Petitioner challenges claims 1–
28. Claims 1 and 26 are independent. Claim 1 is
illustrative of the claimed subject matter and is
reproduced below:
1. A method of displaying market
information relating to and facilitating
trading of a commodity being traded on an
electronic exchange, the method comprising:
receiving, by a computing device, market
information for a commodity from an
electronic
exchange,
the
market
information comprising an inside market

144a
with a current highest bid price and a
current lowest ask price;
displaying, via the computing device, a bid
display region comprising a plurality of
graphical
locations,
each
graphical
location in the bid display region
corresponding to a different price level of a
plurality of price levels along a price axis;
displaying, via the computing device, an ask
display region comprising a plurality of
graphical
locations,
each
graphical
location in the ask display region
corresponding to a different price level of
the plurality of price levels along the price
axis;
dynamically displaying, via the computing
device, a first indicator representing
quantity associated with at least one trade
order to buy the commodity at the current
highest bid price in a first graphical
location of the plurality of graphical
locations in the bid display region, the first
graphical location in the bid display region
corresponding to a price level associated
with the current highest bid price;
upon
receipt
of
market
information
comprising a new highest bid price,
moving the first indicator relative to the
price axis to a second graphical location of
the plurality of graphical locations in the

145a
bid display region, the second graphical
location corresponding to a price level of
the plurality of price levels associated with
the new highest bid price, wherein the
second graphical location is different from
the first graphical location in the bid
display region;
dynamically displaying, via the computing
device, a second indicator representing
quantity associated with at least one trade
order to sell the commodity at the current
lowest ask price in a first graphical
location of the plurality of graphical
locations in the ask display region, the
first graphical location in the ask display
region corresponding to a price level
associated with the current lowest ask
price;
upon
receipt
of
market
information
comprising a new lowest ask price, moving
the second indicator relative to the price
axis to a second graphical location of the
plurality of graphical locations in the ask
display region, the second graphical
location corresponding to a price level of
the plurality of price levels associated with
the new lowest ask price, Wherein the
second graphical location is different from
the first graphical location in the ask
display region;

146a
displaying, via the computing device, an order
entry region comprising a plurality of
graphical areas for receiving single action
commands to set trade order prices and
send trade orders, each graphical area
corresponding to a different price level
along the price axis; and
selecting a particular graphical area in the
order entry region through a single action
of a user input device to both set a price
for a trade order and send the trade order
having a default quantity to the electronic
exchange.
Ex. 1001, 12:23–13:16.
ANALYSIS
A. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the
level of ordinary skill in the art,5 5 we find that the
level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261
F.3d 1350, 1355 (Fed. Cir. 2001); In re GPAC Inc., 57

The parties’ submissions focus primarily on the degrees,
occupations, and experience, as opposed to what the
hypothetical person of ordinary skill in the art would have
known at the time of the invention. As such, and as the triers of
fact, based on the record before us, we do not find such
information particularly helpful.
5

147a
F.3d 1573, 1579 (Fed. Cir. 1995); In re Oelrich, 579
F.2d 86, 91 (CCPA 1978).
B. Claim Construction
In a covered business method patent review,
claim terms are given their broadest reasonable
interpretation in light of the specification in which
they appear and the understanding of others skilled
in the relevant art. See 37 C.F.R. § 42.300(b); see
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144 (2016) (concluding the broadest reasonable
construction “regulation represents a reasonable
exercise of the rulemaking authority that Congress
delegated to the Patent Office”).
Applying that standard, we interpret the claim
terms of the ’411 patent according to their ordinary
and customary meaning in the context of the
patent’s written description. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any
special definitions for claim terms must be set forth
with reasonable clarity, deliberateness, and
precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed.
Cir. 1994). Petitioner and Patent Owner propose
constructions for several claim limitations. Pet. 13–
14; PO Resp. 26–28; Pet. Reply 9. For purposes of
this Decision, we determine that no particular term
requires explicit construction.

148a
C. Covered Business Method Patent
Section 18 of the AIA6 provides for the creation of
a transitional program for reviewing covered
business method patents. A “covered business
method patent” is a patent that “claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial
product or service, except that the term does not
include patents for technological inventions.” AIA §
18(d)(1); see 37 C.F.R. § 42.301(a). A patent need
have only one claim directed to a covered business
method to be eligible for review. See Transitional
Program for Covered Business Method Patents—
Definitions of Covered Business Method Patent and
Technological Invention, 77 Fed. Reg. 48,734, 48,736
(Aug. 14, 2012) (“CBM Rules”) (Response to
Comment 8).
In its Petition, Petitioner contends that “while a
patent needs only one claim directed to a CBM to be
eligible for CBM review, all the claims qualify,” and
particularly cites claims 1, 7, 8, and 10. Pet. 4.
1. Data Processing or Other Operations used
in a Financial Product or Service
Petitioner asserts that claim 1 is directed to a
covered business method because it recites activities

6 Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284, 329 (2011) (“AIA”).

149a
that are financial in nature, including displaying
market information and sending a trade order. Id.
Based on this record, we agree with Petitioner that
at least the subject matter recited by claim 1 is
directed to activities that are financial in nature,
namely displaying market information, including
indicators of asks and bids in the market, setting
trade order parameters, and sending a trade order to
an electronic exchange.
Patent Owner does not dispute that the claims
are directed to a method used in the practice,
administration, or management of a financial
product or service and, instead, contends that the
claims are not directed to “data processing” or “other
operations” of the financial product or service. See
PO Resp. 22. First, Patent Owner argues that “data
processing” should be interpreted according to the
definition of “data processing” found in the glossary
for class 705 of the United States Patent
Classification System, which is “[a] systematic
operation on data in accordance with a set of rules
which results in a significant change in the data.” Id.
at 22–23 (quoting Ex. 2121, 4). Patent Owner argues
that the claims of the ’411 patent are not directed to
data processing under this definition because the
claims are concerned with displaying information in
a specific manner and not concerned with processing
the information that is displayed. PO Resp. 22– 23.
According to Patent Owner, “the claimed invention is
agnostic to what specific algorithm is used for
processing or mapping the data.” Id. at 23 (citing Ex.
1001, 4:64–5:4).

150a
Patent Owner’s contentions are unpersuasive.
Patent Owner does not sufficiently explain why the
definition of “data processing” found in the glossary
for class 705 of the United States Patent
Classification System is controlling, as opposed to
the plain meaning of “data processing.” See Pet.
Reply 31. In any event, claim 1 encompasses
processing financial data associated with a
commodity for displaying and processing financial
data for sending a trade order for a commodity to an
exchange. The ’411 patent explicitly discloses that
market information that is received from an
electronic exchange is processed to map it to the
screen. See Ex. 1001, 4:64–5:1 (“The present
invention processes this information and maps it . . .
to a screen.”); 11:36–38 (“referring to [t]he process
for placing trade orders using the Mercury display”).
This processing of financial data is used in the
practice, administration, or management of a
commodity, which is a financial product, and in the
practice, administration, or management of
electronic trading with an exchange, which is a
financial service or activity.
Even if there is some disagreement as to whether
claim 1 includes “data processing,” there appears to
be no disagreement that the steps of claim 1
(displaying market information, setting trade order
parameters, and sending a trade order to the
electronic exchange) are operations used in the
practice, administration, or management of a
commodity or trading a commodity on an electronic
exchange. See PO Resp. 22–23 (discussing only

151a
whether the ’411 patent claims “data processing”).
The ’411 patent, thus, at least claims “other
operations used in the practice, administration, or
management of a financial product or service” (AIA §
18(d)(1)).
For the reasons stated above, and based on the
particular facts of this proceeding, we conclude that
the ’411 patent “claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service” and
meets that requirement of § 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
To determine whether a patent is for a
technological invention, we consider “whether the
claimed subject matter as a whole recites [(1)] a
technological feature that is novel and unobvious
over the prior art; and [(2)] solves a technical
problem using a technical solution.” 37 C.F.R. §
42.301(b). Both prongs must be satisfied in order for
the patent to be excluded as a technological
invention. See Versata dev. Grp., Inc. v. SAP Am.,
Inc., 793 F.3d 1306, 1326–27 (Fed. Cir. 2015), Apple
Inc. v. Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir.
2016) (not addressing arguments regarding whether
the first prong was met when it was determine that
the second prong—that the claimed subject matter
as a whole does not solve a technical problem using a
technical solution—was met).

152a
The following claim drafting techniques, for
example, typically do not render a patent a
“technological invention”:
(a) Mere recitation of known technologies,
such as computer hardware, communication
or computer networks, software, memory,
computer-readable storage medium, scanners,
display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012).
With respect to the first prong, Petitioner
contends that rather than reciting a technical
feature that is novel or unobvious over the prior art,
the claims of the ’411 patent generally recite trading
software that is implemented on a conventional
computer. Pet. 5–7. Patent Owner focuses on
whether the claims “solve[] a technical problem
using a technical solution.” PO Resp. 23–26. When
addressing “whether the claimed subject matter as a
whole recites a technological feature that is novel

153a
and unobvious over the prior art,” Patent Owner
simply alleges that “Petitioners fail to address
whether the claims recite a technical feature that is
novel and unobvious.” PO Resp. 23. That is incorrect.
That was specifically noted in our Institution
Decision. Inst. Dec. 14–15.
We are persuaded by Petitioner’s contentions
that at least claim 1 of the ’411 patent does not recite
a novel and non-obvious technological feature. The
specification of the ’411 patent treats as well-known
all potentially technological aspects of the claims.
For example, the ’411 patent discloses that its
system can be implemented “on any existing or
future terminal or device” (Ex. 1001, 4:8–11), each of
which is known to include a display, and discloses
that the input device can be a mouse (id. at 4:12–15),
which is a known input device. The ’411 patent
further discloses that “[t]he scope of the present
invention is not limited by the type of terminal or
device used.” Id. at 4:11–12. The ’411 patent also
explains that the programming associated with the
GUI is insignificant. See, e.g., Ex. 1001, 4:63–5:4
(explaining that the “present invention processes
[price, order, and fill] information and maps it
through simple algorithms and mapping tables to
positions in a theoretical grid program” and “[t]he
physical mapping of such information to a screen
grid can be done by any technique known to those
skilled in the art”). That at least claim 1 of the ’411
patent does not recite a novel and non-obvious
technological feature is further illustrated below in
our discussion of that claim being unpatentable

154a
under § 103. Accordingly, we are persuaded that at
least claim 1 does not recite a technological feature
that is novel and unobvious over the prior art.
With respect to the second prong, Petitioner
contends that the claims of the ’411 patent do not
fall within § 18(d)(1)’s exclusion for “technological
inventions” because the ’411 patent does not solve a
technical problem using a technical solution. Pet. 7–
9. Petitioner notes that “[a]ccording to the ’411
patent, the ‘problem’ with prior art trading GUIs
was that the market price could change before a
trader entered a desired order, causing the trader to
‘miss his price.’” Id. at 8 (citing Ex. 1001, 2:59– 67).
Petitioner contends that “the ’411 patent’s solution is
not technical” because it simply “rearrange[d] how
known and available market data is displayed on a
GUI.” Id.
Patent Owner argues that the ’411 patent solves
a technical problem using a technical solution.
According to Patent Owner, the ’411 patent solves
the problem of “the price value associated with the
order entry location being selected changes, which
results in placing an order at an unintended price—a
data-entry problem.” PO Resp. 24 (citing Ex. 1001,
2:60–67; Ex. 2180, 6).
The ’411 patent describes the problem it solves as
follows:
[A]pproximately 80% [of the total time
it takes to place an order] is attributable to
the time required for the trader to read the

155a
prices displayed and to enter a trade order.
The present invention provides a significant
advantage during the slowest portion of the
trading cycle—while the trader manually
enters his order. . . .
In existing systems, multiple elements
of an order must be entered prior to an order
being sent to market, which is time
consuming for the trader. Such elements
include the commodity symbol, the desired
price, the quantity and whether a buy or a
sell order is desired. The more time a trader
takes entering an order, the more likely the
price on which he wanted to bid or offer will
change or not be available in the market. . . .
In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading
screen, this results in rapid changes in the
price and quantity fields within the market
grid. If a trader intends to enter an order at a
particular price, but misses the price because
the market prices moved before he could
enter the order, he may lose hundreds,
thousands, even millions of dollars. The faster
a trader can trade, the less likely it will be
that he will miss his price and the more likely
he will make money.
Ex. 1001, 2:39–67 (emphasis added). “The inventors
have developed the present invention which
overcomes the drawbacks of the existing trading
systems and dramatically reduces the time it takes

156a
for a trader to place a trade when electronically
trading on an exchange.” Id. at 3:3–7.
As can be seen from the above, the problem
disclosed in the ’411 patent is the time it takes for a
trader to manually enter trader orders on a market
or exchange that is rapidly changing, so as to make a
profit. This is a financial issue or a business
problem, not a technical problem. If the market or
exchange did not rapidly change, then there would
be no need for a trader to enter orders rapidly. We,
thus, are persuaded by Petitioner that the ’411
patent does not solve a technical problem with a
technical solution.
Patent Owner’s argument that the patent is
directed to a data-entry problem is misplaced.
Column 2, lines 60–67 of the ’411 patent, upon which
Patent Owner relies, does not disclose a problem of
placing an order at an unintended price because a
price value associated with an order entry location
changes as it is selected. As can be seen from the
quoted portions of the ’411 patent above, column 2,
lines 60–67 discloses that the time it takes for a
trader to manually enter trader orders on a market
or exchange that is rapidly changing is a problem
because it could cause the trader to miss its intended
price. See Ex. 1001, 2:39–67. Further, Patent
Owner’s reliance on Exhibit 2180 is misplaced.
Exhibit 2180 is the district court’s order addressing
claimed subject matter of U.S. Patent No. 6,772,132
and U.S. Patent No. 6,766,304. The decision relied
upon a feature not required by claim 1 of the ’411
patent— a static price axis. Ex. 2180, 7 (“the

157a
invention keeps the prices static in position”).
Although claim 1 of the ’411 patent requires a price
axis, it does not require the price axis to be static.
See Ex. 1001, 12:23–13:16. Claim 1 does not preclude
the price axis from changing as the market
information updates or preclude a price value
associated with the order entry location to change as
it is selected. We, thus, are not persuaded by Patent
Owner that the ’411 patent solves a technical
problem using a technical solution.
We are persuaded by Petitioner that at least
claim 1 does not recite a technological feature that is
novel and unobvious over the prior art and does not
solve a technical problem using a technical solution.
Accordingly, we determine that at least one of the
claims of the ’411 patent recites subject matter that
is not a technological invention.
3. Conclusion
In view of the foregoing, we conclude that the
’411 patent is a covered business method patent
under AIA § 18(d)(1) and is eligible for review using
the transitional covered business method patent
program.
D. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–28 as directed to
patent-ineligible subject matter under 35 U.S.C. §
101. Pet. 14–25. Patent Owner disagrees. PO Resp.
5–22.

158a
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that
claims 26–28, which are directed to a “computer
readable medium,” are “broad enough to encompass
a transitory, propagating signal that is encoded,
which is not eligible for patenting.” Pet. 17 (citing In
re Nuijten, 550 F.3d 1346, 1357 (Fed. Cir. 2007));
Pet. Reply 8–9. Petitioner contends that “[u]nder the
broadest reasonable interpretation (‘BRI’), the scope
of this term is broad enough to encompass a
transitory, propagating signal that is encoded.” Pet.
17. Petitioner explains that the specification neither
defines this term nor provides examples. Id. In our
Institution
Decision,
we
made
an
initial
determination that the broadest reasonable
interpretation of the “computer readable medium”
recited in claims 26–28 is “any medium that
participates in providing instruction to a processor
for execution and having program code recorded
thereon.” Inst. Dec. 11. Patent Owner responds that
there is no evidence to support Petitioner’s
contention that one skilled in the art would have
understood “computer readable medium having

159a
program code recorded thereon”7 to encompass a
signal at the time of the invention. PO Resp. 21.
Petitioner
responds
to
Patent
Owner’s
contentions by simply asserting that “TT’s narrow
construction of computer readable medium isn’t
based on the specification since that term is not
used therein,” and concluding that “the [Board]
should apply the same BRI of computer readable
medium that PTO has applied in thousands of
matters.” Pet. Reply 8–9 (citing MPEP § 2106).
Petitioner’s response is unhelpful. For example,
in its Reply, Petitioner cites no evidence to rebut
Patent Owner’s contentions regarding how one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon,” at the time of the invention. In fact,
Petitioner does not even acknowledge those
contentions.
Accordingly, on this record, which is absent any
further evidence or meaningful argument from
Petitioner, we are not persuaded that at the time of
the invention one skilled in the art would have
understood
claims
26–28
as
encompassing
transitory, propagating signals.

7 The actual language recited in the claims is “computer
readable medium having stored therein instructions for
execution by a computer.” Ex. 1001, 14:47–49.

160a
There is no dispute that the remaining claims fit
within one of the four statutorily provided categories
of patent-eligibility. Claim 1, for example, is directed
to a process.
1. Claim Language
“The § 101 inquiry must focus on the language of
the Asserted Claims themselves.” Synopsys, Inc. v.
Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed.
Cir. 2016); see also Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed.
Cir. 2013) (admonishing that “the important inquiry
for a § 101 analysis is to look to the claim”); Content
Extraction & Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir.
2014) (“We focus here on whether the claims of the
asserted patents fall within the excluded category of
abstract ideas.”).
Patent Owner’s argument regarding the
eligibility of claim 1 implies that the claim requires
the price axis to be static or that the values of the
price axis do not change position. For example,
Patent Owner argues that the problem with the
conventional Fig. 2 GUI is that values in the price
column change just before a trader clicks on it and,
thus, the trader may enter an order at an
unintended price. See PO Resp. 1–5.
Patent Owner’s arguments are not commensurate
with the scope of claim 1 and, thus, are
unpersuasive. Although claim 1 of the ’411 patent
requires a price axis, it does not require the price

161a
axis to be static. See Ex. 1001, 12:23–13:16. It does
not preclude the values of the price axis from
changing as the market information updates. In
other words, claim 1 allows for a price value
associated with the order entry location to change as
market information updates and change at the time
a trader is selecting a corresponding order entry
location. The invention, as claimed, does not solve
the problem asserted by Patent Owner.
Patent Owner argues that “[t]he ’411 claims are
patent eligible because, while different in scope, for
purposes
of
patent
eligibility
they
are
indistinguishable from the ’132 and ’304 claims” and
urges us to determine that the claims of the ’411
patent are eligible because the Federal Circuit
determined that the claims of the ’304 patent and
the ’132 patent were eligible in Trading
Technologies. PO Br. 2–3. We are not persuaded that
the claims of the ’411 patent are indistinguishable
for the purposes of patent eligibility. The claims of
the ’304 patent and the ’132 patent require that the
price axis be static. See Ex. 2180, 2 (reproducing
claim 1 of both the ’304 patent and the ’132 patent).
The claims of the ’411 patent do not. In Trading
Technologies, the Federal Circuit relied upon the
reason articulated by the district court when
determining that the claims of the ’304 patent and
the ’132 patent were not directed to an abstract idea
and noted that the claims required a static price
index in determining that the claims of the ’304
patent and the ’132 patent recited an inventive
concept. Trading Techs., 2017 WL 192716 at *3.

162a
Likewise, the district court decision mentioned the
static price axis when finding the claims are not
directed to an abstract idea. Ex. 2180, 6 (“the
invention keeps the prices static in position”). In
Trading Technologies, the Federal Circuit implied
that the claims of the ’304 patent and the ’132 patent
were on the line between patent eligibility and
ineligibility. See id. at *4 (noting the “close
question[] of eligibility”). We, thus, are not
persuaded that claims of the ’411 patent are eligible
merely because the Federal Circuit determined that
the claims of the ’304 patent and ’132 patent are
patent eligible.
2. Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and
requirements of this title.
There are, however, three judicially created
exceptions to the broad categories of patent-eligible
subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice Corp. Pty. Ltd.
v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
132 S. Ct. 1289, 1293 (2012). Although an abstract
idea, itself, is patent-ineligible, an application of the

163a
abstract idea may be patent-eligible. Alice, 134 S. Ct.
at 2355. Thus, we must consider “the elements of
each claim both individually and ‘as an ordered
combination’ to determine whether the additional
elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. (citing Mayo, 132 S.
Ct. at 1297–98). The claim must contain elements or
a combination of elements that are “sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
3. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over
the prior art’ to determine if the claim’s ‘character as
a whole’ is directed to excluded subject matter.”
Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016) (quoting Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016); see also Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016).
According to Petitioner, the claims are directed to
the abstract idea of “placing an order based on
observed (plotted) market information, as well as
updating market information.” Pet. 16. Petitioner
contends that “claim 1 could be performed in the
human mind or with the aid of pen-and-paper with
little difficulty because the claim requires plotting
only a few data points” (id. at 17) and that the
claims are directed to commodity trading which is “a
fundamental economic practice long prevalent in our

164a
system of commerce.” Pet. Reply 5–6 (citing Alice,
134 S. Ct. at 2356). Patent Owner disagrees. See PO
Resp. 5–15.
Claim 1 of the ’411 patent recites “a method of
displaying market information relating to and
facilitating trading of a commodity being traded on
an electronic exchange.” Ex. 1001, 12:24–25. Claim 1
recites steps of displaying market information, bid
and ask quantities, in regions along a price axis. Id.
at 12:40–47, 56–64. The market information is an
indicator of an order to buy at the highest bid price
and an indicator of an order to sell at the lowest ask
price. Id. In other words, the displayed market
information is the inside market. Claim 1 then
recites a step of moving the market information
along the price axis as the market changes. Id. at
12:48–56, 12:65–13:6. Claim 1 finally recites a step
of displaying an order entry region and a step of
setting parameters for a trade order and a step of
sending a trade order to an exchange. Id. at 13:7–16.
As can be seen from its steps, the focus of claim 1
is placing trade orders based on displayed market
information, as well as updating the market
information. This focus is consistent with the ’411
patent’s statement that “[t]he present invention is
directed to the electronic trading of commodities. . . .
It facilitates the display of and the rapid placement
of trade orders.” Id. at 1:21–27. The focus of claim 1
is also consistent with the problem disclosed by the
’411 patent, which is a trader missing an intended
price because the market changed during the time

165a
required for a trader to read the prices displayed and
to manually enter an order. Id. at 2:42–67.
Claim 1 does not recite any limitation that
specifies how the computer implements the steps or
functions for using a GUI. For example, claim 1
recites displaying an arrangement of the market
information on the GUI. The bid quantities are
displayed in the bid region at locations that
correspond to prices along a price axis and ask
quantities are displayed in an ask region at locations
that correspond to prices along the price axis. Id. at
12:40–47, 56–64. Claim 1 does not specify how the
computer maps the bid quantities, ask quantities,
and price axis to the display. The ’411 patent also
does not disclose an unconventional or improved
method of mapping the bid quantities, ask
quantities, and price axis to the display. It states
that “[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art” and that “[t]he present
invention is not limited by the method used to map
the data to the screen.” Id. at 5:1– 4.
The ’411 patent discloses that at least 60
exchanges throughout the world utilize electronic
trading and discloses that it is known that electronic
trading includes analyzing displayed market
information and updated market information to send
trade orders to an exchange. See id. at 1:31–2:67.
Similarly, Patent Owner’s declarant, Mr. Thomas,
indicates that traders in prior trading systems,
including pre-electronic open outcry systems, which
have been used for over one hundred years, send

166a
trade orders to an exchange based on price, such as
the inside market prices or other prices. Ex. 2169 ¶¶
34, 60, and 61. Mr. Thomas testifies that
[i]n the trading pit, traders utilize shouting
and hand signals to transfer information
about buy and sell orders to other traders. To
avoid confusion, the inside market prices
were the focus, and traders could only shout
and signal regarding their interest at the best
bid/offer or at a price that improves the best
bid/offer.
Ex. 2169 ¶ 34. The ’411 patent discloses that
electronic exchanges are known to provide the
market depth for display that is the inside market
and a few orders away from the inside market. Ex.
1001, 5:5–11. Further, Exhibit 1026 discloses that
long before the ’411 patent, traders maintained
books that plotted bids and asks (e.g., the market
depth) along a price axis. See Ex. 1026, 44–46.
Figure 4-2 of Exhibit 1026 is reproduced below.

167a

Figure 4-2 depicts a page of a book of a trader. Id.
at 44–45. Orders to buy or sell a commodity are
plotted along a prices axis. For example, Figure 4-2
shows the best bid at 22¼ and the best ask at 22Ɏ.
Id. at 44.
Given this, we determine that placing an order
based on displayed market information, such as the
inside market and few other orders, as well as
updating the market information is a fundamental
economic and conventional business practice. We are
persuaded by Petitioner that the method of claim 1
could be performed in the human mind or with the
aid of pen-and-paper with little difficulty because the
claim requires plotting only a few data points. See
Pet. 17 (citing Ex. 1026, 44–46; Ex. 1019 ¶¶ 73–74).

168a
The claims at issue here are like the claims at
issue in Affinity Labs. In Affinity Labs, the claim at
issue recited an application that enabled a cellular
telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the
cellular telephone was enabled to transmit a request
for the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the
claims at issue in Ameranth. In Ameranth, the claim
at issue recited a GUI that displayed menu items in
a specific arrangement, a hierarchical tree format.
Menu items were selected to generate a second menu
from a first menu. Ameranth, 842 F.3d at 1234. In
both Affinity Labs and Ameranth, the court
determined that the claims were not directed to a
particular way of programming or designing the
software, but instead merely claim the resulting
systems. The court thus determined that the claims
were not directed to a specific improvement in the
way computers operate. Affinity Labs, 838 F.3d at
1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not
directed to specific improvements in the way the
computers operate.
Though lengthy and numerous, the claims
[that] do not go beyond requiring the
collection, analysis, and display of available
information in a particular field, stating those
functions in general terms, without limiting
them to technical means for performing the

169a
functions that are arguably an advance over
conventional
computer
and
network
technology [are patent ineligible].
Elec. Power Grp., 830 F.3d at 1351. “Generally, a
claim that merely describes an ‘effect or result
dissociated from any method by which [it] is
accomplished’ is not directed to patent-eligible
subject matter.” Ameranth, 842 F.3d at 1244
(quoting Internet Patents Corp. v. Active Network,
Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015)).
Claim 1 of the ’411 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR
Holdings, the court determined that the claims did
not embody a fundamental economic principle or a
longstanding commercial practice. The claims at
issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a
problem “particular to the Internet.” DDR Holdings,
773 F.3d at 1257. The court also determined that the
invention was “necessarily rooted in computer
technology in order to overcome a problem
specifically arising in the realm of computer
networks” and that the claimed invention did not
simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue
was directed to a data storage and retrieval system
for a computer memory. Enfish, 822 F.3d at 1336–
37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business

170a
practices. Id. at 1338. Here, in contrast, claim 1 is
directed to a fundamental economic principle or a
longstanding commercial practice and not directed to
an improvement in the computer, but simply to the
use of the GUI in a method of placing an order based
on displayed market information, as well as
updating market information.
Patent Owner argues that the GUI disclosed in
the ’411 patent solves an alleged problem of the Fig.
2 GUI, displaying the inside market at a fixed
location, while the displayed prices change as the
market changes. See PO Resp. 8–9. If a trader was
focused on trading at a particular price, the trader
could miss its intended price using the Fig. 2 GUI
because the price could change as the trader clicked
it. Id. at 2. Patent Owner contends that the ’411
patent solves this problem “by combining a dynamic
display of bid and ask indicators that move relative
to a price axis.” Id. at 4. The problem of a price
changing just as a trader clicks on the price is not
disclosed in the ’411 patent. Patent Owner’s
argument is unpersuasive because it is not
commensurate with the scope of the claim. Claim 1
does not require the price axis to be static. See Ex.
1001, 12:23–13:16. It does not preclude the values of
the price axis from changing as the market
information updates. In other words, the claims
allow for a price value associated with the order
entry location to change as market information
updates and change at the time a trader is selecting
a corresponding order entry location. The claimed

171a
subject matter does not solve the problem alleged by
the Patent Owner.
Further, claim 1 of the ’411 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d. 1299 (Fed. Cir. 2016).
In McRO, the court held that claims that recited “a
specific asserted improvement in computer
animation” were not directed to an unpatentable
abstract idea because they go “beyond merely
organizing existing information into a new form or
carrying out a fundamental economic practice.”
McRO, 837 F.3d at 1314–15 (citation and brackets in
original omitted). Here, the claims merely organize
existing market information so that it is displayed or
plotted along a price axis. Plotting bids and asks
along a price axis is not a specific improvement to a
functioning of a computer. See Ex. 1026, 44–46.
4. Inventive Concept
To be patent eligible, a claim directed to an
abstract idea must recite additional elements that
constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Id. at (quoting Mayo, 132 S. Ct.
at 1297–98). The additional elements must be more
than
“well-understood,
routine,
conventional,
activity.” Mayo, 132 S. Ct. at 1298.

172a
Petitioner contends that claim 1 does not recite
an inventive concept. Pet. 18–24; Pet. Reply 6–8.
Patent Owner disagrees. PO Resp. 16–20.
First, claim 1 of the ’411 patent recites “a method
of displaying market information relating to and
facilitating trading of a commodity being traded on
an electronic exchange.” Ex. 1001, 12:23–25. The
’411 patent discloses that its system can be
implemented “on any existing or future terminal or
device” (id. at 4:8–12), which are known to include
displays, and discloses that the input device can be a
mouse (id. at 4:13–19), which is a known input
device. A mere recitation of a GUI does not make the
claim patent eligible. See Affinity Labs, 838 F.3d at
1257–58; Ameranth, 842 F.3d at 1236–1242; Internet
Patent Corp., 790 F.3d at 1348–1349; Pet. Reply 16–
17. A recitation of a generic GUI merely limits the
use of the abstract idea to a particular technological
environment.8 “[L]imiting the field of use of the
abstract idea to a particular existing technological
environment does not render the claims any less
abstract.” Affinity Labs, 838 F.3d at 1259 (citing
Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at 1294).
Second, claim 1 recites steps of displaying
indicators representing a quantity associated with a

8 The ’411 patent was also the subject of CBM2014-00133.
In CBM2014-00133, Patent Owner stated, “[t]he claimed tool is
implemented graphically merely because of the state of
technology today—it would be possible to implement a
comparable tool mechanically.” Ex. 1028, 28.

173a
highest order to buy the commodity or lowest order
to sell the commodity in a bid display region or ask
display region, respectively and moving the indictors
upon receipt of market information. Ex. 1001, 12:30–
13:6. Locations in the bid or ask display region
correspond to a price level along a price axis. Id.
Essentially, these limitations require plotting the
inside market along a price axis. Plotting
information along an axis is a well-understood,
routine, conventional activity. See Ex. 1026, 44– 46.
The Fig. 2 GUI includes regions for displaying
indicators of bid and ask quantities and regions for
displaying corresponding prices. For example, the
Fig. 2 GUI displays the bid quantity in BidQty
column 202 at locations that correspond to the bid
prices in BidPrc column 203. Ex. 1001, 5:22–27. This
is akin to plotting information BidQty and AskQty
along a price axis. Further, Mr. Thomas testifies
that prior GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being
displayed above the location for the best bid price).”
Ex. 2169 ¶ 60; see also Ex. 1007, 107; Ex. 1004, Fig.
2a (depicting a trading screen having a central order
price column and ask and bid orders in adjacent
corresponding columns). Displaying the best ask
price above a best bid price would be displaying a
common column of price levels. The ’411 patent
states:
[T]he physical mapping of such information to
a screen grid can be done by any technique

174a
known to those skilled in the art. The present
invention is not limited by the method used to
map the data to the screen display.
Ex. 1001, 5:1–4. These steps of claim 1 require
merely a rearrangement of market information that
was known to be displayed in corresponding columns
on a GUI. CyberSource Corp. v. Retail Decisions,
Inc., 654 F.3d 1366, 1370 (Fed. Cir. 2011) (holding
“[t]he mere collection and organization of data”
patent-ineligible).
Third, claim 1 also recites steps of displaying an
order entry region for receiving commands to send
trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with
a single action. Ex. 1001, 13:7–16. Methods that
permit single action entry of an order, which has
preset default parameters, by clicking on a cell in a
display of a GUI are known technology. See PO Resp.
1–4; Ex. 1028, 8. The additional elements must be
more than “well-understood, routine, conventional
activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not
transform the nature of the claim into a patenteligible application. They do not add significantly
more to the abstract idea or fundamental economic
practice. Contrary to Patent Owner’s argument, the
claim simply recites the use of a generic GUI with
routine
and
conventional
functions.
Even
considering all of the elements as an ordered
combination, the combined elements also do not
transform the nature of the claim into a patent-

175a
eligible application. Indeed, as discussed above, the
Fig. 2 GUI disclosed in the ’411 patent includes a
similar combination of elements.
For the reasons discussed above, the claims of the
’411 patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.
E. TSE Challenges
Petitioner challenges claims 1–28 as having been
obvious over TSE, Belden, and Togher.
1. TSE Printed Publication Status
Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a). Pet. 11. In support of its showing
that TSE qualifies as prior art, Petitioner relies on
the November 21, 2005, deposition testimony of
Atsushi Kawashima taken during litigation between
Patent Owner and a third party, eSpeed, Inc. Id.; Ex.
1010.
Whether a document qualifies as a printed
publication under 35 U.S.C. § 102(a) is a question of
law based on underlying findings of fact. In re
Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354
(Fed. Cir. 2014) (citing In re Hall, 781 F.2d 897, 899
(Fed. Cir. 1986)). The Federal Circuit “has
interpreted § 102 broadly, explaining that even
relatively obscure documents qualify as prior art so
long as the public has a means of accessing them.”
Id. (citing Hall, 781 F.2d at 899).

176a
Our leading case on public accessibility is In
re Hall, 781 F.2d 897 (Fed. Cir. 1986). In Hall
we concluded that “a single cataloged thesis
in one university library” constitutes
“sufficient accessibility to those interested in
the art exercising reasonable diligence.” Id. at
900. Thereafter, in Constant v. Advanced
Micro–Devices, Inc., we explained that
“[a]ccessibility goes to the issue of whether
interested members of the relevant public
could obtain the information if they wanted
to.” 848 F.2d 1560, 1569 (Fed. Cir. 1988).
Therefore, “[i]f accessibility is proved, there is
no requirement to show that particular
members of the public actually received the
information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The
determination of whether a document is a “printed
publication” under 35 U.S.C. § 102 involves a caseby-case inquiry into the facts and circumstances
surrounding its disclosure to members of the public.
In re Klopfenstein, 380 F.3d 1345, 1350 (Fed. Cir.
2004).
TSE is entitled “Futures/Option Purchasing
System Trading Terminal Operation Guide” of the
“Tokyo Stock Exchange Operation System Division.”
Ex. 1007, 1.9 In the middle of page 5 is the

9 References to page numbers are as if the pages were
numbered sequentially beginning with the first page of the
English translation of TSE (Ex. 10017).

177a
annotation “August, 1998” above the words “Tokyo
Stock Exchange Operation System Division.” Id. at
5. Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a) because it was published in August
of 1998 by giving two copies to each of the about 200
participants in the Tokyo Stock Exchange, who were
free to do whatever they wanted with their copies of
the publication. Pet. 11 (citing Ex. 1010, 12–33).
In support of its arguments regarding TSE as
prior art, Petitioner directs us to portions of Mr.
Kawashima’s testimony. At the time of his
testimony, Mr. Kawashima testified that he was
employed by the Tokyo Stock Exchange and was so
at the time of the TSE manual, August 1998. Ex.
1010, 5–11. He further testified that TSE “is the
current TSE futures options trading system terminal
document, manual” that was prepared August of
1998 by the Tokyo Stock Exchange and that he was
in charge of preparing the document. Ex. 1010, 10–
11. Mr. Kawashima also testified that the purpose of
the manual was that “in 1998 we replaced the
futures options trading system and so this new
manual was prepared because there were changes to
the way the trading terminals were operating.” Id. at
12. Kawashima further testified that the manual
was distributed to “participants” in August of 1998,
who were “securities companies for banks who are
able to carry out futures options trading at the TSE”
and that the “manual was given to explain those
changes” made with respect to the operation of the
TSE trading system and terminals. Id. at 12, 14. Mr.
Kawashima testified that the manual was given to

178a
around 200 “participant” companies—all companies
that conduct futures option trading on the Tokyo
Stock Exchange. Id. at 13.10 According to Mr.
Kawashima, two copies were distributed to each
company, by having a person from each company
come to the Tokyo Stock Exchange operating system
section to pick up their copies of the manual, and
that there was no restriction on what the
participants could do with the 1998 manual once
they received it. Id. at 14– 15. Mr. Kawashima
personally distributed the TSE manual to some of
the participants. Ex. 2163, 60:13–24.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by
Petitioner’s showing, which we adopt as our own,
that TSE qualifies as prior art under 35 U.S.C. §
102(a). Petitioner asserts, with supporting evidence,
that TSE was distributed to participants in the
Tokyo Stock Exchange. Pet. 11; Ex. 1010, 12, 14.
Based on the evidence before us, the participants
were securities companies for banks. The purpose of
the distribution of the manual was to alert the
securities companies of changes to the way the
trading terminals of the Tokyo Stock Exchange
operated. Ex. 1010, 12, 14. Indeed, TSE is a user
manual that includes, for example, in Chapter 2,
instructions for terminal system configuration to
enable a participant, such as a security company to
10 We understand the then “participants” included such
companies as Goldman Sachs Securities, Merrill Lynch, and
Morgan Stanley. Ex. 2163, 58:5–17; Ex. 2169 ¶ 32.

179a
connect to the Tokyo Stock Exchange. Ex. 1007, 10–
25. Chapter 15, entitled “Response To A Problem,”
provides detailed explanations should a problem
arise with terminal equipment, communication
circuit
difficulties,
central
system
recovery
difficulties, etc., along with in-house procured
terminal problem handling instructions. Id. at 5.
Thus, TSE is more than a user manual for how to
trade on the Tokyo Stock Exchange, but also
includes how to electronically connect to the Tokyo
Stock Exchange.
The evidence that is before us, both
circumstantial and direct, supports a finding that
TSE was made accessible to securities companies
and all of the personnel in such a company, who
would have employed technical support personnel,
such as computer scientists or engineers, who would
have needed a copy of the TSE manual to configure
their own system to electronically communicate, and
to continue to trade securities, with the Tokyo Stock
Exchange.11 Thus, the securities companies would
have included computer scientists or engineers, as
well as traders. We find that all such persons who
worked at the securities companies would have been
interested members of the relevant public.

11 We made a similar finding in our Decision to Institute
(Inst. Dec. 26), thereby putting Patent Owner on notice of such
finding in support of our determination that TSE was
publically accessible. Patent Owner does not address such
finding or provide evidence to rebut our finding in that regard.
Cuozzo, 136 S. Ct. at 2141.

180a
Patent Owner’s Contentions12
Patent Owner argues that the evidence fails to
prove TSE is prior art. PO Resp. 60–67. We begin by
addressing Patent Owner’s assertions that Mr.
Kawashima’s testimony should be given little or no
weight because his testimony is not corroborated and
he is an interested witness. Id. at 65–67. Patent
Owner argues that Kawashima’s employer—the
Tokyo Stock Exchange—challenged Patent Owner’s
Japanese counterpart to U.S. Patent No. 6,766,304
by providing TSE to the Japanese Patent Office. Id.
at 66. Patent Owner further argues that the Tokyo
Stock Exchange wanted the Japanese Patent Office
to rely on “these documents” to prevent Patent
Owner from obtaining the Japanese patent. Id.
(citing Ex. 2163, 39:23– 40:20, 42:14–43:10; Ex.
1010, 110:10–14). Patent Owner concludes that
because Kawashima’s employer tried to use TSE to
prevent Patent Owner from obtaining the 6,766,304
patent, Kawashima is not disinterested. Id.
We are not persuaded that Kawashima is an
interested witness and that his testimony should be
given little weight. First, the patent involved here is
not the same as the patent involved before the
Japanese Patent Office and we do not understand
what Patent Owner means by “these documents.” In
any event, Patent Owner has not shown that what

12
Patent Owner makes unpersuasive evidentiary
arguments as well, which we address in connection with Patent
Owner’s Motion to Exclude TSE, infra.

181a
occurred in a proceeding before the Japanese Patent
Office involving a different patent is relevant to the
facts of this proceeding. Patent Owner has not
shown sufficiently that Mr. Kawashima had an
interest, himself, regarding the outcome of the
Japanese Patent Office proceeding. Even assuming
that the Tokyo Stock Exchange had an interest in
that earlier proceeding, it does not follow necessarily
that Mr. Kawashima himself had an interest in it as
well. We have considered the evidence to which we
are directed, but do not find that evidence (passages
from Mr. Kawashima’s original and crossexamination) to support Patent Owner’s assertions
that Mr. Kawashima is biased. Indeed, when asked
if the Tokyo Stock Exchange preferred that vendors
like Trading Technologies not have patents on
trading screens, Mr. Kawashima testified, that that
was “not something I would know.” Ex. 2163, 41:6–
12. Lastly, Patent Owner has not demonstrated
sufficiently that Mr. Kawashima’s meetings with
Petitioner’s attorneys prior to his cross-examination
is demonstrative of “bias.” PO Resp. 66–67. Patent
Owner has not shown why Mr. Kawashima’s
meeting with Petitioner’s counsel prior to his
deposition would make him biased. For these
reasons, we are not persuaded that Mr. Kawashima
is an interested witness.
We also are not persuaded by Patent Owner’s
argument that because Mr. Kawashima’s testimony
is uncorroborated we should give it little weight. PO
Resp. 65–66. In support of the argument, Patent
Owner cites to cases regarding an interested witness.

182a
See, e.g., id. at 65. As explained above, Patent Owner
has not shown sufficiently that Mr. Kawashima is an
interested witness. The other arguments made, e.g.,
that there is no evidence of when the manuals were
picked up or by whom or what a person did with the
document once they received it, are factors to
consider when determining whether a document was
publically accessible, which we address below.
For all of these reasons, we credit the testimony
of Mr. Kawashima. We find that the facts discussed
above regarding Mr. Kawashima’s testimony (Ex.
1010) are supported by a preponderance of the
evidence and are undisputed.13 Although Mr.
Kawashima was cross-examined during this
proceeding, Patent Owner does not direct attention
to portions of his cross-examination testimony, or
any other evidence, that would outweigh Mr.
Kawashima’s original testimony (Ex. 1010)
regarding what the TSE manual was, why it was
distributed, how it was distributed, when it was
distributed, and to whom it was distributed.
Patent Owner argues that Petitioner has not
established that TSE was publically available. PO
Resp. 61–64. In particular, Patent Owner argues

The burden of showing something by a preponderance of
the evidence simply requires the trier of fact to believe that the
existence of a fact is more probable than its nonexistence.
Concrete Pipe & Products of California, Inc. v. Construction
Laborers Pension Trust for Southern California, 508 U.S. 602,
622 (1993).
13

183a
that there is no evidence that anyone actually
received a copy of TSE or whether the receivers of
such document were persons of ordinary skill in the
art. Id. (quoting Blue Calypso, LLC v. Groupon, Inc.,
815 F.3d 1331, 1348 (Fed. Cir. 2016) (a reference will
be considered publicly accessible if it was
“disseminated or otherwise made available to the
extent that persons interested and ordinarily skilled
in the subject matter or art exercising reasonable
diligence, can locate it.” (citation omitted))).
Patent Owner’s argument that there is no
evidence that anyone actually received a copy of TSE
is misplaced. The proponent of a document need not
show that particular members of the interested
public actually received the information. See, e.g.,
Enhanced Sec. Research, LLC, 739 F.3d at 1354;
Constant v. Advanced Micro-Devices, Inc., 848 F.2d
1560, 1569 (Fed. Cir. 1988); Blue Calypso, 815 F.3d
at 1348. Rather, accessibility goes to the issue of
whether persons interested and ordinarily skilled in
the subject matter could obtain the information if
they wanted to. Id. Here, we have before us
persuasive evidence that TSE was made publically
accessible by providing two copies to each of the
about 200 participants (securities companies for
banks) in the Tokyo Stock Exchange, who were free
to do whatever they wanted with their copies of the
publication. Ex. 1010, 12, 14. For these same
reasons, we are not persuaded by Patent Owner’s
implicit argument that Petitioner need show that the
two copies of the TSE manual available for pick up
by the 200 participant companies actually were

184a
picked up. In any event, Mr. Kawashima testified
that he personally distributed the TSE manual to
some of the participants. Ex. 2163, 60:13–24.
Patent Owner argues that the participants
(securities companies for banks) who allegedly
received copies of the TSE manual are not persons of
ordinary skill in the art, which Patent Owner
submits would be GUI designers, and not traders at
a stock exchange. PO Resp. 62–63. We are not
persuaded by Patent Owner’s argument.
The patent before us is a business method patent,
the subject matter of which is represented by both
the business and technical sides of the spectrum.
Here, where the patent is directed to trading
commodities on an exchange using a computer, we
must consider all interested members of the public,
which would include not only technical personnel,
but traders as well. Traders of commodities at
securities companies for banks would be interested
members of the public.
In any event, there is sufficient evidence for us to
find that the securities companies for banks also
would have employed technical personnel as well,
and even a “GUI designer.” As explained above, the
purpose of the TSE manual was to alert the
securities companies of changes to the way the
trading terminals of the Tokyo Stock Exchange
operated. Ex. 1010, 12, 14. The TSE manual includes
information and instructions of how to electronically
connect to the Tokyo Stock Exchange. TSE is not
simply a “how to trade commodities” user manual as

185a
Patent Owner seems to suggest. The strong
circumstantial evidence supports finding that TSE
was made accessible to securities companies who
would have employed technical support personnel,
such as computer scientists or engineers, to
configure
their
system
to
electronically
communicate, and to continue to trade securities,
with the Tokyo Stock Exchange, based on the
changes in operation of the terminals explained in
the TSE manual. Thus, the securities companies
would have included computer scientists or
engineers, as well as traders. Lastly, even assuming
that a person of ordinary skill in the art is narrowly
limited to a “GUI designer” as Patent Owner asserts,
we find that securities companies for banks
(“participants”) provided their own front-end order
entry software, and that such participants would
have employed GUI designers to formulate the frontend order entry software to facilitate trading on the
Tokyo Stock Exchange. Ex. 2169 ¶ 32.
Patent Owner argues that because participants of
the Tokyo Stock Exchange were contractually
prohibited from modifying the terminals or software,
there was no reason to provide the manual to GUI
designers. PO Resp. 62–63. Patent Owner has not
shown sufficiently that such a contractual provision
would have prevented persons interested or even
ordinarily skilled in the subject matter from
receiving copies of TSE. For all of the above reasons,
we are persuaded that TSE was publically
accessible.

186a
Patent Owner additionally argues that there is
no evidence that a person having ordinary skill in
the art could have located TSE using “reasonable
diligence,” because there is no evidence that such a
person searching for TSE would find it, such as
being placed in a library, indexed, or catalogued, or
directions to locate TSE. PO Resp. 63–64. We
determine above, that the record evidence supports a
determination that TSE was publically accessible to
persons interested and ordinarily skilled in the
subject matter. Patent Owner’s arguments are
premised on the notion that none of the personnel at
the securities banks are interested and ordinarily
skilled in the subject matter, which we reject. Thus,
Patent Owner’s argument is unpersuasive.
For all of the above reasons, we determine that
TSE qualifies as prior art.
2. TSE, Belden, and Togher
a. Claims 1 and 26
With respect to claims 1 and 26, Petitioner cites
TSE as teaching the majority of limitations of the
claims. Pet. 64–69. Petitioner cites Belden for the
“single action” limitation in the claims, including the
“setting” and “sending” via the “single action,” and
cites Togher as teaching an order being for a “default
quantity.” Id. at 69–73. Petitioner proposes
modifying TSE based on the teachings of Belden and
Togher. Id. at 62–64.

187a
TSE describes a trading system that facilitates
trading with an electronic exchange by receiving bid
and offer information, displaying it to a user, and
accepting and sending bid and offer orders. Ex. 1007,
6–13, 35. A trading terminal displays a GUI for
depicting market information on a Board Screen,
which is shown in the figure reproduced below
(“TSE’s Board Screen”).

The figure reproduced above is illustrated on page
107 of TSE and depicts TSE’s Board Screen. The
Board Screen includes a central order price at
column 11—a price display. Id. at 111. The Board
Screen can be placed in a “Scrolling Screen” mode
where “the price display positions do not change
automatically.” Id. at 115. TSE describes a number

188a
of ways to scroll the Board Screen to vertically scroll,
including using the up/down scroll buttons, vertically
moving the cursor, and pressing the up or down key
on the keyboard. Id. at 116. To the left and right of
order price column 11, at a location corresponding to
price, are bid and offer indicators consisting of
numbers representing the quantity of orders in
respective columns 12, 13, and 14. Id. at 112. The
Board Screen is automatically updated with new bid
and offer information from a central system every
three seconds. Id. at 91. TSE explains that “[t]he
board information on each Board Screen is
automatically updated even if it has been scrolled
vertically.” Id. TSE describes a user entering an
order by double-clicking at a location along the price
axis, which automatically displays a pop-up window
displaying the selected price. Id. at 134, 137.
Clicking a send button sends an order to the
exchange. Id. at 143.
“receiving . . . market information”
Claims 1 and 26 each recite “receiving . . . market
information for a commodity . . . comprising an
inside market with a current highest bid price and a
current lowest ask price.” Petitioner contends that
TSE teaches this limitation. Pet. 65–66 (citing Ex.
1007, 35, 91, 107; Ex. 1019 ¶¶ 161–162). Petitioner
references “Román’s FIG. D” when explaining its
contentions relative to TSE. Id. at 66. We agree with
and adopt Petitioner’s contentions, which are not
disputed by Patent Owner.

189a
TSE explains, for example, that its system
“handles . . . trades in . . . 5 markets” including
“Bond Futures Market,” “Index Futures Market,”
and “Stock Option Market.” Ex. 1007, 35. Román’s
FIG. D, reproduced below, illustrates the market
information received and displayed in TSE.

Román’s FIG. D is an annotated version of the figure
illustrated on page 107 of TSE depicting a Board
Screen, and is found at page 85 of the Román
Declaration. Mr. Román’s annotations indicate the
portions of the Board Screen considered to
correspond to various claim elements. The ’411
patent explains that “[f]or a commodity being traded,
the ‘inside market’ is the highest bid price and the
lowest ask price.” Ex. 1001, 4:60–62. As illustrated

190a
above in Román’s FIG. D, TSE receives and displays
inside market information.
Accordingly, we find that TSE teaches “receiving .
. . market information” as required by the claims.
“displaying . . . a bid display region” and “an ask
display region”
Claims 1 and 26 each additionally recite
“displaying . . . a bid display region . . . along a price
axis” and “displaying . . . an ask display region . . .
along the price axis.” Petitioner cites TSE as
teaching these limitations, and specifically indicates
the portions in TSE’s Board Screen that correspond
to these limitations as shown in Román’s FIG. D
above. Pet. 66–67 (citing Ex. 1007, 111–113, 137; Ex.
1019 ¶¶ 163–165). We agree with and adopt
Petitioner’s contentions, which are not disputed by
Patent Owner.
We find that TSE teaches these limitations, as
clearly illustrated in Román’s FIG. D above. For
example, TSE’s center column 11, illustrates the
price axis, with bid and ask display regions on either
side of that price axis.
“dynamically displaying . . . a first indicator” and “a
second indicator” and “moving the first indicator”
and “the second indicator”
Claims 1 and 26 each additionally recite
“dynamically displaying . . . a first indicator
representing quantity associated with at least one

191a
trade order to buy the commodity at the current
highest bid price” and “dynamically displaying . . . a
second indicator representing quantity associated
with at least one trade order to sell the commodity at
the current lowest ask price.” The “first indicator” is
“in a first graphical location . . . in the bid display
region . . . corresponding to a price level associated
with the current highest bid price” and the “second
indicator” is “in a first graphical location . . . in the
ask display region corresponding to a price level
associated with the current lowest ask price.”
“[U]pon receipt of . . . a new highest bid price,” “the
first indicator [is moved] relative to the price axis to
a second graphical location . . . in the bid display
region . . . corresponding to . . . the new highest bid
price” and “upon receipt of . . . a new lowest ask
price,” “the second indicator [is moved] relative to
the price axis to a second graphical location . . . in
the ask display region . . . corresponding to . . . the
new lowest ask price.” Petitioner cites TSE as
teaching these limitations. Pet. We agree with and
adopt Petitioner’s contentions, which are not
disputed by Patent Owner.
For example, as Petitioner notes, and as
illustrated above in Román’s FIG. D, “[t]he columns
labeled ᬐ in TSE’s Board Screen display ‘the order
quantity’ and the columns labeled ᬑ display ‘the
order count,’” with “the highest bid price and
quantity (price: 13019; quantity: 17) and the lowest
ask price and quantity (price: 13023; quantity: 5).”
Pet. 67 (citing Ex. 1007, 112). The order quantity of
17 associated with the highest bid price corresponds

192a
to the “first indicator” and the order quantity of 5
associated with the lowest ask price corresponds to
the “second indicator.” Id. (citing Ex. 1019 ¶ 166). As
Petitioner notes, TSE “dynamically display[s]” its bid
and ask information (i.e., the “first indicator” and
the “second indicator”). Id. (citing Ex. 1007, 91). TSE
explains that the “Board and quotation information
is automatically updated at three-second intervals,”
which occurs “even if [the Board Screen] has been
scrolled.” Ex. 1007, 91.
Accordingly, we find that TSE teaches
“dynamically displaying . . . a first indicator” and “a
second indicator” and “moving the first indicator”
and “the second indicator” as required by the claims.
“displaying an order entry region” and selecting a
particular area of the “order entry region” by a
“single action”
Claims 1 and 26 each additionally recite
“displaying an order entry region comprising a
plurality of graphical areas for receiving single
action commands” that set trade order prices and
send trade orders. “[E]ach graphical area
correspond[s] to a different price level along the price
axis” and “selecting a particular graphical area in
the order entry region through a single action of a
user input device . . . both set[s] a price for a trade
order and send[s] the trade order having a default
quantity to the electronic exchange.” Petitioner cites
the combination of teachings from TSE, Belden, and
Togher for these limitations. Pet. 69–73. Patent
Owner disputes those contentions. PO Resp. 69–71.

193a
With respect to the “order entry region” and
“single action” limitations, Petitioner cites the
combined teachings of TSE and Belden. Pet. 69–71.
Belden “relates to computer-based techniques for
replicating a physical market for trading items such
as stocks . . . and the like.” Ex. 1009, 3. Petitioner
contends that Belden teaches single action
commands that set trade prices and send trade
orders. Pet. 70–71. Patent Owner responds that
“TSE does not include the claimed order entry region
because selecting an area along the price axis only
opens a separate order entry window, it cannot be
used to send orders.” PO Resp. 69 (citing Ex. 1007,
137). Patent Owner explains that “[b]ecause of the
separate order entry window, TSE does not disclose
the claimed ‘order entry region’ and functions of the
claimed ‘graphical areas’ along a price axis.” Id.
(citing Ex. 2169 ¶ 164). With respect to Belden,
Patent Owner responds that “Belden [does not]
disclose a price axis, and therefore cannot disclose
the claimed order entry region.” Id. at 70. Patent
Owner further contends that “even if TSE [and]
Belden . . . were combined in the manner suggested
by Petitioners, one still would not arrive at the
claimed
invention
because
the
suggested
combination lacks an ‘order entry region’ as
claimed.” Id. Patent Owner further contends that
“Belden’s single action . . . does not send an order
message to an electronic exchange, but rather
executes a trade.” Id.
The problem with Patent Owner’s response is
that it does not address the combined teachings of

194a
TSE and Belden asserted by Petitioner. Regardless
of whether Belden sends an order message, or
executes a trade (as Patent Owner contends), there
is no dispute it does this with a single action
command received by a graphical area (clicking on
an icon). See, e.g., Ex. 1009, 12, 33. As noted above,
Petitioner’s challenge proposes modifying TSE to
send its orders based on a “single action,” which is
taught by Belden as explained above. There is no
dispute, and we agree, that TSE teaches sending
trade orders. See PO Resp. 69 (explaining that in
TSE, “selecting an area along the price axis only
opens a separate order entry window” and “clicking
‘send[]’ to send the order”). There is also no dispute,
and we agree, that TSE teaches automatically
setting a price for the trade order. See Ex. 1007, 137
(“Depending on the place that is double clicked, the .
. . ‘Order Price’ . . . [is] set automatically.”).
Petitioner’s proposed modification simply eliminates
opening the separate window used to send trade
orders in TSE and, instead, sends those orders
automatically with the single action that was used
previously to open the order entry window.
Accordingly, the combined teachings of TSE and
Belden provide an order entry region having the
single action features recited in the claims.
As for the “default quantity” recited in the claims,
Petitioner cites Togher and proposes further
modifying TSE’s teachings accordingly. Pet. 71–73.
We agree with and adopt Petitioner’s contentions,
which are not disputed by Patent Owner. As
Petitioner notes, for example, Togher teaches a

195a
trader profile, where a user can set default values for
trading size. Id. at 72 (citing Ex. 1005, 8:65–9:10,
11:20–25, 12:7–15, Fig. 4).
Accordingly, we find that the combination of TSE,
Belden, and Togher teaches the “order entry region”
and “single action” limitations recited in claims 1
and 26.
Rationale for combination
Petitioner provides rationale for combining the
teachings of Belden and Togher with that of TSE.
Pet. 62–64, 71–73. Patent Owner disputes
Petitioner’s rationale. PO Resp. 75–77. For the
reasons explained below, we are persuaded by
Petitioner’s rationale for combining the teachings of
Belden and Togher with that of TSE, and adopt
Petitioner’s reasoning.
With respect to Belden, for example, Petitioner
reasons that a person skilled in the art “would have
been motivated to incorporate Belden’s single-action
order techniques in TSE’s electronic trading system
to achieve the predictable and desirable results of
reducing the time needed to place an order and
reduce operator error.” Pet. 71 (citing Ex. 1019 ¶
176). Petitioner additionally notes that “Belden
provides motivation for the combination.” Id. (citing
Ex. 1009, 4 (noting the speed benefits)). Patent
Owner responds that “Petitioners’ purported
motivation to combine—that Belden is ‘applicable to
all markets’ is misplaced” and that “‘[s]peed’ in
Belden refers to instantaneous trade-making of open

196a
outcry pits which are inherently different from the
electronic exchanges of TSE.” PO Resp. 76 (citations
omitted). Regardless of the specific type of market to
which Belden is related, we are persuaded that one
skilled in the art would have appreciated that
reducing the number of steps required to execute an
order would result in a decrease in the amount of
time required to place that order, and that users in
various types of markets would have appreciated
that mitigating the delay between choosing to place
an order and placing that order would be beneficial.
See, e.g., Ex. 1019 ¶ 176.
As for the further modification to TSE’s teachings
based on the default quantity taught by Togher,
Petitioner reasons that such a modification would
have been obvious because “Togher suggests that
using defaults increases trade speed and accuracy,
thus providing motivation to include this feature in
TSE’s trading system” and such a modification
“would have been nothing more than combining
prior art elements according to known methods to
yield the predictable and desirable result of reducing
the time needed to place an order and reducing the
number of errors by reducing the number of operator
actions (e.g., keystrokes).” Pet. 72–73 (citing Ex.
1019 ¶ 180). Patent Owner responds that “Roman’s
interpretation of TSE, and his basis for the
motivation to combine with Togher’s alleged default
quantity, is based on a substantive mistranslation of
TSE.” PO Resp. 76 (citing Ex. 2178 ¶¶ 14–40).
Similar to that discussed above relative to Belden,
the rationale provided by Petitioner for further

197a
modifying TSE’s teaching based on Togher to include
a default quantity is straightforward, to increase
speed and accuracy, and does not require any alleged
mistranslation of [TSE]. See, e.g., Ex. 1019 ¶ 180.
For the reasons set forth above, we are persuaded
that Petitioner has established, by a preponderance
of the evidence, that the features of claims 1 and 26
are taught by the combination of TSE, Belden, and
Togher, and that one skilled in the art would have
combined those teachings.
b. Claim 9
Claim 9 depends from claim 1 and further
requires “dynamically displaying an entered order
indicator at a graphical location aligned with a price
level of the plurality of price levels, wherein the
entered order indicator represents a user’s trade
order working at the price level aligned with the
entered order indicator.” Petitioner cites Belden as
teaching the features recited in claim 9, other than
the “entered order indicator” being “at a graphical
location aligned with a price level.” Pet. 75–76 (citing
Ex. 1009, 26, 33, Fig. 2b). Petitioner proposes
modifying TSE to include an “entered order
indicator” as taught by Belden, and reasons that “[i]t
would have been obvious to a [person of ordinary
skill in the art] to display the entered order
indicators . . . aligned with the price axis disclosed
by TSE . . . so that the trader could easily recognize
and track his/her orders.” Pet. 76 (citing Ex. 1023
¶¶ 54–57).

198a
There is no dispute, and we agree, that Belden
teaches dynamically displaying the entered order
indicator recited in the claims noted above. See PO
Resp. 71; Ex. 1009, 26, 33, Fig. 2b. Rather, Patent
Owner contends that “[e]ven if Belden’s icon is
assumed to show a working order, the purported
combination would not arrive at the claimed subject
matter” because “Belden does not disclose a price
axis, and Petitioners failed to provide any reason
why the POSA would modify TSE to add a new
column of information, when conventional wisdom
was to place working orders in a separate window.”
PO Resp. 71–72. As noted above, however, the
Petition specifically states, for example, that such an
arrangement would have been obvious to include in
TSE “so that the trader could easily recognize and
track his/her orders.” Pet. 76. There is no dispute
that one skilled in the art would have appreciated
the benefits of displaying working orders. See PO
Resp. 72 (Patent Owner acknowledges that
“conventional wisdom was to place working orders in
a separate window.”). We are persuaded that, as an
alternative to displaying orders in a separate
window, one skilled in the art would have
appreciated the benefits of “dynamically displaying”
orders in alignment with the prices corresponding
thereto, as recited in the claims, in view of the
ability to easily track orders when displayed in that
manner as Petitioner contends.
For the reasons set forth above, we are persuaded
that Petitioner has established, by a preponderance
of the evidence, that the features of claim 9 are

199a
taught by the combination of TSE and Belden, and
that one skilled in the art would have combined
those teachings.
c. Claim 10
Claim 10 depends from claim 9 and further
recites “canceling the user’s trade order represented
by the entered order indicator in response to a single
action of the user input device with a cursor of the
user input device positioned over the entered order
indicator.” Petitioner’s challenge to claim 10 builds
on the challenge to claim 9, noting that the “entered
order indicator” taught by Belden and relied on to
modify TSE, as discussed above relative to claim 9,
includes the single click cancelling feature recited in
claim 10. Pet. 76–77. The majority of Patent Owner’s
contentions are directed to the proposed combination
of Belden’s teachings with those of TSE relative to
claim 9, which are not persuasive for the reasons
discussed above. Patent Owner further contends that
“the Petition fails to provide any motivation to
combine the single-action cancelation with TSE.” PO
Resp. 73. The Petition, however, provides persuasive
reasoning as to why one skilled in the art would
have included an “entered order indicator” based on
Belden’s teachings as discussed above relative to
claim 9. There is no dispute, and we find, that
Belden teaches single action cancelling. See PO
Resp. 73; Ex. 1009, 37–38. Accordingly, we are
persuaded that when applying Belden’s “entered
order indicator” teachings to TSE, one skilled in the
art would have included the features, such as single
action cancelling, that are part of that “entered order

200a
indicator.” Further, we are persuaded that one
skilled in the art would have included the single
action cancelling for reasons such as improved speed.
See Pet. 63.
d. Claim 11
Claim 11 depends from claim 1, and further
recites “receiving a re-centering command to center
the inside market in a window of a graphical user
interface.” Petitioner contends that selection of the
“home button [H]” while in the Scroll Screen in TSE
teaches this feature. Pet. 77 (citing Ex. 1007, 115–
116; Ex. 1019 ¶ 188). Patent Owner responds that
“[t]his is not a manual re-centering command
because it switches between modes (scroll mode to
basic-board mode), also referred to as a modal shift,
[and] returns the user to the basic Board screen.” PO
Resp. 74. Patent Owner contends that “a [person of
ordinary skill in the art] would not understand this
mode switching to be a re-centering command.” Id.
(citing Ex. 2169 ¶ 170).
Patent Owner’s contentions are not persuasive.
There is no dispute, and we agree, that TSE teaches
manual re-centering by switching between modes.
See Ex. 1007, 116 (discussing switching from the
“Scrolling Screen” to the “Basic Board Screen” by
“[u]se the mouse to click the ‘H’ (Home) button on
the Board Screen”); see also id. at 110 (further
explaining operation of the “home button,” noting
that “[c]licking [the home] button with the mouse
after the board information has been scrolled causes
the screen to return to the Basic Board Screen, with

201a
the board display center price at the center”). The
fact that re-centering is achieved by switching
between modes does not change the fact that this is
a re-centering command. The testimony from Patent
Owner’s declarant, Mr. Thomas, is also unpersuasive
because it, too, is not tied to any requirement in the
claims, and instead requires re-centering without
changing modes. The claims simply require “recentering,” and are silent as to whether a mode must
remain the same. See Ex. 2169 ¶ 170.
For the reasons set forth above, we find that
“[c]licking [the home] button with the mouse after
the board information has been scrolled causes the
screen to return to the Basic Board Screen, with the
board display center price at the center” in TSE
teaches the features recited in claim 11.
e. Additional Dependent Claims
Petitioner additionally challenges claims 2–8, 12–
25, 27, and 28 as being unpatentable over TSE and
Belden. Pet. 73–75, 77–80. We have reviewed
Petitioner’s challenges to those claims, which Patent
Owner does not dispute, as well as the evidence
supporting those challenges.
We adopt Petitioner’s findings and rationale, and
are persuaded that the features recited in those
claims are taught by the combination of TSE,
Belden, and Togher and that one skilled in the art
would have combined those teachings.

202a
3. Secondary Considerations
As part of our obviousness analysis, we consider
the arguments and corresponding evidence
submitted by Patent Owner regarding secondary
considerations of non-obviousness. See Graham v.
John Deere Co., 383 U.S. 1, 17–18 (1966). To be
relevant, secondary evidence of nonobviousness must
be commensurate in scope with the claimed
invention. In re Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011). There must be a nexus between the merits of
the claimed invention and the evidence of secondary
considerations. GPAC, 57 F.3d at 1580. “Nexus” is a
legally and factually sufficient connection between
the objective evidence and the claimed invention,
such that the objective evidence should be considered
in determining non-obviousness. Demaco Corp. v. F.
Von Langsdorff Licensing Ltd., 851 F.2d 1387, 1392
(Fed. Cir. 1988).
Patent Owner contends that “there is a mountain
of objective indicia of nonobviousness that proves the
claimed invention is not obvious.” PO Resp. 36.
a. MD Trader
Patent Owner contends that “MD Trader [is] the
commercial embodiment of the invention” (PO Resp.
43), and refers to MD Trader throughout its
discussion of secondary considerations of nonobviousness (id. at 37–60). As Petitioner notes,
however, “the [Patent Owner Response] fails to
explain how MD Trader embodies the claims and

203a
doesn’t even identify which claims (if any) MD
Trader embodies.” Pet. Reply 19.
The only discussion provided in Patent Owner’s
Response as to how MD Trader includes the features
recited in the challenged claims is a general
allegation noted above that “MD Trader [is] the
commercial embodiment of the invention . . .
Ex.2169, ¶ 95 (citing Ex.LL [Ex.2233] to explain how
each claim element is present in MD Trader).” PO
Resp. 43. Initially, we note that such an
incorporation by reference is inappropriate, as
Patent Owner’s Response fails to explain how MD
Trader includes the features of the claims. See 37
C.F.R. § 42.6(a)(3) (“Arguments must not be
incorporated by reference from one document into
another document.”).
Nevertheless, and as explained below, Patent
Owner’s
contentions
regarding
secondary
considerations fail even if we assume that MD
Trader includes the claim elements (the features of
claims 1, 9, 10, and 11 noted in Exhibit 2233).
b. Unrecognized Problems
Patent Owner contends that “[t]he inventive GUI
tool solved problems presented by conventional
GUIs,” which “exhibited problems with speed and
accuracy.” PO Resp. 36. Patent Owner, however,
offers no persuasive authority for the proposition
that “unrecognized problems” is a secondary
consideration of non-obviousness. See id. at 37
(citing Leo Pharm. Prods., Ltd. v. Rea, 726 F.3d

204a
1346, 1353–54, 1357 (Fed. Cir. 2013)). An inventor’s
discovery of a previously unrecognized problem is
generally accounted for in the analysis of the scope
of the prior art and a motivation to combine prior art
elements, rather than it being a secondary
consideration of nonobviousness. See Leo Pharm.
Prods., 726 F.3d at 1353–54; see also S. Alabama
Med. Sci. Found. v. Gnosis S.P.A., 808 F.3d 823, 827
(Fed. Cir. 2015). We note that Patent Owner’s
contentions regarding “unrecognized problems” are
not tied to any of the asserted references or rationale
discussed above with respect to the challenges to
claims 1–28 under § 103.
Accordingly, these contentions are not persuasive
of non-obviousness.
c. Unexpected Results
Patent Owner contends that “[u]nexpected
superior properties from an invention support the
conclusion that the invention was not obvious to a
[person of ordinary skill in the art].” PO Resp. 37
(citing Procter & Gamble Co. v. Teva Pharm. USA,
Inc., 566 F.3d 989, 997 (Fed. Cir. 2009); In re Soni,
54 F.3d 746, 750 (Fed. Cir. 1995)). As the authority
cited by Patent Owner explains,
The basic principle behind [unexpected
results
supporting
nonobviousness]
is
straightforward—that which would have been
surprising to a person of ordinary skill in a
particular art would not have been obvious.
The principle applies most often to the less

205a
predictable fields, such as chemistry, where
minor changes in a product or process may
yield substantially different results.
In re Soni, 54 F.3d at 750.
Patent Owner contends that “[a]lthough the
invention achieved Brumfield’s intended benefit of
increasing the likelihood that the user would get
his/her desired price, this was not a problem that
was widely appreciated by others.” PO Resp. 38.
Patent Owner further contends that “the invention
provided several other unexpected benefits as well.”
Id. at 38. This is not persuasive of “unexpected
results.”
Patent Owner does not allege that the GUI
operated in some unexpected manner. Indeed, it is
hard to imagine computer code (i.e., a set of
instructions) operating in an unexpected manner,
particularly when the ’411 patent describes the
programming associated with the GUI as
insignificant. See, e.g., Ex. 1001, 4:64–5:3 (explaining
that “present invention processes [price, order, and
fill] information and maps it through simple
algorithms and mapping tables to positions in a
theoretical grid program” and “[t]he physical
mapping of such information to a screen grid can be
done by any technique known to those skilled in the
art”).
Accordingly, we are not persuaded by Patent
Owner’s contentions regarding unexpected results.

206a
d. Initial Skepticism
Patent Owner contends that “MD Trader was
received with skepticism by TT’s own sales
personnel.” PO Resp. 40 (citing Ex. 2169 ¶¶ 97–98,
101; Ex. 2211, 715:19–716:18; Ex. 2173 ¶¶ 21–23;
Ex. 2170 ¶¶ 21–27; Ex. 2171 ¶ 40; Ex. 2173 ¶ 16).
Initially, we reiterate that “[a]rguments must not be
incorporated by reference from one document into
another document.” 37 C.F.R. § 42.6(a)(3).
Patent Owner’s arguments related to “initial
skepticism” are based primarily on the premise that
“a [person of ordinary skill in the art] would have
rejected outright a price axis with relative
movement.” PO Resp. 41. Those contentions are
unpersuasive. As noted above, TSE expressly
teaches this feature. To the extent the other
contentions related to “initial skepticism” are
directed to traders simply being resistant to change,
generally, those contentions are also unpersuasive.
See, e.g., id. at 42 (discussing profitable traders
being hesitant towards any type of change because
change can alter their confidence). Those contentions
are not tied in any meaningful way to the features of
the claims.
That traders would have been resistant to accept
anything different is not persuasive of nonobviousness.

207a
e. Commercial Success
Patent Owner contends that MD Trader “became
a huge commercial success.” PO Resp. 43. As noted
above, Patent Owner does not explain, in its Patent
Owner Response, how MD Trader embodies the
claimed invention. Even if MD Trader includes each
feature recited in the claims, “[e]vidence of
commercial success . . . is only significant if there is
a nexus between the claimed invention and the
commercial success.” Ormco Corp. v. Align Tech.,
Inc., 463 F.3d 1299, 1311–12 (Fed. Cir. 2006). In
some instances, there may be a presumption of
nexus. See WBIP, LLC v. Kohler Co., 829 F.3d 1317,
1329 (Fed. Cir. 2016) (“[T]here is a presumption of
nexus for objective considerations when the patentee
shows that the asserted objective evidence is tied to
a specific product and that product ‘is the invention
disclosed and claimed in the patent.’” (citation
omitted)).
Patent Owner does not contend that a
presumption of nexus is appropriate in this case. In
fact, the Patent Owner Response is silent as to any
nexus between the alleged commercial success and
the claimed invention. Petitioner argues there is no
presumption of nexus, and that Patent Owner has
not established the requisite nexus. Pet. Reply 19–
21, 23. We agree with Petitioner.
Patent Owner admits that MD Trader is part of a
suite of software and not sold separately. Tr. 72:18–
23. A limited exception to the presumption of nexus
exists where the patented invention is only a

208a
component of the product to which the asserted
objective considerations are tied. Demaco, 851 F.2d
at 1392. Here, because MD Trader is a component of
a suite of software, Patent Owner enjoys no
presumption of nexus. Patent Owner fails to offer
any meaningful discussion of nexus in its Patent
Owner Response, other than a general assertion at
the end of its discussion that “MD Trader was
successful due to the patented features.” PO Resp.
46.
Patent
Owner’s
contentions
regarding
commercial success fail for this reason alone.
Even if we were to assume nexus, Petitioner
persuasively rebuts that presumption. Petitioner
responds, for example, that Patent Owner’s increase
in sales could easily have been the result of increases
in the market itself during the relevant time period.
Pet. Reply 25. Petitioner explains that “in the U.S.,
both the trading volume and the number of actively
traded commodities contracts exploded in the earlyto-mid 2000s” and “[t]rading volume increased sixfold; the number of actively traded contacts
increased five-fold.” Id. (citing Ex. 1045, 35–36).
Exhibit 1045 is a document from the Commodity
Futures Trading Commission (CFTC), and pages 35–
36 support the trading volume increase alleged by
Petitioner.
Petitioner also points to several unclaimed
features being responsible for the alleged commercial
success. Pet. Reply 21–22. In support of this
contention, Petitioner cites Patent Owner’s own

209a
testimony from traders in the industry (Ex. 222314),
noting, for example, that “Grisafi identifies . . . oneclick re-centering as [a] key feature[],” “McElveen
identifies speed, precision, and one-click re-centering
as . . . key features,” and “Beattie identifies ‘set[ting]
up multiple MD Trade windows side-by-side on their
desktop computer screens’ to help ‘traders to
visualize the entire market easily and fast’ (‘multiscreen visualization’).” Pet. Reply 21–22 (citing Ex.
2223, 2–4, 40). Patent Owner acknowledges that, “in
this industry . . . anything that is even remotely
appreciated as providing an edge is tried and
spreads quickly if successful.” PO Resp. 43
(emphasis added).
We additionally note, as Petitioner points out
(Pet. Reply 20), that the evidence provided by Patent
Owner in its claim chart corresponds to a 2014
version of MD Trader (citing the X_TRADER®
Version 7.12.X User Manual, with a “document
version” date of March 5, 2014). Ex. 2233, 1–6, 11,
13–14, 16. The sales information for MD Trader
discussed in the Patent Owner Response is from the
period from 1996–2006. PO Resp. 45. Patent Owner
offers no explanation, in its Patent Owner Response,
as to how the product on sale at that time period
corresponds to the claimed invention or to the MD
Trader from 2014.

14 Petitioner mistakenly cites to Exhibit 2233 in its Reply.
See Pet. Reply 21–22.

210a
Furthermore, Patent Owner does not provide
information regarding sales volume or market share
as compared to providers of competing products.
Rather, Patent Owner only alleges an increase in its
own sales, without reference to the market. See id.
This information, without market share information,
is only weak evidence, if any, of commercial success.
See In re Applied Materials, 692 F.3d 1289, 1299
(Fed. Cir. 2012).
f. Copying Patent
Owner additionally contends that the invention
was widely copied by others. PO Resp. 47–53.
“[C]opying requires the replication of a specific
product.” Iron Grip Barbell Co. v. USA Sports, Inc.,
392 F.3d 1317, 1325 (Fed. Cir. 2004).
Patent Owner refers to products allegedly
including the claimed features, as well as consent
judgments where others acknowledged infringement.
PO Resp. 47–52. This is not persuasive evidence of
copying. See Iron Grip, 392 F.3d at 1325 (“Not every
competing product that arguably falls within the
scope of a patent is evidence of copying. Otherwise
every infringement suit would automatically confirm
the nonobviousness of the patent.”).
Although Patent Owner repeatedly alleges that
others copied the invention, there is no explanation,
in the Patent Owner Response, to support those
alleged copiers attempting to replicate specific
products. Patent Owner has failed to establish
widespread copying.

211a
g. Industry Praise
Patent Owner contends that widespread praise in
the industry also supports non-obviousness. PO
Resp. 53–54. In support of its “widespread praise”
contentions, Patent Owner notes, for example, that
the invention was characterized as a “unique vision,”
“ingenious,” “paradigm change,” “revolutionary… not
just an incremental improvement,” “outside of the
box,” “huge innovation,” “significant advance,”
“determining factor in our success,” “radically
different,” “far superior,” “very significant departure
[from the prior art],” “invaluable tool,” “stroke of
genius,” “so significant that I cannot put a price on
its value.” Id. Patent Owner proceeds to conclude
that “[e]ach one of these individual’s praise was
directed to the specific claimed features.” Id. at 54.
As with commercial success, however, evidence of
industry praise is only relevant when it is directed to
the merits of the invention claimed. See Ormco, 463
F.3d at 1311. Patent Owner offers no explanation, in
its Patent Owner Response, as to how any of the
alleged praise is due to specific features that are
present in the claims.
h. Industry Acquiescence
Patent Owner contends that non-obviousness is
further shown by “widespread acquiescence and
acceptance in the industry,” with “many licenses and
consent judgments acknowledging infringement and
validity.” PO Resp. 55. Although licenses taken
under the patent in suit may constitute evidence of

212a
non-obviousness, we attribute little weight to such
evidence because Patent Owner does not
demonstrate “a nexus between the merits of the
invention and the licenses of record.” GPAC, 57 F.3d
at 1580 (internal quotation and citations omitted).
Furthermore, as Petitioner notes, litigation-induced
licensing, alone, does not establish non-obviousness.
See Pet. Reply 25 (citing EWP Corp. v. Reliance
Universal Inc., 755 F.2d 898, 907–8 (Fed. Cir. 1985)).
We note that Patent Owner’s contention
regarding licensing to traders is more related to
commercial success than licensing in the context of
secondary considerations of non-obviousness. See PO
Resp. 55 (discussing traders purchasing software
licenses, the MD Trader product).
i. Failure of Others
Patent Owner additionally contends that the
alleged failure of others to make the invention
supports non-obviousness. PO Resp. 56–58. Patent
Owner’s contentions on this issue are not directed to
any particular attempt and failure of others to make
the claimed invention. See id. Indeed, it is difficult to
image that would be the case with the claimed
invention, as the ’411 patent explains that there is
nothing special about the programming required. Ex.
1001, 4:64–5:3.
Rather, Patent Owner’s contentions are directed
to the allegation that the claimed invention did not
exist before arrived at by Patent Owner. PO Resp.
56–58. This does not establish non-obviousness. Iron

213a
Grip, 392 F.3d at 1325 (“Absent a showing of longfelt need or the failure of others, the mere passage of
time without the claimed invention is not evidence of
nonobviousness.”). Patent Owner does not allege any
long-felt need existed. In fact, Patent Owner
advances the opposite position, that the problem was
not even recognized by others. See PO Resp. 57
(“Prior to the invention, [persons of ordinary skill in
the art] failed to even appreciate the problems.”).
j. Other Evidence
Patent Owner additionally cites another party’s
attempt to invalidate the ’411 patent as evidence of
non-obviousness. PO Resp. 58–59. Patent Owner
concludes that party’s “actions show that experts in
the field recognized that the prior art, including the
TSE, was insufficient to render the invention
obvious.” Id. at 59. We are apprised of no persuasive
reason as to why those contentions establish nonobviousness in this proceeding.
4. Weighing Secondary Considerations against
Obviousness
As explained above, Patent Owner has not
established the majority of its alleged secondary
considerations of non-obviousness. Weighing the
evidence before us, Patent Owner’s contentions
regarding secondary considerations of nonobviousness do not outweigh the strong case of
obviousness discussed above. For example, as noted
above, TSE teaches each feature of claim 1 other
than the “single action” setting and sending, which is

214a
taught by Belden, and the default quantity, which is
taught by Togher. As noted above, Belden itself, for
example, provides motivation for the proposed
modifications to TSE (e.g., increased speed).
Accordingly, we are persuaded that Petitioner
has established, by a preponderance of the evidence,
that claims 1–28 are unpatentable under 35 U.S.C. §
103.15
F. Due Process
Patent Owner alleges due process issues in
connection with alleged evidence of non-obviousness.
PO Resp. 77–83. Specifically, Patent Owner
references documents from the related district court
proceeding. See, e.g., id. at 77–79. Patent Owner
references our order (Paper 67, “the discovery order”)
in connection with its due process arguments. Id. at
79. As noted in the discovery order, Patent Owner
failed to explain why some of the documents sought
could be obtained only from Petitioner. Paper 67, 9–
10. Furthermore, the discovery order also explained
that much of the information sought by Patent
Owner was already in Patent Owner’s possession
and potentially could have been used in our
Patent Owner alleges that Petitioner has failed to
establish a prima facie case of obviousness because various
portions of testimony from Mr. Román and Mr. Rho address
only portions of various claims. PO Resp. 74–75. Patent Owner
offers no explanation however, as to how any of the alleged
deficiencies in testimony affect any specific challenge to any
specific claim. See id. (including only general allegations).
15

215a
proceedings had Patent Owner sought relief from the
district court in the related proceeding (the
information sought for use in this proceeding was
subject to a protective order in the related district
court proceeding). Id. at 10.
We do not discern any due process issues.
G. Motions to Exclude
1. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1006
(TSE), the transcript of Mr. Kawashima’s deposition
(Ex. 1010), and portions of Exhibits 1051 and 1052.
Paper 109 (“PO MTE”). Exhibit 1006 is the Japanese
version of the TSE document. See, e.g., Paper 128, 1.
Patent Owner seeks to exclude Exhibit 1006 because
it has not been authenticated per Rule 901 of the
Federal Rules of Evidence (FRE). PO MTE 1–8.
Patent Owner recognizes that Petitioner relies on
Mr. Kawashima’s testimony (Ex. 1010) to
authenticate TSE, but argues that his testimony is
hearsay. PO MTE 2–6. Patent Owner, however,
acquiesces that Mr. Kawashima’s testimony is not
hearsay because he was cross-examined. Patent
Owner also argues that Mr. Kawashima’s testimony
raises more doubt than it resolves. Id. at 6–8.
Patent Owner’s motion with respect to the
exclusion of TSE (Exhibit 1006) and the transcript of
Mr. Kawashima’s deposition (Exhibit 1010) falls
short of what is required in a motion. The statement
of the precise relief requested is lacking. For

216a
example, Patent Owner argues that TSE and Mr.
Kawashima’s deposition testimony should be
excluded, but also argues that Mr. Kawashima’s
deposition testimony falls under the FRE 807
hearsay exception, and, therefore, is admissible. See,
e.g., PO MTE 2–6. We understand Patent Owner’s
position to be that if we exclude any of Patent
Owner’s evidence, then we also should exclude
Exhibits 1006 and 1010 from being admitted. Id. at 6
(“To the extent the Board excludes any of Patent
Owner’s evidence from district court litigation, which
it should not, the Board should likewise exclude the
2005 Kawashima deposition transcript.”).
We are not persuaded by Patent Owner’s
arguments. Patent Owner has not met its burden to
show that either Exhibit 1010 or Exhibit 1006
should be excluded from the record. In fact, Patent
Owner appears to concede that Mr. Kawashima’s
testimony is not hearsay because it falls under an
exception to the hearsay rule. Nor are we persuaded
by Patent Owner’s argument that the deposition
testimony of Mr. Kawashima (Ex. 1010) raises more
doubt than it resolves. PO MTE 6–8. In essence,
Patent Owner’s arguments go to the weight we
should give Mr. Kawashima’s testimony, which is
not a proper argument for a motion to exclude. For
all of these reasons, we are not persuaded that either
Exhibit 1010 or 1006 should be excluded from the
record.
Patent Owner seeks to exclude pages 57–58 of
Exhibit 1051 (the cross-examination testimony of
Mr. Olsen) and pages 393–397 of Exhibit 1052 (the

217a
cross examination testimony of Mr. Thomas). PO
MTE 8–15. We did not and need not consider the
specific pages objected to in Exhibits 1051 and 1052.
We have determined that Petitioner has
demonstrated, by a preponderance of the evidence,
that the challenged claims are unpatentable without
considering the specific objected to pages or the
portion of Petitioner’s Reply that relies on such
evidence.
Accordingly, we deny Patent Owner’s Motion to
Exclude with respect to Exhibits 1006 and 1010, and
dismiss Patent Owner’s Motion to Exclude with
respect to Exhibits 1051 and 1052 as moot.
2. Petitioner’s Motion to Exclude
Petitioner moves to exclude various ones of
Patent Owner’s Exhibits. Paper 111 (“Pet. MTE”).
Because the outcome of this trial does not change
based on whether or not we exclude those exhibits,
we dismiss Petitioner’s Motion to Exclude as moot.
CONCLUSION
For the foregoing reasons, we determine that
Petitioner has shown, by a preponderance of the
evidence, that claims 1–28 of the ’411 patent are
patent-ineligible under 35 U.S.C. § 101 and that
those claims are unpatentable under 35 U.S.C.
§ 103.

218a
ORDER
For the reasons given, it is:
ORDERED that claims 1–28 of the ’411 patent
are patent-ineligible under 35 U.S.C. § 101;
FURTHER ORDERED that claims 1–28 of the
’411 patent are unpatentable under 35 U.S.C. § 103;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude Evidence is denied with respect to
Exhibits 1006 and 1010 and dismissed with respect
to Exhibits 1051 and 1052;
FURTHER ORDERED that Petitioner’s Motion
to Exclude Evidence is dismissed; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.

219a
Trials@uspto.gov
571.272.7822

Paper No. 138
Entered: March 3, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2015-00181
Patent No. 7,676,411 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
PLENZLER, Administrative Patent Judge,
dissenting-in-part.

220a
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
I agree that the ’411 patent is directed to a
covered business method and that claims 1–28 are
unpatentable under 35 U.S.C. § 103. I do not join the
majority in the determination that claim 1 does not
solve a technical problem using a technical solution.
Such a determination is not necessary for the ’411
patent to be a covered business method patent, as we
are persuaded that at least claim 1 of the ’411 patent
does not recite a technological feature that is novel
and unobvious over the prior art. See Versata dev.
Grp., Inc. v. SAP Am., Inc., 793 F.3d 1306, 1326–27
(Fed. Cir. 2015). With respect to the issue of claims
1–28 being patent-ineligible under 35 U.S.C. § 101,
however, I respectfully dissent.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014). The
claims fit within one of the four statutorily provided
categories of patent-eligibility. For example, there is
no dispute that claim 1 fits within the process
category.
Section 101 “contains an important implicit
exception: Laws of nature, natural phenomena, and

221a
abstract ideas are not patentable.” Alice Corp. Pty.
Ltd. v. CLS Bank. Int’l, 134 S. Ct. 2347, 2354 (2014)
(citing Assoc. for Molecular Pathology v. Myriad
Genetics, Inc., 133 S. Ct. 2107, 2116 (2013) (internal
quotation marks omitted)). In Alice, the Supreme
Court reiterated the framework set forth previously
in Mayo Collaborative Services v. Prometheus Labs.,
Inc., 132 S. Ct. 1289, 1293 (2012), “for distinguishing
patents that claim laws of nature, natural
phenomena, and abstract ideas from those that
claim patent-eligible applications of those concepts.”
Alice, 134 S. Ct. at 2355. The first step in the
analysis is to “determine whether the claims at issue
are directed to one of those patent-ineligible
concepts.” Id.
There is no definitive rule to determine what
constitutes an “abstract idea.” Rather, the Federal
Circuit has explained that “both [it] and the
Supreme Court have found it sufficient to compare
claims at issue to those claims already found to be
directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that, in determining whether
claims are patent-eligible under § 101, “the
decisional mechanism courts now apply is to
examine earlier cases in which a similar or parallel
descriptive nature can be seen—what prior cases
were about, and which way they were decided”).
The Federal Circuit issued a decision
determining that the claims from U.S. Patent Nos.

222a
6,766,304 (“the ’304 patent”) and 6,772,132 (“the ’132
patent”) are patent eligible under § 101. Trading
Techs. Int’l, Inc. v. CQG, Inc., No. 2016-1616, 2017
WL 192716 (Fed. Cir. Jan. 18, 2017). More
specifically, the Federal Circuit determined that the
claims in the ’304 and ’132 patents are not directed
to an abstract idea. Id. at *3. By virtue of a number
of continuation filings, U.S. Patent No. 7,676,411
(Ex. 1001, “the ’411 patent”) is ultimately a
continuation of the application resulting in the ’132
and ’304 patents (Application No. 09/590,692).16
In related Board proceedings addressing the ’304
and ’132 patents, we followed the guidance from the
Federal Circuit decision noted above and determined
the claims in those patents to be patent eligible.
CBM2015- 00161, Paper 129, slip op. at 4–6 (PTAB
February 17, 2017); CBM2015- 00182, Paper 129,
slip op. at 18, 53–54 (PTAB February 28, 2017). The
claims at issue before us are remarkably similar to
those in the ’304 and ’132 patents. The claims are
perhaps closest to those in the ’304 patent, and with
respect to the question of whether the claims before
us are directed to an abstract idea, there is no
meaningful difference between the claims in the ’411
patent and those in the ’304 patent. Claim 1 from
the ’304 patent and claim 1 from the ’411 patent are
reproduced below to illustrate the similarities.
Claim 1 of the ’304 patent recites:
16 The ’304 patent resulted from a divisional filing of that
application.

223a
1. A method for displaying market
information relating to and facilitating
trading of a commodity being traded in an
electronic exchange having an inside market
with a highest bid price and a lowest ask
price on a graphical user interface, the
method comprising:
dynamically displaying a first indicator in one
of a plurality of locations in a bid display
region, each location in the bid display
region corresponding to a price level along
a common static price axis, the first
indicator representing quantity associated
with at least one order to buy the
commodity at the highest bid price
currently available in the market;
dynamically displaying a second indicator in
one of a plurality of locations in an ask
display region, each location in the ask
display region corresponding to a price
level along the common static price axis,
the second indicator representing quantity
associated with at least one order to sell
the commodity at the lowest ask price
currently available in the market;
displaying the bid and ask display regions in
relation to fixed price levels positioned
along the common static price axis such
that when the inside market changes, the
price levels along the common static price
axis do not move and at least one of the

224a
first and second indicators moves in the
bid or ask display regions relative to the
common static price axis;
displaying an order entry region comprising a
plurality of locations for receiving
commands to send trade orders, each
location corresponding to a price level
along the common static price axis; and
in response to a selection of a particular
location of the order entry region by a
single action of a user input device, setting
a plurality of parameters for a trade order
relating to the commodity and sending the
trade order to the electronic exchange.
’304 patent, 12:35–13:3.
Claim 1 of the ’411 patent recites:
1. A method of displaying market information
relating to and facilitating trading of a
commodity being traded on an electronic
exchange, the method comprising:
receiving, by a computing device, market
information for a commodity from an
electronic exchange, the market information
comprising an inside market with a current
highest bid price and a current lowest ask
price;

225a
displaying, via the computing device, a bid
display region comprising a plurality of
graphical locations, each graphical location in
the bid display region corresponding to a
different price level of a plurality of price
levels along a price axis;
displaying, via the computing device, an ask
display region comprising a plurality of
graphical locations, each graphical location in
the ask display region corresponding to a
different price level of the plurality of price
levels along the price axis;
dynamically displaying, via the computing device,
a first indicator representing quantity
associated with at least one trade order to buy
the commodity at the current highest bid price
in a first graphical location of the plurality of
graphical locations in the bid display region,
the first graphical location in the bid display
region corresponding to a price level
associated with the current highest bid price;
upon receipt of market information comprising a
new highest bid price, moving the first
indicator relative to the price axis to a second
graphical location of the plurality of graphical
locations in the bid display region, the second
graphical location corresponding to a price
level of the plurality of price levels associated
with the new highest bid price, wherein the
second graphical location is different from the

226a
first graphical location in the bid display
region;
dynamically displaying, via the computing device,
a second indicator representing quantity
associated with at least one trade order to sell
the commodity at the current lowest ask price
in a first graphical location of the plurality of
graphical locations in the ask display region,
the first graphical location in the ask display
region corresponding to a price level
associated with the current lowest ask price;
upon receipt of market information comprising a
new lowest ask price, moving the second
indicator relative to the price axis to a second
graphical location of the plurality of graphical
locations in the ask display region, the second
graphical location corresponding to a price
level of the plurality of price levels associated
with the new lowest ask price, wherein the
second graphical location is different from the
first graphical location in the ask display
region;
displaying, via the computing device, an order
entry region comprising a plurality of
graphical areas for receiving single action
commands to set trade order prices and send
trade
orders,
each
graphical
area
corresponding to a different price level along
the price axis; and

227a
selecting a particular graphical area in the order
entry region through a single action of a user
input device to both set a price for a trade
order and send the trade order having a
default quantity to the electronic exchange.
Ex. 1001, 12:23–13:16.
As seen above, the claims in the ’304 patent and
’411 patent each are directed to “[a] method for
displaying market information relating to and
facilitating trading of a commodity being traded in
an electronic exchange” and recite “dynamically
displaying” a “first indicator” in a “bid display
region” and a “second indicator” in an “ask display
region” along a “price axis.” Both claims also require
“an order entry region” including areas along the
“price axis” for receiving “single action” commands to
send trade orders and specify that the “single action”
of a user input device selecting one of those areas
sets parameters for the trade order and sends the
trade order to the electronic exchange.
Both claims also require relative movement
between the “indicators” and the “price axis.” The
main difference between the claims is the manner in
which the relative movement is defined. Claim 1 of
the ’304 patent recites that the “price axis” is a
“static price axis” having “price levels” that “do not
move and at least one of the first and second
indicators moves in the bid or ask display regions
relative to the common static price axis.” Claim 1 of
the ’411 patent defines relative movement of its price
axis in a slightly different manner, reciting that

228a
“upon receipt of market information comprising a
new highest bid price, moving the first indicator
relative to the price axis” and “upon receipt of
market information comprising a new lowest ask
price, moving the second indicator relative to the
price axis.” Simply stated, the main difference is
whether the “price axis” is “static” (’304 patent), or
requires relative movement of the indicators while
still being allowed to move itself (’411 patent).
As noted above, the Federal Circuit already
determined the claims of the ’304 patent are not
directed to an abstract idea and we followed that
guidance in our earlier decision addressing that
patent. With respect to the question of whether the
claims before us are directed to an abstract idea, I do
not think allowing movement of the price axis,
rather than requiring the price axis to remain static,
is enough to take something that was already
determined not to be abstract and cast it into the
realm of abstractness.
Accordingly, I would follow the Federal Circuit’s
guidance from Trading Technologies, as we did in
CBM2015-00161
and
CBM2015-00182,
and
determine that claims 1–28 of the ’411 patent are
eligible under § 101 because they are not directed to
an abstract idea.17

To the extent a different record in this proceeding could
have some bearing on the issue of whether these claims are
directed to an abstract idea, I note the lack of reliance by
Petitioner on specific facts in this record having such an effect.
17

229a
PETITIONERS:
Robert Sokohl
Lori Gordon
Richard Bemben
STERN, KESSLER, GOLDSTEIN & FOX
Rsokohl-ptab@skgf.com
Lgordon-ptab@skgf.com
Rbemben-ptab@skgf.com
John Phillips
FISH & RICHARDSON P.C.
CBM41919-0008CP1@fr.com
PATENT OWNER:
Erika H. Arner
Joshua L. Goldberg
Kevin D. Rodkey
Rachel L. Emsley
Cory Bell
FINNEGAN, HENDERSON, FARABOW, GARRET
& DUNNER, LLP
erika.arner@finnegan.com
joshua.goldberg@finnegan.com
kevin.rodkey@finnegan.com
rachel.emsley@finnegan.com
cory.bell@finnegan.com
See Pet. 16–17. For example, in this proceeding Petitioner’s
discussion of the alleged abstract idea to which the claims are
directed and supporting evidence is essentially identical to that
in CBM2015-00182. Compare Pet. 16–17, with CBM201500182, Paper 7, 16–17.

230a
Michael D. Gannon
Leif R. Sigmond, Jr.
Jennifer Kurcz
MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
gannon@mbhb.com
sigmond@mbhb.com
kurcz@mbhb.com
Steven F. Borsand
Jay Knobloch
TRADING TECHNOLOGIES INTERNATIONAL,
INC.
tt-patent-cbm@tradingtechnologies.com
jay.knobloch@tradingtechnologies.com

231a
APPENDIX E
Trials@uspto.gov
571.272.7822

Paper No. 47
Entered: August 7, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2016-00031
Patent No. 7,813,996 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
Opinion for the Board filed by PETRAVICK,
Administrative Patent Judge.

232a
Opinion dissenting filed by PLENZLER,
Administrative Patent Judge.
PETRAVICK, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation
Group, Inc., and TradeStation Securities, Inc.
(collectively, “Petitioner”) filed a Petition requesting
covered business method patent review of claims 1–
20 (the “challenged claims”) of U.S. Patent No.
7,813,996 B2 (Ex. 1001, “the ’996 patent”). Paper 2
(“Pet.”). Trading Technologies International, Inc.
(“Patent Owner”) filed a Preliminary Response.
Paper 11 (“Prelim. Resp.”). On August 8, 2016, we
instituted a covered business method patent review
(Paper 15, “Institution Decision” or “Inst. Dec.”)
based upon Petitioner’s assertion that claims 1–20
are directed to patent ineligible subject matter under
35 U.S.C. § 101. Inst. Dec. 24. Subsequent to
institution, Patent Owner filed a Patent Owner
Response (Paper 24, “PO Resp.”) and Petitioner filed
a Reply (Paper 29, “Pet. Reply”) to Patent Owner’s
Response. Pursuant to our authorization, Patent
Owner filed an additional submission addressing the
Federal
Circuit’s
holding
in
Technologies

233a
International, Inc., v. CQG, Inc., No. 2016-1616,
2017 WL 192716 (Fed. Cir. Jan. 18, 2017) (“CQG”)
(Paper 35) and Petitioner filed a reply to that
submission (Paper 36). Petitioner filed a Motion to
Exclude Evidence (Paper 37, “MTE”).
We held a joint hearing of this case and several
other related cases on May 3, 2017. Paper 46 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 328(a) and 37 C.F.R. § 42.73. For the
reasons that follow, we determine that Petitioner
has shown sufficiently that claims 1–20 of the ’996
patent are directed to patent ineligible subject
matter under 35 U.S.C. § 101.
B. Related Proceedings
The parties indicate numerous related U.S.
district court proceedings, including at least one
proceeding specifically directed to the ’996 patent.
Pet. 2–3; Paper 7, 1–5.
Numerous patents are related to the ’996 patent
and the related patents are or were the subject of
numerous petitions for covered business method
patent review and reexamination proceedings. As
noted above, the Federal Circuit has issued a nonprecedential decision, CQG, which addresses
whether claims of U.S. Patent Nos. 6,766,304 (“the
’304 patent”) and 6,772,132 (“the ’132 patent”) are
patent eligible under § 101. The ’996 patent at issue

234a
in this case is related to the ’132 and ’304 patents via
continuation and divisional filings.
C. Asserted Grounds
Petitioner contends that the challenged claims
are unpatentable under 35 U.S.C. § 101. Pet. 23–79.
D. The ’996 Patent
The ’996 patent is titled “Click Based Trading
with Intuitive Grid Display of Market Depth.” Ex.
1001, [54]. The invention of the ’996 patent “is
directed to the electronic trading of commodities.” Id.
at 1:14–15. The invention of the ’996 patent is a
graphical user interface (“GUI”), named the Mercury
display, and a method of using the Mercury display
to trade a commodity. Id. at Abstract, 3:3–8.
1. Conventional GUI
Before beginning our analysis of the claims for
patent-eligibility, a discussion of conventional
methods of trading is helpful. Figure 2 of the ’996
patent depicts a GUI. Ex. 1001, Fig. 2 (“the Fig. 2
GUI”). According to Patent Owner, the Fig. 2 GUI
illustrates the “widely accepted conventional wisdom
regarding” electronic trading. PO Resp. 10; see also
Ex. 2169 ¶ 55 (“GUI tools like the example shown in
Figure 2 were ubiquitous by the time of the
invention.”).
Figure 2 of the ’996 patent is reproduced below.

235a

The Fig. 2 GUI displays market information in
columns. See id. at 5:15–42. BidQty column 202
displays bid quantity, and BidPrc column 203
displays corresponding bid price levels. Id. at 5:34–
36. AskQty column 205 displays ask quantities, and
AskPrc column 204 displays corresponding ask price
levels. Id. at 5:36–38. The inside market (i.e., the
best (highest) bid price and quantity and the best
(lowest) ask price and quantity) is displayed in row
one. Id. at 5:13–15. Rows 2–5 display the market
depth, a list of next-best bids and asks. Id. at 5:18–
19.
Prices and quantities change dynamically based
on real time information from the market. Id. at
5:22–24. The inside market, however, is always
displayed in row 1, a fixed location. PO Resp. 11.
Christopher H. Thomas testifies that other prior art
GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being
displayed above the location for the best bid price).”
Ex. 2169 ¶ 56.

236a
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the
price or quantity columns.” Ex. 2169 ¶ 52; see
CBM2014-00133, Paper 18, 7–8. According to Patent
Owner,
these types of tools permitted “single action”
order entry that consisted of a trader
presetting a default quantity and then
clicking on a cell in the screen . . . to cause a
trade order message to be sent to the
exchange at the preset quantity and at the
price value associated with that cell.
CBM2014-00133, Paper 18, 8.
Other types of conventional trading GUIs used
order entry tickets to send trade orders to an
electronic exchange. PO Resp. 10. An order entry
ticket is “in the form of a window, with areas in
which the trader could fill out parameters for an
order, such as the price, quantity, an identification of
the item being traded, buy or sell, etc.” Ex. 2169 ¶
44; see also Ex. 1001, 2:35–45 (describing a trader
manually entering trade order parameters).
2. Mercury Display
The Mercury display is depicted in Figure 3,
which is reproduced below.

237a

Figure 3 of the ’996 patent illustrates an example of
the Mercury display with example values for trading
a commodity including prices, bid and ask quantities
relative to price, and trade quantities.
The Mercury display is like the Fig. 2 GUI in that
both display market information in columns. Column
1005 is a static price axis, which includes a plurality
of price values for the commodity. See Ex. 1001 at
7:33–35. The ’996 patent explains that “[t]he column
does not list the whole prices (e.g. 95.89), but rather,
just the last two digits (e.g. 89).” Id. at 7:35–36.
Columns 1003 and 1004 are aligned with the static
price axis and dynamically display bid and ask

238a
quantities, respectively, for the corresponding price
values of the static price axis. See id. at 7:33–47. The
’996 patent explains that “[t]he exchange sends the
price, order and fill information to each trader on the
exchange” and that “[t]he physical mapping of such
information to a screen grid can be done by any
technique known to those skilled in the art.” Id. at
4:56–64.
The ’966 patent states that:
How far into the market depth the present
invention can display depends on how much
of the market depth the exchanges provides.
Some exchanges supply an infinite market
depth, while others provide no market depth
or only a few orders away from the inside
market. The user of the present invention can
also chose how far into the market depth to
display on his screen.
Id. 4:66–5:5.
Unlike the prior art Fig. 2 GUI, the values in the
price column of the Mercury Display “are static; that
is, they do not normally change positions unless a recentering command is received.” Id. at 7:42–44. The
bid quantities and ask quantities move up and down
as the market changes, and, thus, the location of the
inside market moves up and down. See id. at 7:44–
46.
Similar to the prior art Fig. 2 GUI, a trader
executes trades using the Mercury display by first

239a
setting the desired commodity and default
parameters, such as default quantity. Id. at 8:64–
9:11 and Fig. 6, step 1302. Column 1002 contains
various parameters and information used to execute
trades, such as the default quantity displayed in cell
1016. See id. at 7:65– 8:32. A trader executes trades
using the Mercury display by first setting the
desired commodity and default parameters, such as
default quantity. See id. at 8:64–9:11; Fig. 6, step
1302. Then, a trader can send a buy order or sell
order to the market with a single action, such as
clicking on the appropriate cell in column 1003 or
1004. See id. at 9:46–11:36; Fig. 6, steps 1306–1315.
For example, a left click on “20” in column 1004,
shown in Figure 3, will send an order to the market
to buy 17 lots (i.e., the default quantity set in cell
1016 of column 1002) at a price of 90. See id. at 9:52–
54.
E. Illustrative Claim
As noted above, Petitioner challenges claims 1–
20. Claim 1 is the sole independent claim, and is
reproduced below:
1. A computer readable medium having
program code recorded thereon for execution
on a computer having a graphical user
interface and a user input device, the
program code causing a machine to perform
the following method steps:
receiving market information for a
commodity from an electronic exchange, the

240a
market information comprising an inside
market with a current highest bid price and a
current lowest ask price;
receiving an input from a user that
designates a default quantity to be used for a
plurality of trade orders;
dynamically displaying a first indicator in
one of a plurality of locations in a bid display
region, each location in the bid display region
corresponding to a price level along a static
price axis, the first indicator representing
quantity associated with at least one order to
buy the commodity at the current highest bid
price;
dynamically displaying a second indicator
in one of a plurality of locations in an ask
display region, each location in the ask
display region corresponding to a price level
along the static price axis, the second
indicator representing quantity associated
with at least one order to sell the commodity
at the current lowest ask price;
displaying the bid and ask display regions
in relation to a plurality of price levels
arranged along the static price axis such that
when the inside market changes, the price
levels along the static price axis do not
change positions and at least one of the first
and second indicators moves in the bid or ask

241a
display regions relative to the static price
axis;
displaying an order entry region aligned
with the static price axis comprising a
plurality of areas for receiving commands
from the user input device to send trade
orders, each area corresponding to a price
level of the static price axis; and
receiving a plurality of commands from a
user, each command sending a trade order to
the electronic exchange, each trade order
having an order quantity based on the default
quantity without the user designating the
default quantity between commands, wherein
each command results from selecting a
particular area in the order entry region
corresponding to a desired price level as part
of a single action of the user input device with
a pointer of the user input device positioned
over the particular area to both set an order
price parameter for the trade order based on
the desired price level and send the trade
order to the electronic exchange.
Ex. 1001, 11:45–12:24.
ANALYSIS
A. Claim Construction
In a covered business method patent review,
claim terms are given their broadest reasonable

242a
interpretation in light of the specification in which
they appear and the understanding of others skilled
in the relevant art. See 37 C.F.R. § 42.300(b); see
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144 (2016) (concluding the broadest reasonable
construction “regulation represents a reasonable
exercise of the rulemaking authority that Congress
delegated to the Patent Office”).
Applying that standard, we interpret the claim
terms of the ’996 patent according to their ordinary
and customary meaning in the context of the
patent’s written description. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any
special definitions for claim terms must be set forth
with reasonable clarity, deliberateness, and
precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed.
Cir. 1994). Petitioner proposes constructions for two
claim limitations. Pet. 21–22. Patent Owner does not
propose any explicit claim construction. For purposes
of this Decision, we determine that no particular
term requires explicit construction.
B. Covered Business Method Patent
Section 18 of the AIA1 provides for the creation of
a transitional program for reviewing covered
business method patents. Section 18 limits review to
persons or their privies who have been sued or
charged with infringement of a “covered business

1 Leahy-Smith America Invents Act, Pub. L. No. 112–29,
125 Stat. 284, 329 (2011) (“AIA”).

243a
method patent,” which does not include patents for
“technological inventions.” AIA § 18(a)(1)(B), (d)(1);
see 37 C.F.R. § 42.302. In compliance with 37 C.F.R.
§ 42.302(a), Petitioner certifies that it has been sued
for infringement of the ’996 patent. Pet. 12.
Based on the record before us, we are apprised of
no reason to change the determination in our
Institution Decision that at least claim 1 of the ’996
patent is directed to a covered business method. Inst.
Dec. 9–14.
1. “Method or Corresponding Apparatus for
Performing Data Processing or Other
Operations
Used
in
the
Practice,
Administration or Management of a
Financial Product or Service”
The statute defines a “covered business method
patent” as
[a] patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the
practice, administration, or management of a
financial product or service.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A covered
business method patent can be broadly interpreted
to encompass patents claiming activities that are
financial in nature. Transitional Program for
Covered Business Method Patents—Definitions of
Covered Business Method Patent and Technological
Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14,

244a
2012); Blue Calypso, LLC v. Groupon, Inc., 815 F.3d
1331, 1338–41 (Fed. Cir. 2016) (determining that a
patent was a covered business method patent
because it claimed activities that are financial in
nature); Unwired Planet, LLC v. Google, Inc., 841
F.3d 1376, n. 5 (Fed. Cir. 2016) (stating that “we
endorsed the ‘financial in nature’ portion of the
standard as consistent with the statutory definition
of ‘covered business method patent’ in Blue
Calypso”), Versata Development Group, Inc. v. SAP
America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir.
2015) (“[The statute] on its face covers a wide range
of finance-related activities.”).
A patent need have only one claim directed to a
covered business method to be eligible for review. 77
Fed. Reg. at 48,736 (Response to Comment 8). We
take claim 1 as representative.
Petitioner contends that “the ’996 patent claims
expressly require the performance of a financial
transaction, e.g., by ‘receiving market information
for a commodity,’ and ‘sending a trade order to the
electronic exchange.’” Pet. 14 (citing claim 1 of the
’996 patent).
Patent Owner does not dispute that the claims
are directed to a financial product or service and,
instead, contends that the ’996 patent is not a
covered business method patent because the claims
are not directed to a method for performing business
operations. See PO Resp. 57–66; id. at 59 n. 3
(“CBMs include only claims to certain method for
performing business operations”). Patent Owner

245a
contends that the claims of the ’996 patent are
directed to a device and not a data process or
business method claim. Id. at 61.
A covered business method patent is not limited
to only patents that claim a method, as opposed to a
device. Covered business method patents include a
patent that claims “a method or corresponding
apparatus.” AIA § 18(d)(1); see 37 C.F.R. § 42.301(a).
Claim 1 recites: “A computer readable medium
having program code recorded thereon for execution
on a computer having a graphical user interface and
a user input device, the program code causing a
machine to perform the following method steps.” Ex.
1001, 11:45–49. As Petitioner’s point out, claim 1
recites that the machine performs method steps,
such as receiving market information, displaying
indicators of the market information, and sending a
trade order to the electronic exchange. Pet. 14. The
specification of the ’966 patent discloses performing
the method steps by processing information (i.e.,
data). See Ex. 1001, 4:58–62 (“[t]he present invention
processes this information and maps it . . . to a
screen.”); 10:58–60 (“[t]he process for placing trade
orders using the Mercury display”).
Electronic trading is a financial service or
activity. Tradable objects are financial products. A
method of computing and displaying financial
information for a tradable object on a graphical user
interface for use in electronic trading is a method for
performing data processing or other operations used
in the practice, administration, or management of a
financial product or service. A computer readable

246a
medium having program code that causes a machine
to perform such a method is a corresponding
apparatus.
Patent Owner disputes that ’996 patent claims
data processing. PO Resp. 61–66. Patent Owner
argues that the statute requires that the “data
processing” cause a significant change in the data,
and that data processing that merely displays the
data, like the data processing disclosed in the ’055
patent, is not significant. Id. Patent Owner’s
argument is based upon the assumption that “data
processing” in the statute is interpreted according to
the definition of “data processing” found in the
glossary for class 705 of the United States Patent
Classification System. See id at 62. Patent Owner,
however, does not sufficiently explain why this
definition is controlling, as opposed to the plain
meaning of “data processing.” We, thus, are not
persuaded that “data processing” as recited by the
statute precludes data processing for the purpose of
displaying the data. As pointed out above, the ’996
patent,
itself,
discloses
processing
market
information received from an electronic exchange.
Ex. 1001, 4:58–62, 10:58–60. We, thus, are not
persuaded that the ’966 patent does not claim
“performing data processing . . . used in the practice,
administration, or management of a financial
product or service” (AIA § 18(d)(1)).
In any event, the statute does not limit covered
business method patents to only those that claim
methods for performing data processing used in the
practice, administration, or management of a

247a
financial product or service. It includes methods for
performing “other operations” used in the practice,
administration, or management of a financial
product or service. Patent Owner’s arguments imply
that “other operations” must be “business
operations.” See e.g., PO Resp. 59, n. 3. The statute
states that the “other operations” are those that are
“used
in
the
practice,
administration,
or
management of a financial product or financial
service.” AIA § 18(d)(1). There appears to be no
disagreement that the claimed method steps are
operations used in the practice, administration, or
management of a commodity or trading a commodity
on an electronic exchange, e.g., a financial service.
See PO Resp. 61–66. The ’996 patent, therefore, at
least claims “other operations used in the practice,
administration, or management of a financial
product or financial service” (AIA § 18(d)(1)).
Patent Owner additionally contends that the
Legislative History confirms that the claimed
invention is not a covered business method. PO
Resp. 70–72. We are not persuaded by Patent
Owner’s argument. Although the legislative history
includes certain statements that certain novel
software tools and graphical user interfaces that are
used by the electronic trading industry worker are
not the target of § 18 of the AIA (see Ex. 2126,
S5428, S5433), the language of the AIA, as passed,
does not include an exemption for user interfaces for
commodities from covered business method patent
review. Indeed, “the legislative debate concerning
the scope of a CBM review includes statements from

248a
more than a single senator. It includes inconsistent
views . . . .” Unwired Planet, 841 F.3d at 1381. For
example, in contrast to the statements cited by
Patent Owner, the legislative history also indicates
that “selling and trading financial instruments and
other securities” is intended to be in the scope of
covered business method patent review. See Ex.
2126, S5432 (statements of Sen. Schumer). “[T]he
legislative history cannot supplant the statutory
definition actually adopted. . . . The authoritative
statement of the Board’s authority to conduct a CBM
review is the text of the statute.” Unwired Planet,
841 F.3d at 1381. Each claimed invention has to be
evaluated individually to determine if it is eligible
for a covered business method patent review. A
determination of whether a patent is eligible for a
covered business method patent review under the
statute is made on a case-by-case basis. 37 C.F.R. §
42.301(b).
For the reasons stated above, and based on the
particular facts of this proceeding, we conclude that
the ’996 patent “claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service” and
meets that requirement of § 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
Even if a patent includes claims that would
otherwise be eligible for treatment as a covered
business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as

249a
defined by 37 C.F.R. §42.301(b). The definition of
“covered business method patent” in § 18(d)(1) of the
AIA does not include patents for “technological
inventions.”
To determine whether a patent is for a
technological invention, we consider “whether the
claimed subject matter as a whole [1] recites a
technological feature that is novel and unobvious
over the prior art; and [2] solves a technical problem
using a technical solution.” 37 C.F.R. § 42.301(b).
The following claim drafting techniques, for
example, typically do not render a patent a
“technological invention”:
(a) Mere recitation of known technologies,
such as computer hardware, communication
or computer networks, software, memory,
computer-readable storage medium, scanners,
display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012).

250a
Both prongs must be satisfied in order for the
patent to be excluded as a technological invention.
See Versata, 793 F.3d at 1326–7; Apple Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016).
Petitioner first contends that rather than reciting
a technical feature that is novel or unobvious over
the prior art, the claims of the ’996 patent generally
recite trading software that is implemented on a
conventional computer. Pet. 17–19. Petitioner
additionally asserts that the claims of the ’996
patent do not fall within § 18(d)(1)’s exclusion for
“technological inventions” because the ’996 patent
does not solve a technical problem using a technical
solution. Id. at 19–21. Patent Owner disagrees (PO
Resp. 66– 69), but fails to explain sufficiently how
the claimed subject matter recites a technological
feature that is novel and unobvious over the prior
art or solves a technical problem using a technical
solution.
We are persuaded by Petitioner’s contentions
that at least claim 1 of the ’996 patent does not recite
a novel and non-obvious technological feature. The
specification of the ’996 patent treats as well-known
all potentially technological aspects of the claims.
For example, the ’996 patent discloses that its
system can be implemented “on any existing or
future terminal or device” (Ex. 1001, 4:2–5), each of
which is known to include a display, and discloses
that the input device can be a mouse (id. at 4:6–9),
which is a known input device. The ’996 patent
further discloses that “[t]he scope of the present
invention is not limited by the type of terminal or

251a
device used.” Id. at 4:5–6. The ’996 patent explains
that the programming associated with the GUI is
insignificant. See, e.g., Ex. 1001, 4:58–65 (explaining
that “present invention processes [price, order, and
fill] information and maps it through simple
algorithms and mapping tables to positions in a
theoretical grid program” and “[t]he physical
mapping of such information to a screen grid can be
done by any technique known to those skilled in the
art”); see also PO Resp. 65 (“the claimed invention is
agnostic to what specific algorithm is used for
processing or mapping the data.”).
Given the above, we determine that claim 1 does
not recite a technological feature that is novel and
unobvious over the prior art. Because both prongs
must be satisfied for a patent to be excluded from
covered business method patent review for being a
technological invention, we find that the ’996 patent
is eligible for a covered business method patent
review for at least the reason that claim 1 fails to
recite a technological feature that is novel and
unobvious.
Notwithstanding our determination above, we
also are persuaded by Petitioner that the ’996 patent
does not solve a technical problem with a technical
solution.
Petitioner notes that the ’996 patent “purports to
minimize the risk of the market price changing
before the trade is executed, such that the trader
‘misses the price.’” Pet. 19 (citing Ex. 1001, 2:55–57;
2:64–67). Petitioner argues that “contending with

252a
price fluctuations in a market is not a technological
problem.” Id. at 19–20. Petitioner contends that “the
’996 patent does not offer a technical solution”
because “[i]t does not claim a more accurate mouse
or a computer that responds faster.” Id. at 20.
Patent Owner contends that the ’996 patent
solves the problem of a user missing an intended
price because a price level changed as the user tried
to click to send an order at an intended price level in
a GUI tool. See PO Resp. 12 (citing Ex. 2169, 2195,
2212–2214, 2233, 2411, 2412, 2413).
Patent Owner’s argument is not persuasive. The
problem of missing an intended price because the
price changes just as a trader clicks on the price is
not disclosed in the ’996 patent. The ’996 patent
discloses that exchanges are volatile and move
rapidly and that to profit a trader must react
quickly. Ex. 1001, 2:1–2.
To profit in these markets, traders must be
able to react quickly. A skilled trader with the
quickest
software,
the
fastest
communications, and the most sophisticated
analytics can significantly improve his own or
his firm’s bottom line. The slightest speed
advantage can generate significant returns in
a fast moving market. In today’s securities
markets, a trader lacking a technologically
advanced interface is at a severe competitive
disadvantage.

253a
Id. at 2:2–10. According to the ’996 patent,
approximately 80% of the total time it takes to place
an order
is attributable to the time required for the
trader to read the prices displayed and to
enter a trade order. The present invention
provides a significant advantage during the
slowest portion of the trading cycle–while the
trader manually enters his order.
Id. at 2:26–38. “The more time a trader takes
entering an order, the more likely the price on which
he wanted to bid or offer will change or not be
available in the market” because “[t]he market is
fluid as many traders are sending orders to the
market simultaneously.” Id. at 2:45–49. “If a trader
intends to enter an order at a particular price, but
misses the price because the market moved before he
could enter the order, he may lose hundreds,
thousands, even millions of dollars.” Id. at 2:55–58;
see also id. at 3:1–5. “The inventors have developed
the present invention which overcomes the
drawbacks of the existing trading systems and
dramatically reduces the time it takes for a trader to
place a trade when electronically trading on an
exchange.” Id. at 2:64–67.
As can be seen from the above, the problem
disclosed in the ’996 patent is the time it takes for a
trader to manually enter trader orders on a market
or exchange that is rapidly changing, so as to make a
profit. As Petitioner points out, this is a financial
issue or a business problem, not a technical problem.

254a
Pet. 19–20. If the market or exchange did not rapidly
change, then there would be no need for a trader to
enter orders rapidly or for a GUI to accomplish such.
We are persuaded by Petitioner that the ’996 patent
does not solve a technical problem.
Further, as discussed above, claim 1 requires the
use of only known technology, and we are persuaded
by Petitioner that the ’996 patent does not provide a
technical solution. Given this, we determine that at
least claim 1 does not solve a technical problem
using a technical solution and at least claim 1 does
not satisfy the second prong of 37 C.F.R. § 42.301(b).
3. Conclusion
In view of the foregoing, we conclude that the
’996 patent is a covered business method patent
under AIA § 18(d)(1) and is eligible for review using
the transitional covered business method patent
program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–20 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 23–36. Patent Owner disagrees. PO Resp.
9–57.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and

255a
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that
“claims 1–20 of the ’996 patent are invalid because
they encompass subject matter that does not fall into
any of the four statutory classes of § 101.” Pet. 35.
Claims 1–20 recite a “computer readable medium
having program code recorded thereon.” Petitioner
contends that “the BRI of ‘medium,’ as used in
claims 1–20 of the ’996 patent . . . is broad enough to
cover substances ‘such as wires, air, or a vacuum’
through which transitory electrical signals can
propagate.” Id. (citing In re Nuijten, 550 F.3d 1346,
1352 (Fed. Cir. 2007)); Pet. Reply 22– 25. In our
Institution Decision, we noted that our construction
was preliminary and specifically indicated that “[t]he
broadest reasonable interpretation, in light of the
specification, of ‘recorded’ is an issue that requires
further development of the record.” Inst. Dec. 9.
Patent Owner responds that there is no evidence
to support Petitioner’s contention that one skilled in
the art would have understood “computer readable
medium having program code recorded thereon” to
encompass a signal at the time of the invention. PO
Resp. 56–57. Petitioner responds to Patent Owner’s
contentions by simply asserting that “the Board
correctly found that under the BRI a ‘computer
readable medium’ encompasses transitory media,”
and that “[o]ther computer science definitions of the
term confirm that ‘record’ does not imply storing on
a physical device and, contrary to TT’s expert’s

256a
statements, is interchangeable with ‘encode.’” Pet.
Reply 22–24.
Petitioner’s response is unhelpful. Petitioner cites
to a single dictionary definition for a definition of
just the term “record.” Ex. 1043, 3. Petitioner,
however, fails to offer evidence or persuasive
argument as to how one skilled in the art would have
understood the phrase “computer readable medium
having program code recorded thereon.” At oral
hearing, when asked why no evidence was provided
in this regard, Petitioner had no explanation other
than “it would be difficult . . . because this is a term
of art in the patent field” and “you can[not] go to an
IEEE dictionary and find necessarily a dictionary
definition that would be helpful here.” Tr. 71:4–10.
Accordingly, on this record, we are not persuaded
by Petitioner that at the time of the invention one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon” as encompassing transitory, propagating
signals.
Even if claims 1–20 fit within one of the
categories of patent-eligibility, we are persuaded
that claims 1–20 do not recite patent-eligible subject
matter for the reasons that follow.
1. Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:

257a
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and
requirements of this title.
There are, however, three judicially created
exceptions to the broad categories of patent-eligible
subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice Corp. Pty. Ltd.
v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
132 S. Ct. 1289, 1293 (2012). Although an abstract
idea, itself, is patent-ineligible, an application of the
abstract idea may be patent-eligible. Alice, 134 S. Ct.
at 2355. Thus, we must consider “the elements of
each claim both individually and ‘as an ordered
combination’ to determine whether the additional
elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. (citing Mayo, 132 S.
Ct. at 1297–98). The claim must contain elements or
a combination of elements that are “sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
2. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over
the prior art’ to determine if the claim’s ‘character as
a whole’ is directed to excluded subject matter.”
Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d

258a
1253, 1257 (Fed. Cir. 2016) (quoting Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016); see also Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016). “The § 101
inquiry must focus on the language of the Asserted
Claims themselves.” Synopsys, Inc. v. Mentor
Graphics Corp., 839 F.3d 1138, 1149 (Fed. Cir.
2016); see also Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed.
Cir. 2013) (admonishing that “the important inquiry
for a § 101 analysis is to look to the claim”); Content
Extraction & Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir.
2014) (“We focus here on whether the claims of the
asserted patents fall within the excluded category of
abstract ideas.”).
According to Petitioner, the challenged claims
“are directed to the abstract, fundamental economic
practice of trading based on displayed market
information and user input.” Pet. 24. This is
consistent with claim 1 of the ’996 patent. Claim 1 of
the ’996 patent recites a “computer readable medium
having program code recorded thereon for execution
on a computer having a graphical user interface and
a user input device” to perform various method steps
involving market information. Ex. 1001, 11:45–49.
Claim 1 recites two steps of displaying market
information, bid and ask quantities, in regions along
a static price axis. Id. at 11:56–67. The market
information is an indicator of an order to buy at the
highest bid price and an indicator of an order to sell
at the lowest ask price. Id. In other words, the

259a
displayed market information is the inside market.
Claim 1 does not require displaying any indicators
other than those at the inside market or that the
price axis display price levels other than those
corresponding to the inside market. See id. at 4:64–
5:5 (explaining the number of price levels displayed
depends on the information provided and that some
exchanges provide no market depth information ).
Claim 1 then recites a step of moving the market
information along the price axis as the market
changes. Id. at 12:1–7. Claim 1 finally recites a step
of displaying an order entry region and a step of
receiving user commands to set parameters for a
trade order and send the trade order to an exchange.
Id. at 12:8–24.
As can be seen from its steps, the focus of claim 1
is placing trade orders based on displayed market
information (i.e., the inside market), as well as
updating the market information. This focus is
consistent with the ’996 patent’s statement that
“[t]he present invention is directed to the electronic
trading of commodities. . . . It facilitates the display
of and the rapid placement of trade orders.” Id. at
1:14–20. The focus of claim 1 is also consistent with
the problem disclosed by the ’996 patent, which is a
trader missing an intended price because the market
changed during the time required for a trader to
read the prices displayed and to manually enter an
order. Id. at 2:41–60.
Claim 1 does not recite any limitation that
specifies how the computer implements the steps or
functions for using a GUI. For example, claim 1

260a
recites displaying an arrangement of the market
information on the GUI. The bid quantities are
displayed in the bid region at locations that
correspond to prices along a static price axis and ask
quantities are displayed in an ask region at locations
that correspond to prices along the static price axis.
Id. at 11:56–67. Claim 1 does not specify how the
computer maps the bid quantities, ask quantities,
and price axis to the display. The ’996 patent also
does not disclose an unconventional or improved
method of mapping the bid quantities, ask
quantities, and price axis to the display. It states
that “[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art” and that “[t]he present
invention is not limited by the method used to map
the data to the screen display.” Id. at 4:62–65; see
also PO Resp. 65 (“the claimed invention is agnostic
to what specific algorithm is used for processing or
mapping the data.”).
The ’996 patent discloses that at least 60
exchanges throughout the world utilize electronic
trading and discloses that it is known that electronic
trading includes analyzing displayed market
information and updated market information to send
trade orders to an exchange. See id. at 1:24–2:60.
Similarly, Patent Owner’s declarant, Mr. Thomas,
indicates that traders in prior trading systems,
including pre-electronic open outcry systems, which
have been used for over one hundred years, send
trade orders to an exchange based on price, such as

261a
the inside market prices or other prices. Ex. 2169
¶¶ 30, 56, and 57. Mr. Thomas testifies that
[i]n the trading pit, traders utilize shouting
and hand signals to transfer information
about buy and sell orders to other traders. To
avoid confusion, the inside market prices
were the focus, and traders could only shout
and signal regarding their interest at the best
bid/offer or at a price that improves the best
bid/offer.
Ex. 2169 ¶ 30. The ’996 patent discloses that
electronic exchanges are known to provide the
market depth for display that is the inside market
and a few orders away from the inside market. Ex.
1001, 4:66–5:5. Further, Exhibit 1020 discloses that
long before the ’996 patent, traders maintained
books that plotted bids and asks (e.g., the market
depth) along a price axis. See Ex. 1020, 44–46.
Figure 4-2 of Exhibit 1020 is reproduced below.

262a

Figure 4-2 depicts a page of a book of a trader. Id.
at 44–45. Orders to buy or sell a commodity are
plotted along a prices axis. For example, Figure 4-2
shows the best bid at 22¼ and the best ask at 22Ɏ.
Id. at 44.
Given this, we determine that placing an order
based on displayed market information, such as the
inside market and few other orders, as well as
updating the market information is a fundamental
economic and conventional business practice.
The claims at issue here are like the claims at
issue in Affinity Labs. In Affinity Labs, the claim at
issue recited an application that enabled a cellular
telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the
cellular telephone was enabled to transmit a request

263a
for the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the
claims at issue in Apple, Inc. v. Ameranth, Inc., 842
F.3d 1229 (Fed. Cir. 2016). In Ameranth, the claim
at issue recited a GUI that displayed menu items in
a specific arrangement, a hierarchical tree format.
Menu items were selected to generate a second menu
from a first menu. Ameranth 842 F.3d at 1234. In
both Affinity Labs and Ameranth, the court
determined that the claims were not directed to a
particular way of programming or designing the
software, but instead merely claim the resulting
systems. The court thus determined that the claims
were not directed to a specific improvement in the
way computers operate. Affinity Labs, 838 F.3d at
1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not
directed to specific improvements in the way the
computers operate. “Though lengthy and numerous,
the claims [that] do not go beyond requiring the
collection, analysis, and display of available
information in a particular field, stating those
functions in general terms, without limiting them to
technical means for performing the functions that
are arguably an advance over conventional computer
and network technology” are patent ineligible. Elec.
Power Grp., 830 F.3d at 1351. “Generally, a claim
that merely describes an ‘effect or result dissociated
from any method by which [it] is accomplished’ is not
directed
to
patent-eligible
subject
matter.”
Ameranth, 842 F.3d at 1244 (quoting Internet
Patents Corp. v. Active Network, Inc., 790 F.3d 1343,
1348 (Fed. Cir. 2015)).

264a
Claim 1 of the ’996 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR
Holdings, the court determined that the claims did
not embody a fundamental economic principle or a
longstanding commercial practice. The claims at
issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a
problem “particular to the Internet.” DDR Holdings,
773 F.3d at 1257. The court also determined that the
invention was “necessarily rooted in computer
technology in order to overcome a problem
specifically arising in the realm of computer
networks” and that the claimed invention did not
simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue
was directed to a data storage and retrieval system
for a computer memory. Enfish, 822 F.3d at 1336–
37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business
practices. Id. at 1338. Here, in contrast, claim 1 is
directed to a fundamental economic principle or a
longstanding commercial practice and not directed to
an improvement in the computer but simply to the
use of the GUI in a method of placing an order based
on displayed market information, as well as
updating market information.
Further, claim 1 of the ’996 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d. 1299 (Fed. Cir. 2016).

265a
In McRO, the court held that claims that recited “a
specific asserted improvement in computer
animation” were not directed to an unpatentable
abstract idea because they go “beyond merely
organizing existing information into a new form or
carrying out a fundamental economic practice.”
McRO, 837 F.3d at 135. Here, the claims merely
organize existing market information. As discussed
above, the claims merely reorganize market
information so that the focus of a trader does not
normally move.
We are persuaded by Petitioner that the Federal
Circuit’s non-precedential decision in CQG is not
controlling precedent in this proceeding. See Pet.
Reply 2–9; Paper 35, 1–5; Paper 36, 1–3. Petitioner
was not a party in the suit involved in CQG, and
CQG involved related but different patents. The
Federal Circuit was not placed in a position to
determine the merits of the Petitioner’s challenge to
the patent eligibility of the claims under 35 U.S.C. §
101. Petitioner’s challenge to the patent eligibility of
the claims is based on a construction of the claims
and evidence submitted in this proceeding, such as
different evidence of what was routine and
conventional. See Pet. Reply 2–9 (discussing the
differences between the records in CQG and here).
The determination of whether the claims are patent
eligible under 35 U.S.C. § 101 should focus on the
record here. The patent-eligibility determination
reached in CQG was based on the different record
before the District Court.

266a
Treating CQG as controlling of the patenteligibility of claims 1–20, notwithstanding a different
outcome based on the record developed in this
proceeding involving a different party and relying on
different evidence, in effect, treats CQG as
precedential to the patent-eligibility question in this
proceeding. The Federal Circuit did not in fact
designate CQG as precedential. The presumption
that CQG controls patent-eligibility of the claims,
notwithstanding a possible different outcome based
on a different set of facts and evidence, necessarily
follows from the view that the question of patenteligibility is a pure question of law. However, if the
question of patent-eligibility is a question of law
based on underlying facts, then underlying facts
have the potential of controlling the ultimate
determination. Likewise, a determination of
obviousness under 35 U.S.C § 103 may depend on
which prior art is applied against the claims. See
Novartis AG, LTS v. Noven Pharmaceuticals Inc.,
853 F.3d 1289, 1293–94 (Fed. Cir. 2017) (“It is
unsurprising that different records may lead to
different findings and conclusions.”).
3. Inventive Concept
To be patent eligible, a claim directed to an
abstract idea must recite additional elements that
constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Id. at 2355 (quoting Mayo, 132

267a
S. Ct. at 1297–98). The additional elements must be
more than “well-understood, routine, conventional,
activity.” Mayo, 132 S. Ct. at 1298.
Petitioner contends that claim 1 does not recite
an inventive concept. Pet. 27–31; Pet. Reply 10–17.
Patent Owner disagrees. PO Resp. 31–35.
First, claim 1 of the ’996 patent recites a
“computer readable medium having program code
recorded thereon for execution on a computer having
a graphical user interface and a user input device” to
perform various method steps involving market
information. Ex. 1001, 11:45–49. The ’996 patent
discloses that its system can be implemented “on any
existing or future terminal or device” (id. at 4:2–5),
which are known to include displays, and discloses
that the input device can be a mouse (id. at 4:6–9),
which is a known input device. A mere recitation of a
GUI does not make the claim patent eligible. See
Affinity Labs, 838 F.3d at 1257–58; Ameranth, 842
F.3d at 1236–1242; Internet Patent Corp., 790 F.3d
at 1348–1349; Pet. Reply 14– 17. A recitation of a
generic GUI merely limits the use of the abstract
idea to a particular technological environment.
“[L]imiting the field of use of the abstract idea to a
particular existing technological environment does
not render the claims any less abstract.” Affinity
Labs, 838 F.3d at 1259 (citing Alice, 134 St. Ct. at
2358; Mayo, 132 S. Ct. at 1294).
Second, claim 1 recites steps of displaying
indicators representing a quantity associated with a
highest order to buy the commodity or lowest order

268a
to sell the commodity in a bid display region or ask
display region, respectively and moving the indictors
upon receipt of market information. Ex. 1001, 11:56–
12:7. Locations in the bid or ask display region
correspond to a price level along a price axis. Id.
Essentially, these limitations require plotting the
inside market along a price axis. Plotting
information along an axis is a well-understood,
routine, conventional activity. See Ex. 1020, 44– 46.
The Fig. 2 GUI includes regions for displaying
indicators of bid and ask quantities and regions for
displaying corresponding prices. For example, the
Fig. 2 GUI displays the bid quantity in BidQty
column 202 at locations that correspond to the bid
prices in BidPrc column 203. Ex. 1001, 5:17–22. This
is akin to plotting information BidQty and AskQty
along a price axis. Further, Mr. Thomas testifies
that prior GUIs, which are similar to the Fig. 2 GUI,
“displayed the locations for the best bid and ask
prices such that the prices were displayed vertically
(e.g., with the location for the best ask price being
displayed above the location for the best bid price).”
Ex. 2169 ¶ 59; see also Ex. 1004, Fig. 2a (depicting a
trading screen having a central order price column
and ask and bid orders in adjacent corresponding
columns). Displaying the best ask price above a best
bid price would be displaying a common column of
price levels. The ’996 patent states:
[T]he physical mapping of such information to
a screen grid can be done by any technique
known to those skilled in the art. The present

269a
invention is not limited by the method used to
map the data to the screen display.
Ex. 1001, 4:62–65. These steps of claim 1 require
merely a rearrangement of market information that
was known to be displayed in corresponding columns
on a GUI. CyberSource Corp. v. Retail Decisions,
Inc., 654 F.3d 1366, 1370 (Fed. Cir. 2011) (holding
“[t]he mere collection and organization of data”
patent-ineligible).
Third, claim 1 also recites steps of displaying an
order entry region for receiving commands to send
trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with
a single action. Ex. 1001, 12:8–24. Methods that
permit single action entry of an order, which has
preset default parameters, by clicking on a cell in a
display of a GUI are known technology. See Ex. 2169
¶¶ 45, 52, 53. The additional elements must be more
than
“well-understood,
routine,
conventional
activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not
transform the nature of the claim into a patenteligible application. They do not add significantly
more to the abstract idea or fundamental economic
practice. Contrary to Patent Owner’s argument, the
claim simply recites the use of a generic GUI with
routine
and
conventional
functions.
Even
considering all of the elements as an ordered
combination, the combined elements also do not
transform the nature of the claim into a patenteligible application. Indeed, as discussed above, the

270a
Fig. 2 GUI disclosed in the ’996 patent includes a
similar combination of elements.
For the reasons discussed above, claim 1 of the
’996 patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101. We also have
considered the other claims of the ’996 patent and,
for similar reasons, the claims 2–20 are not directed
to patent eligible subject matter.
D. Petitioner’s Motion to Exclude
Petitioner moves to exclude various ones of
Patent Owner’s Exhibits. MTE 2–10. Because the
outcome of this trial does not change based on
whether or not we exclude those exhibits, we dismiss
Petitioner’s Motion to Exclude as moot.
CONCLUSION
For the foregoing reasons, we determine that
Petitioner has shown, by a preponderance of the
evidence, that claims 1–20 of the ’996 patent are
patent-ineligible under 35 U.S.C. § 101.
ORDER
For the reasons given, it is:
ORDERED that claims 1–20 of the ’996 patent
are patent-ineligible under 35 U.S.C. § 101;
FURTHER ORDERED that Petitioner’s Motion
to Exclude Evidence is dismissed; and

271a
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.

272a
Trials@uspto.gov
571.272.7822

Paper No. 47
Entered: August 7, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
Case CBM2016-00031
Patent No. 7,813,996 B2
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
PLENZLER, Administrative Patent Judge,
dissenting.

273a
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
Although I agree that the ’996 patent is directed
to a covered business method, I do not join the
majority in the determination that claim 1 does not
solve a technical problem using a technical solution.
Such a determination is not necessary for the ’996
patent to be a covered business method patent, as we
are persuaded that at least claim 1 of the ’996 patent
does not recite a technological feature that is novel
and unobvious over the prior art. See Versata dev.
Grp., Inc. v. SAP Am., Inc., 793 F.3d 1306, 1326–27
(Fed. Cir. 2015). With respect to the issue of claims
1–20 being patent-ineligible under 35 U.S.C. § 101,
however, I respectfully dissent.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four
statutorily provided categories of patent-eligibility:
“processes,
machines,
manufactures,
and
compositions of matter.” Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014). I agree
with the majority that Petitioner has failed to
establish sufficiently that at the time of the
invention one skilled in the art would have
understood “computer readable medium having
program code recorded thereon” as encompassing
transitory, propagating signals. Thus, the claims fit
within one of the four statutorily provided categories
of patent-eligibility.
Section 101 “contains an important implicit
exception: Laws of nature, natural phenomena, and

274a
abstract ideas are not patentable.” Alice Corp. Pty.
Ltd. v. CLS Bank. Int’l, 134 S. Ct. 2347, 2354 (2014)
(citing Assoc. for Molecular Pathology v. Myriad
Genetics, Inc., 133 S. Ct. 2107, 2116 (2013) (internal
quotation marks omitted)). In Alice, the Supreme
Court reiterated the framework set forth previously
in Mayo Collaborative Services v. Prometheus Labs.,
Inc., 132 S. Ct. 1289, 1293 (2012), “for distinguishing
patents that claim laws of nature, natural
phenomena, and abstract ideas from those that
claim patent-eligible applications of those concepts.”
Alice, 134 S. Ct. at 2355. The first step in the
analysis is to “determine whether the claims at issue
are directed to one of those patent-ineligible
concepts.” Id.
There is no definitive rule to determine what
constitutes an “abstract idea.” Rather, the Federal
Circuit has explained that “both [it] and the
Supreme Court have found it sufficient to compare
claims at issue to those claims already found to be
directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that, in determining whether
claims are patent-eligible under § 101, “the
decisional mechanism courts now apply is to
examine earlier cases in which a similar or parallel
descriptive nature can be seen—what prior cases
were about, and which way they were decided”).
The Federal Circuit issued a decision
determining that the claims from U.S. Patent Nos.

275a
6,766,304 (“the ’304 patent”) and 6,772,132 (“the ’132
patent”) are patent eligible under § 101. Trading
Techs. Int’l, Inc. v. CQG, Inc., No. 2016-1616, 2017
WL 192716 (Fed. Cir. Jan. 18, 2017) (“CQG”). More
specifically, the Federal Circuit determined that the
claims in the ’304 and ’132 patents are not directed
to an abstract idea. Id. at *3. By virtue of a number
of continuation filings, U.S. Patent No. 7,813,996
(Ex. 1001, “the ’996 patent”) is ultimately a
continuation of the application resulting in the ’132
and ’304 patents (Application No. 09/590,692).2
In a related Board proceeding addressing the ’304
and ’132 patents, we followed the guidance from the
Federal Circuit decision noted above and determined
the claims in those patents to be patent eligible.
CBM2015-00161, Paper 129, slip op. at 4–6 (PTAB
February 17, 2017); CBM2015-00182, Paper 129, slip
op. at 18, 53–54 (PTAB February 28, 2017). The
claims at issue before us are remarkably similar to
those in the ’304 and ’132 patents. The claims are
perhaps closest to those in the ’304 patent, and with
respect to the question of whether the claims before
us are directed to an abstract idea, there is no
meaningful difference between the claims in the ’996
patent and those in the ’304 patent. Claim 1 from
the ’304 patent and claim 1 from the ’996 patent are
reproduced below, with highlighting to illustrate the
similarities.

2 The ’304 patent resulted from a divisional filing of that
application.

276a

The illustration above clearly shows that claim 1
from the ’996 patent is virtually identical to claim 1
of the ’304 patent. At oral hearing, when asked what
limitations are missing from claim 1 of the ’996
patent, counsel for Petitioner could not identify even
one. Tr. 10:11–22. As noted above, the Federal
Circuit already determined the claims of the ’304
patent are not directed to an abstract idea and we
followed that guidance in our earlier decision
addressing that patent. With respect to the question
of whether the claims before us are directed to an
abstract idea, I would follow the Federal Circuit’s
guidance from CQG, as we did in CBM2015-00161,

277a
because claim 1 of the ’996 patent is of the same, or
narrower scope, as claim 1 of the ’304 patent.
Accordingly, I would determine that claims 1–20
of the ’996 patent are eligible under § 101 because
they are not directed to an abstract idea.

PETITIONER:
John Phillips
Kevin Su
FISH & RICHARSON P.C.
BM41919-0004CP1@fr.com
PTABInbound@fr.com
Michael Rosato
WILSON SONSINI GOODRICH & ROSATI
mrosato@wsgr.com
PATENT OWNER:
Leif Sigmond
Cole Richter
MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
sigmond@mbhb.com
richter@mbhb.com

278a
APPENDIX F
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
IBG LLC, INTERACTIVE BROKERS, LLC,
Appellants
v.
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Cross-Appellant
UNITED STATES,
Intervenor
______________________
2017-1732, 2017-1766, 2017-1769
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. CBM2015-00161, CBM2016-00035.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, CHEN, and
HUGHES, Circuit Judges*.

*

Circuit Judges Taranto and Stoll did not participate.

279a
PER CURIAM.
ORDER
Appellants IBG LLC and Interactive Brokers,
LLC filed a combined petition for panel rehearing
and rehearing en banc. A response to the petition
was invited by the court and filed by Cross-Appellant
Trading Technologies International, Inc. The
petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 7,
2019.
FOR THE COURT
April 30, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

280a
APPENDIX G
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
IBG LLC, INTERACTIVE BROKERS LLC,
Appellants
v.
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Cross-Appellant
UNITED STATES,
Intervenor
______________________
2017-2052, 2017-2053
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2015-00182.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, CHEN, and
HUGHES, Circuit Judges*.

*

Circuit Judges Taranto and Stoll did not participate.

281a
PER CURIAM.
ORDER
Appellants IBG LLC and Interactive Brokers
LLC filed a combined petition for panel rehearing
and rehearing en banc. A response to the petition
was invited by the court and filed by Cross-Appellant
Trading Technologies International, Inc. The
petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 7,
2019.
FOR THE COURT
April 30, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

282a
APPENDIX H
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2017-2054
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2015-00181.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, CHEN, and
HUGHES, Circuit Judges*.

*

Circuit Judges Taranto and Stoll did not participate.

283a
PER CURIAM.
ORDER
Appellees IBG LLC and Interactive Brokers LLC
filed a combined petition for panel rehearing and
rehearing en banc. A response to the petition was
invited by the court and filed by Appellant Trading
Technologies International, Inc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 7,
2019.
FOR THE COURT
April 30, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

284a
APPENDIX I
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2017-2565
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00031.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, CHEN, and
HUGHES, Circuit Judges*.

*

Circuit Judges Taranto and Stoll did not participate.

285a
PER CURIAM.
ORDER
Appellees IBG LLC and Interactive Brokers LLC
filed a combined petition for panel rehearing and
rehearing en banc. A response to the petition was
invited by the court and filed by Appellant Trading
Technologies International, Inc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 7,
2019.
FOR THE COURT
April 30, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

286a
APPENDIX J
Trials@uspto.gov
Tel: 571-272-7822

Paper No. 143
Entered: April 26, 2017

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
IBG LLC, INTERACTIVE BROKERS, LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
____________
CBM2015-00181 (Patent 7,676,411 B2)
CBM2015-00182 (Patent 6,772,132 B2)
____________
Before SALLY C. MEDLEY, MEREDITH C.
PETRAVICK, and JEREMY M. PLENZLER,
Administrative Patent Judges.
PLENZLER, Administrative Patent Judge.

287a
DECISION
Denying Patent Owner’s Request for Rehearing
37 C.F.R. § 42.71
INTRODUCTION
On February 28, 2017, we entered a final written
decision in CBM2015-00182, determining that
claims 1–28, 30–38, 40–48, and 50–56 of U.S. Patent
No. 6,772,132 B1 are unpatentable (CBM201500182, Paper 129), and on March 3, 2017, we entered
a final written decision in CBM2015-00181,
determining claims 1–28 (the “challenged claims”) of
U.S. Patent No. 7,676,411 B2 are unpatentable
(CBM2015-00181, Paper 138 (“Final Dec.”). Patent
Owner seeks rehearing of those decisions, but only
with respect to whether the TSE reference (“TSE”)1
qualifies as a printed publication. CBM2015-00181,
Paper 142 (“Request” or “Reh’g Req.”); CBM201500182, Paper 134.2

Tokyo Stock Exchange Operation System Division,
Futures/Option Purchasing System Trading Terminal
Operation Guide (1998) (Ex. 1006; Ex. 1007 is the English
translation). Exhibits numbers are from the CBM2015-00181
record. The same reference is at issue in CBM2015- 00182.
1

2 Citations to the record hereinafter are with reference to
CBM2015-00181, unless otherwise noted.

288a
STANDARD OF REVIEW
In covered business method review, the petitioner
has the burden of showing unpatentability by a
preponderance of the evidence. 35 U.S.C. § 326(e).
The standard of review for rehearing requests is set
forth in 37 C.F.R. § 42.71(d), which states:
The burden of showing a decision should be
modified lies with the party challenging the
decision. The request must specifically
identify all matters the party believes the
Board misapprehended or overlooked, and the
place where each matter was previously
addressed in a motion, an opposition, or a
reply.
ANALYSIS
Patent
Owner’s
Request
is
based
on
disagreement with our determination that the TSE
reference is a printed publication. Request 1–7.
Petitioner presents two main groups of arguments:
those directed to our alleged misunderstanding of
Federal Circuit decisions (id. at 2–5), and those
directed to alleged inconsistencies between our
decision and those of other panels at the Board (id.
at 5–7).
With respect to its discussion of Federal Circuit
decisions, we note that Patent Owner fails to even
once cite to “the place where each matter was
previously addressed in a motion, an opposition, or a
reply.” 37 C.F.R. § 42.71(d). Patent Owner’s Request

289a
simply sets forth its disagreement with our Final
Decisions. We are aware of the Federal Circuit
decisions addressing public accessibility, and we
discussed those decisions in our Final Decisions.
Final Dec. 34, 40. Disagreement with our
determination alone is not sufficient basis for us to
modify our Final Decisions.
As for Patent Owner’s discussion of other
decisions by other Board panels, we note that none of
those decisions are precedential and, therefore, are
not binding upon us.
Moreover, our Final Decisions also determined
that
even assuming that a person of ordinary skill
in the art is narrowly limited to a “GUI
designer” as Patent Owner asserts, we find
that
securities
companies
for
banks
(“participants”) provided their own front-end
order entry software, and that such
participants would have employed GUI
designers to formulate the front-end order
entry software to facilitate trading on the
Tokyo Stock Exchange.
Id. at 42 (citing Ex. 2169 ¶ 32). Accordingly, “[w]e
determine[d] . . . that the record evidence supports a
determination that TSE was publically accessible to
persons interested and ordinarily skilled in the
subject matter.” Id. (emphasis added). Petitioner
fails to identify, or even allege, error in our finding
that “securities companies for banks (‘participants’)

290a
provided their own front-end order entry software,
and that such participants would have employed
GUI designers to formulate the front-end order entry
software to facilitate trading on the Tokyo Stock
Exchange.” Id. Whether TSE was required to be
accessible to GUI designers, therefore, does not
change our ultimate determination that TSE
qualifies as a printed publication.
For all of these reasons, Patent Owner’s Request
does not apprise us of sufficient reason to modify our
Final Decisions.
Patent Owner additionally suggests an expanded
panel to decide the issues noted above. Reh’g Req. 7–
9. Discretion to expand a panel rests with the Chief
Judge, who, on behalf of the Director, may act to
expand a panel on a suggestion from a judge or
panel. AOL Inc. v. Coho Licensing LLC, IPR201400771, slip op. at 2 (PTAB Mar. 24, 2015) (Paper 12)
(informative). Patent Owner’s suggestion was
considered by the Chief Administrative Patent
Judge, who declined to expand the panel.
ORDER
Accordingly, it is:
ORDERED that Patent Owner’s Request is
denied in each of CBM2015-00181 and CBM201500182.

291a
PETITIONER:
Robert Sokohl
Rsokohl-ptab@skgf.com
Lori Gordon
Lgordon-ptab@skgf.com
Richard Bemben
Rbemben-ptab@skgf.com
John Phillips
Cbm41919-0008cp1@fr.com
PATENT OWNER:
Leif Sigmond
sigmond@mbhb.com
Cole Richter
richter@mbhb.com
Michael Gannon
gannon@mbhb.com
Jennifer Kurcz
kurcz@mbhb.com
Jay Knobloch
Jay.knobloch@tradingtechnologies.com

292a
APPENDIX K
Section 18 of the Leahy-Smith America Invents
Act, Pub. L. No. 112-29, 125 Stat. 284 (2011),
provides in relevant part as follows:
(a) TRANSITIONAL PROGRAM. -(1) ESTABLISHMENT. -- Not later than
the date that is 1 year after the date of
the enactment of this Act, the Director
shall issue regulations establishing and
implementing a transitional post-grant
review proceeding for review of the
validity of covered business method
patents.
....
(E) The Director may institute a transitional
proceeding only for a patent that is a covered
business method patent.
....
(d) DEFINITION. -(1) IN GENERAL. -- For purposes of this section,
the term “covered business method patent” means a
patent that claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service, except
that the term does not include patents for
technological inventions.

293a
(2) REGULATIONS. -- To assist in implementing
the transitional proceeding authorized by this
subsection, the Director shall issue regulations for
determining whether a patent is for a technological
invention.
(e) RULE OF CONSTRUCTION. -- Nothing in
this section shall be construed as amending or
interpreting categories of patent-eligible subject
matter set forth under Section 101 of title 35, United
States Code.
Title 37 C.F.R. § 42.301(b) provides as follows:
In determining whether a patent is for a
technological invention solely for purposes of
the Transitional Program for Covered
Business Methods (section 42.301(a)), the
following will be considered on a case-by-case
basis: whether the claimed subject matter as a
whole recites a technological feature that is
novel and nonobvious over the prior art; and
solves a technical problem using a technical
solution.

